<html>
<title> - UPDATE OF THE POST-9/11 GI BILL</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                    UPDATE OF THE POST-9/11 GI BILL

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 16, 2010

                               __________

                           Serial No. 111-99

                               __________

       Printed for the use of the Committee on Veterans' Affairs





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                  U.S. GOVERNMENT PRINTING OFFICE
  61-757                  WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

                                 ______

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

          STEPHANIE HERSETH SANDLIN, South Dakota, Chairwoman

THOMAS S.P. PERRIELLO, Virginia      JOHN BOOZMAN, Arkansas, Ranking
JOHN H. ADLER, New Jersey            JERRY MORAN, Kansas
ANN KIRKPATRICK, Arizona             GUS M. BILIRAKIS, Florida
HARRY TEAGUE, New Mexico

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.








                            C O N T E N T S

                               __________

                           September 16, 2010

                                                                   Page
Update of the Post-9/11 GI Bill..................................     1

                           OPENING STATEMENTS

Chairwoman Stephanie Herseth Sandlin.............................     1
    Prepared statement of Chairwoman Herseth Sandlin.............    44
Hon. John Boozman, Ranking Republican Member.....................     2
    Prepared statement of Congressman Boozman....................    44
Hon. Walt Minnick................................................    11
    Prepared statement of Congressman Minnick....................    45

                               WITNESSES

U.S. Department of Defense, Captain Mark Krause, USN (Ret.), U.S. 
  Department of Veterans Affairs Program Manager, Space and Naval 
  War Systems Center Atlantic, Department of the Navy............    27
    Prepared statement of Captain Krause.........................    70
U.S. Department of Veterans Affairs, Keith M. Wilson, Director, 
  Education Service, Veterans Benefits Administration............    29
    Prepared statement of Mr. Wilson.............................    71

                                 ______

American Association of State Colleges and Universities, Alan G. 
  Merten, Ph.D., President, George Mason University..............     6
    Prepared statement of Dr. Merten.............................    50
American Legion, Robert Madden, Assistant Director, National 
  Economic Commission............................................    16
    Prepared statement of Mr. Madden.............................    60
Iraq and Afghanistan Veterans of America, Tim Embree, Legislative 
  Associate......................................................    17
    Prepared statement Mr. Embree................................    63
National Association of Veterans' Program Administrators, Faith 
  DesLauriers, Legislative Director..............................     4
    Prepared statement of DesLauriers............................    46
Veterans of Modern Warfare, Donald D. Overton, Jr., Executive 
  Director.......................................................    13
    Prepared statement of Mr. Overton............................    56
Veterans of Foreign Wars of the United States, James D. Wear, 
  Assistant Director, National Veterans Service..................    14
    Prepared statement of Mr. Wear...............................    58

                       SUBMISSIONS FOR THE RECORD

Disabled American Veterans, John L. Wilson, Assistant National 
  Legislative Director, statement................................    78
Flink, Judith, Executive Director, University Student Financial 
  Services, University of Illinois at Chicago, IL, statement.....    80
National Association of State Approving Agencies, William D. 
  Stephens, President, statement.................................    86
Student Veterans of America, statement...........................    87

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Follow-up Letter:
  Robert Madden, Assistant Director, National Economic 
    Commission, American Legion, to Hon. Stephanie Herseth 
    Sandlin, Chairwoman, Subcommittee on Economic Opportunity, 
    Committee on Veterans' Affairs, letter dated October 19, 2010    90
Post-Hearing Questions and Responses for the Record:
      Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
        Economic Opportunity, Committee on Veterans' Affairs, to 
        Faith DesLauriers, Legislative Director, National 
        Association of Veterans' Program Administrators, letter 
        dated September 20, 2010, and response letter dated 
        October 13, 2010.........................................    90
      Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
        Economic Opportunity, Committee on Veterans' Affairs, to 
        Alan Merten, President, George Mason University, American 
        Association of State Colleges and Universities, letter 
        dated September 20, 2010, and response from Edward 
        Elmendorf, Senior Vice President, Government Relations 
        and Policy Analysis, American Association of State 
        Colleges and Universities, letter dated November 1, 2010.    92
      Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
        Economic Opportunity, Committee on Veterans' Affairs, to 
        Donald O. Overton, Jr., Executive Director, Veterans of 
        Modern Warfare, letter September 20, 2010, and Mr. 
        Overton's responses, dated November 1, 2010..............    96
      Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
        Economic Opportunity, Committee on Veterans' Affairs, to 
        James D. Wear, Assistant Director for Veterans Benefits 
        Policy, National Veterans Service, Veterans of Foreign 
        Wars of the United States, letter dated September 20, 
        2010, and Mr. Wear's responses, dated November 1, 2010...    97
      Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
        Economic Opportunity, Committee on Veterans' Affairs, to 
        Robert Madden, Assistant Director, National Economic 
        Commission, American Legion, letter dated September 20, 
        2010, and response letter dated November 1, 2010.........    99
      Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
        Economic Opportunity, Committee on Veterans' Affairs, to 
        Mark Krause, Department of Veterans Affairs Program 
        Manager, Space and Naval Warfare System Center Atlantic, 
        Department of the Navy, U.S. Department of Defense, 
        letter dated September 20, 2010, and DoD's responses.....   101
      Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
        Economic Opportunity, Committee on Veterans' Affairs, to 
        Keith Wilson, Director, Education Benefits, Veterans 
        Benefits Administration, U.S. Department of Veterans 
        Affairs, letter dated September 20, 2010, and VA 
        responses................................................   102

 
                    UPDATE OF THE POST-9/11 GI BILL

                              ----------                              


                      THURSDAY, SEPTEMBER 16, 2010

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 1:06 p.m., in 
Room 334, Cannon House Office Building, Hon. Stephanie Herseth 
Sandlin [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Minnick, Teague, and Boozman.

        OPENING STATEMENT OF CHAIRWOMAN HERSETH SANDLIN

    Ms. Herseth Sandlin. Good afternoon, ladies and gentlemen, 
the Committee on Veterans' Affairs Subcommittee on Economy 
Opportunity Oversight Hearing on the Post-9/11 GI Bill will 
come to order.
    I ask unanimous consent that all Members have 5 legislative 
days to revise and extend their remarks and their written 
statements be made part of the record.
    Hearing no objection so ordered.
    I would also like to state the fact that the Disabled 
American Veterans, the University of Illinois, and the Student 
Veterans of America have asked to submit written testimony for 
the record. If there is no objection I ask for unanimous 
consent that their statements be entered for the record.
    Hearing no objection so ordered.
    During the 111th Congress, we successfully passed the Post-
9/11 GI Bill to ensure that today's veterans are afforded 
equitable benefits similar to those afforded to veterans who 
served during World War II.
    Furthermore, with the leadership of Representative Chet 
Edwards of Texas, we successfully passed the Marine Gunnery 
Sergeant John David Fry Scholarship to provide education 
benefits to the dependents of the men and women who passed away 
due to injuries sustained in support of missions in Iraq and 
Afghanistan.
    While these legislative accomplishments are significant, we 
must continue to provide the needed oversight while addressing 
the shortfalls of existing education programs to assure that 
student veterans receive their benefits in a timely manner 
without delay or undue hardship.
    To take another step toward that goal today, I hope this 
hearing can focus on several critical issues related to the 
Post-9/11 GI Bill program.
    The ongoing effort to successfully implement the Long-Term 
Solution (LTS) to ensure that the U.S. Department of Veterans 
Affairs (VA) information technology (IT) systems are 
sufficiently robust to efficiently manage the program, the 
current status of the program as we begin the fall 2010 school 
semester, and a discussion of what changes need to be made to 
the program in order to better meet the needs of eligible 
veterans.
    Some of you may be aware that yesterday the full Committee 
successfully passed H.R. 5360, the ``Housing, Employment and 
Living Programs for Veterans Act of 2010,'' otherwise known as 
the HELP Veterans Act, which is fully paid for without placing 
a cost burden on the taxpayers.
    This bill seeks to provide a number of important 
improvements to VA education benefits, including increasing the 
flight training allowance for chapter 30 recipients; 
reauthorizing and extending the recently expired veteran work-
study program; and increasing the amount of reporting fees 
payable to educational institutions that enroll veterans 
receiving educational assistance.
    I look forward to advancing this bipartisan bill as soon as 
time on the House floor is identified. I also look forward to 
working with my colleagues to consider other legislative 
proposals that seek to address the current needs of our 
Nation's veterans.
    One such legislative proposal is H.R. 5933, the ``Post-9/11 
Veterans Educational Assistance Improvements Act of 2010,'' 
which was introduced by Congressman Walt Minnick. I know 
several of our witnesses have referenced this legislation today 
and I look forward to learning more about how the proposals in 
that legislation, as well as those included in similar and 
related legislation, could potentially impact the Post-9/11 GI 
Bill program and its implementation.
    I would now recognize the distinguished Ranking Member, Mr. 
Boozman, for his opening remarks.
    [The prepared statement of Chairwoman Herseth Sandlin 
appears on p. 44.]

             OPENING STATEMENT OF HON. JOHN BOOZMAN

    Mr. Boozman. Thank you, Madam Chair, I appreciate the 
excellent testimony submitted for this hearing, especially the 
administrative issues raised by the schools.
    It is clear that while not perfect, the level of benefits 
paid to veterans and the schools on their behalf is excellent. 
Unfortunately, administration of those benefits has not met the 
same standard, because as VA and our staff noted in several 
meetings before passage as part of the defense supplemental, 
the program is significantly more complex than any of its 
predecessors.
    Despite some early missteps, I am fully aware of the 
efforts that VA staff had put into developing the Long-Term 
Solution, and I thank and appreciate them for their work.
    One of the basic difficulties is the wide variation in how 
public institutions in 50 States and the territories are funded 
and managed and how that impacts VA's implementation of the 
Post-9/11 GI Bill.
    We are now entering the second year of the program and I am 
very concerned about issues surrounding the management of 
overpayments.
    VA's basis position is that the veterans are responsible 
for returning any overpayment to VA and that schools should 
send overpayments to the veterans and the veterans send them to 
the VA. This seems to be an unnecessarily bureaucratic process 
that also entails significant opportunity for less than optimal 
results.
    We are also hearing about difficulties when schools send 
money directly back to VA, as well as VA's concerns about how 
some schools do not identify the veterans whose account should 
be credited for returned overpayments and the resulting 
attempts by VA to collect overpayments from veterans.
    Perhaps, Madam Chair, it is time for a temporary moratorium 
on chapter 33 collections until VA and the schools get the 
rules for handling the overpayment straightened out.
    Again, we appreciate our witnesses today and look forward 
to the testimony.
    I yield back.
    [The prepared statement of Congressman Boozman appears on 
p. 44.]
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    Before we proceed I would like to ask unanimous consent for 
the Honorable Walt Minnick of Idaho to be allowed to 
participate in today's oversight hearing at a point in time 
which he may be joining us.
    Hearing no objection so ordered.
    I would like to welcome all of our panelists who are 
testifying before the Subcommittee today.
    Joining us for the first panel of witnesses are Ms. Faith 
DesLauriers, Legislative Director for the National Association 
of Veterans' Program Administrators (NAVPA). She is accompanied 
by Ms. Margaret Baechtold, Director of Veterans Support 
Services at Indiana University. Also joining us on this first 
panel is Dr. Alan Merten, President of George Mason University, 
who is representing the American Association of State Colleges 
and Universities (AASCU).
    In the interest of time and courtesy to all of our 
panelists here today we ask that you limit your testimony to 5 
minutes, focusing your comments and recommendations on areas of 
priorities in your written testimony.
    The entire written statement that you have submitted to the 
Subcommittee has been entered into the record.
    Ms. DesLauriers, we will begin with you. Welcome, and you 
are recognized for 5 minutes.

STATEMENT OF FAITH DESLAURIERS, LEGISLATIVE DIRECTOR, NATIONAL 
ASSOCIATION OF VETERANS' PROGRAM ADMINISTRATORS; ACCOMPANIED BY 
   MARGARET BAECHTOLD, DIRECTOR, VETERANS SUPPORT SERVICES, 
   INDIANA UNIVERSITY, ON BEHALF OF NATIONAL ASSOCIATION OF 
 VETERANS' PROGRAM ADMINISTRATORS; AND ALAN G. MERTEN, PH.D., 
   PRESIDENT, GEORGE MASON UNIVERSITY, ON BEHALF OF AMERICAN 
         ASSOCIATION OF STATE COLLEGES AND UNIVERSITIES

                 STATEMENT OF FAITH DESLAURIERS

    Ms. Deslauriers. Thank you and good afternoon Chairwoman 
Herseth Sandlin, Ranking Member Boozman, and Members of the 
Subcommittee.
    Accompanying me today is Margaret Baechtold, Director of 
Veterans Support Services at Indiana University.
    We appreciate the opportunity to appear before you today 
and for the opportunity to share the concerns and 
recommendations of veteran program administrators, as well as 
that of the population they serve regarding education benefits.
    In keeping with the three areas that you asked for 
information, the concerns that NAVPA hears from veterans 
regarding their education benefits are that students pursuing 
their education through distance learning should have the same 
eligibility for housing stipends as students attending what is 
defined as in-residence training.
    Retired and separated veterans who earned and are otherwise 
eligible for the Post-9/11 GI Bill have voiced their concern 
and extreme disappointment in being denied the ability to 
transfer their entitlement to their dependents.
    Veterans have also voiced their concern that the ability to 
pursue their educational endeavors are restricted to that which 
is deemed by Congress to be traditional.
    Students don't understand why VA distinguishes between 
tuition and fees with different caps for each rather than 
combining them into one maximum.
    Students are concerned that VA remains unable to credit 
refunds made by the schools to their accounts, and veterans are 
receiving letters from the Debt Management Center (DMC), 
although those students are current with their payment plans 
negotiated with DMC, in an effort to repay the emergency 
advance payments for fall 2009.
    This particular issue is effecting their credit and their 
ability to gain credit.
    Feedback from NAVPA, the schools that administer the GI 
Bill on campuses, there is a critical need for consistent 
guidance as to the correct procedures for returning or 
refunding payments, as well the assurance that those funds 
returned to the VA will in fact be credited to the veteran's 
debt or overpayment.
    Many students who access their education benefits are 
placed at a financial disadvantage because of VA's policy to 
count class enrollment sessions versus enrollment sessions 
during a standard semester.
    It is imperative that there be an efficient communication 
mechanism between schools and the VA.
    Inconsistent guidance to schools among and between the 
regional processing offices (RPOs) and education liaison 
representatives (ELRs) continues to be problematic. 
Responsibilities associated with the program have increased the 
processing time for each claim at school level approximately 
300 percent, yet institutions continue to be compensated at the 
rate of $7 for each student enrolled.
    We request that that be changed, it has not been changed in 
over 30 years.
    Reinstate the customer service units at each of the RPOs, 
specifically to work with the veteran program administrators.
    Improvements to chapter 33 that NAVPA believes are needed, 
the GI Bill must remain an earned entitlement and not become a 
need-based award. Leave other scholarships, grants, et cetera, 
out of the equation.
    Eliminate the inequities among rates paid to eligible 
individuals for attendance at schools of different types; 
public, private, foreign, graduate, undergraduate, resident or 
non-resident.
    There should be an elimination of annual State tuition and 
fee maximums. That would improve timing of certification, 
processing, and payment and accuracy of those payments.
    Tie the living stipend to the training time for all forms 
of course delivery and reduce the minimum training time 
requirement to half-time, rather than more than half-time.
    And, correct the rule that makes it impossible for a 
reserve component member eligible at less than the 100 percent 
tier of chapter 33 to combine Federal tuition assistance, which 
is first pay, and chapter 33, which is second pay, in any way 
that would cover all of their charges. Clarify non-duplication 
of Federal programs.
    NAVPA members fully support legislation that would expand 
the student work study program and overpayments created by the 
eligible individual as a result of a reduction or termination 
in enrollment but, should be recovered from entitlement.
    NAVPA recommends elimination of the multiple levels of 
eligibility as it relates to required active-duty service.
    Amend chapter 33 to expand educational and training 
opportunities such as on-the-job training/Apprenticeships and 
other viable and previously approved vocational training and 
continue to work toward providing equity in benefit and 
simplicity in rules regarding eligibility, payments, and the 
overall administration of the Post-9/11 GI Bill.
    Again, thank you for this opportunity to participate in 
this hearing, to discuss current problems affecting veterans, 
as well as educational institutions, and to recommend solutions 
on behalf of our Nation's veterans, servicemembers and their 
dependents, and the National Association of Veterans' Program 
Administrators.
    Madam Chairwoman, this concludes my statement. I would be 
pleased to answer any questions you or the Committee 
Subcommittee may have.
    [The prepared statement of Ms. DesLauriers appears on p. 
46.]
    Ms. Herseth Sandlin. Thank you for your testimony.
    Dr. Merten, you are now recognized.

                  STATEMENT OF ALAN G. MERTEN

    Dr. Merten. Madam Chair Herseth Sandlin, Ranking Member 
Boozman, and distinguished Members of the Subcommittee, my name 
is Dr. Alan Merten and I am President of the George Mason 
University.
    Today I represent and present the perspective of the 
American Association of State Colleges and Universities related 
to the implementation of the Post-9/11 GI Bill benefits 
programs. Thank you for holding this hearing.
    When the Post-9/11 GI Bill was first introduced it, was 
anticipated that colleges and universities would see a 20 to 25 
percent increase in enrollment of veterans. At Mason, we saw a 
30 percent increase in fall 2009 enrollment and a 79 percent 
increase in spring 2010.
    One of those newly enrolled veterans introduced President 
Obama, Vice President Biden, Senator Webb, Senator John Warner, 
and Secretary Shinseki at George Mason University when the bill 
was introduced nationally on August 3rd, 2009.
    Your Committee asked that we address three areas. Concerns 
from veterans regarding their educational benefits. Second, 
feedback from institutions about implementation and 
administration of benefits. And three, improvements in the 
program that we suggest are needed.
    GI Bill benefits have been historically provided to the 
veteran student. As Vietnam-era veterans, my wife and I 
received benefits in this manner.
    The creation and implementation of the Post-9/11 GI Bill 
benefit program altered this procedure by having the Veterans 
Affairs issue the funds directly to the institution after a 
certifying process.
    The compressed timeline that the VA faced in implementing 
this program created a difficult situation for many schools and 
for veterans.
    One of the major and universal issues faced by veteran 
students is related to delays. While there have been some 
delays in processing benefits, most benefit delays have 
occurred in reprocessing and in payment of other allowances, 
such as housing and book stipends.
    Because of the changes in how the benefits are issued, 
student veterans rely on their school officials to provide the 
guidance and information they need.
    The VA has often been slow in providing information beyond 
the basic essentials regarding benefits to institutions and 
veterans.
    It is important to remember that the school official is not 
a VA employee, and in many cases does this additional task as a 
collateral duty.
    As a result of the Post-9/11 GI Bill, the workload on these 
staff members has increased to a point where many schools, like 
us at George Mason, have had to hire additional personnel to 
handle not only the certification process, but the billing 
process as well.
    The Post-9/11 GI Bill has also presented higher education 
institutions with a number of challenges that include student 
veterans with academic, mental health, and physical disability 
needs.
    The academic include veterans that require remedial 
education before starting college, some because they have lost 
skills in the years since high school and others because they 
were not college-ready in the first place.
    A recent RAND report indicates that one in five Post-9/11 
veterans will suffer from combat stress or cognitive issues 
such as post-traumatic stress disorder (PTSD) or traumatic 
brain injury (TBI). Few schools, and even fewer student health 
centers are equipped to address these needs.
    In addition to the mental health issues U.S. Department of 
Defense (DoD) indicates that there are over 36,000 
servicemembers who have been wounded in action. Some of these 
wounded warriors have catastrophic combat injuries that are not 
typically found on campuses where disabilities have a far 
different meaning.
    More effort to understand how institutions operate and work 
with the Federal Government must occur.
    The VA interpretation of separating tuition and mandatory 
fees related to a cost of an education is just but one example. 
The higher education community refers to tuition and mandatory 
fees as a single amount, not two separate ones.
    Student veterans change majors, drop or withdraw from a 
class, and have other circumstances that require the certifying 
offer to review and re-certify the veterans benefits.
    To further complicate the return of funds in an overpayment 
situation, the VA established two procedures. One to use when 
classes that have not begun, another after classes have begun.
    Contrast this process with the return of Federal financial 
assistant funds under the Higher Education Act. In these 
situations institutions recalculate the eligible amount and 
adjust accordingly. If a student has received an overpayment, 
the overage is returned to the Federal Government, if the 
student is eligible for additional funds, the school requests 
the additional funds.
    Our recommendation is including asking Congress to clearly 
define the benefit amount for an individual. This entails, 
among other things, eliminating the separate factor for tuition 
fees.
    The Post-9/11 GI Bill, which establishes a highest in-State 
rate for the academic year, fails to take into account tuition 
increases at institutions during the year. Some changes require 
to incorporate and to accommodate these tuition and fee 
increases that are midyear.
    Another issue that Congress should address for the veteran 
is related to providing a basic allowance for housing, a basic 
housing allowance for nearly 70 percent of veterans who receive 
some of their education online.
    Basic housing allowance benefits are only awarded now to 
veterans receiving their post-secondary education within the 
classroom setting.
    Finally, we ask Congress to consider requiring the VA to 
collect and publish complete and timely data on the Post-9/11 
GI Bill, including data on customer service by the VA to 
veteran students and institutions.
    Institutions like George Mason University stand ready to 
work with the VA to provide and to ensure an ease of access for 
veterans enrolling in post-secondary education.
    The good news is that the VA has increased its outreach to 
schools to work collaboratively and openly with the higher 
education community to understand how the VA processes could be 
improved to better and more effectively assist veteran 
students.
    The higher education community is prepared and eagerly 
looks forward to working collaboratively with the VA to 
streamline this program and reduce the confusion to 
institutions, the VA, and more importantly the veteran.
    Thank you for your attention.
    [The prepared statement of Mr. Merten appears on p. 50.]
    Ms. Herseth Sandlin. Thank you, Dr. Merten.
    We have a pending vote, but we are going to see if we can 
get through the questions that the Ranking Member and I have, 
at least for the folks on our first panel.
    We have in past Congresses, and in this one, tried to 
grapple with the issue of other scholarships and other 
resources that veterans have available, and maybe even before 
they became eligible for education benefits with the VA they 
had taken out loans or had been eligible for Pell Grants.
    I think you both mentioned it in your written testimony and 
referenced it briefly in the testimony you just provided, how 
do we keep the GI Bill from becoming a needs-based award? Is it 
related to VA being the last payer as it relates to how that 
effects other types of financial aid the student may receive.
    Dr. Merten. From a perspective of President, and I also 
have to remember my wife always comments when someone asks me a 
detailed question, don't expect Alan for the detailed answer, 
he is just the President.
    But from our perspective I would view and as a former 
beneficiary of the GI Bill this benefit is an earned benefit, 
pure and simple, and if there are other benefits that the 
veteran receives, you know, that is a separate issue, but I 
would hope this doesn't become a need base. This is a special 
benefit. It is not merit, it is not need, it is an award, and I 
think--hopefully that doesn't change.
    Ms. Herseth Sandlin. Ms. DesLauriers.
    Ms. Deslauriers. I believe it should not be reduced by any 
other financial assistance, that the GI Bill should not be 
reduced by any other assistance that is, the student receives 
regardless of where it comes from unless it meets the 
definition as currently defined in the law that it is another 
active-duty benefit.
    So I think everybody agrees that if the student gets 
tuition assistance because they are on active duty, they should 
not be able to duplicate that benefit with their GI Bill.
    Ms. Herseth Sandlin. Ms. DesLauriers, in your estimation, 
do you have any clear sense of what has prevented the VA from 
being able to credit refunds made by the schools to the 
students' accounts.
    Ms. Deslauriers. No, ma'am.
    Ms. Herseth Sandlin. Okay. Mr. Wilson may shed some light 
on that for us.
    Ms. Deslauriers. Yes.
    Ms. Herseth Sandlin. Then we have the issue that we have 
heard about and many of our colleagues have heard about 
directly from constituents or those from the State Approving 
Agencies that are working with some of these students. This is 
the issue of the overpayments and the difficult position that 
many veterans are being put in. If either of you could 
elaborate on the problems that you are seeing from your vantage 
point. I think Ms. DesLauriers you had mentioned when they get 
their letters from the Debt Management Center or other 
collection agencies that are actually calling and hounding our 
veterans who relied on the information and the calculation of 
benefits. I mean, I have heard a lot from some of my 
constituents, and it is effecting their credit, their access to 
credit, as you mentioned.
    Do you want to elaborate at all and from your vantage point 
of some of the problems that the students you are familiar with 
are experiencing.
    Ms. Deslauriers. I have one particular case, and I didn't 
bring the student name with me, but I would be glad to provide 
that for you, because she did authorize me to do that should 
you ask.
    Ms. Herseth Sandlin. Okay.
    Ms. Deslauriers. But the one case was a recent case of a 
student who actually went into--she got the emergency money in 
advance last year and she was paying her payments faithfully 
every single month like was agreed, and all of a sudden she 
started getting these letters from the Debt Management Center 
indicating that her credit, it had been turned over to all of 
these various credit agencies, and then she got notice from her 
credit card company, they canceled her credit card. She could 
no longer use her card. And I believe that she did speak with 
her representative about it, and just by happenstance she ran 
into him at a particular town meeting and was able to talk with 
him, and I believe that he would address that, but those are 
the kind of situations, and that is not just unique to my 
campus.
    Apparently something happened just recently--and I am sure 
that Mr. Wilson can identify what could have happened in the 
system that caused that to happen--but just in general when the 
student has a debt then they are going to be turned over to the 
collection agency, and they get letters to that effect.
    Well the matter of fact is there is no debt. The school has 
returned the money, it is just not being identified as having 
been returned.
    And I will tell you that one of the other issues is that 
even the schools are sending checks to DMC and they are not 
being cashed, they are actually going void, and then our checks 
then become void, we have to stop payment on them, that costs 
the schools money to stop payment on those checks and reissue 
again. We have had that happen more than once with the same 
student where the check is 90 day, 90 days, and it never was 
cashed. So we don't really know that until we realize that our 
accounts are not balancing.
    Ms. Herseth Sandlin. Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair.
    Dr. Merten, you mentioned the problem of the ancillary 
fees, and all of the problems associated with that, with them 
occurring and then they are not there. And Ms. DesLauriers, 
again, similar things.
    I guess, as we have dealt with this it seems to me like, 
and I would really just like your opinion, it seems like the 
current situation that we are in really isn't workable. Do you 
agree with that? I mean----
    Ms. Deslauriers. Yes, sir.
    Dr. Merten. Yeah, I particular--I mean your comments 
before, it is time to step back a little. I mean here we have 
something we have to do. I believe as a Nation we have this 
obligation, so we have to do it.
    Now if we have to do it there is really--if you want the 
three players, there is the veterans, there is the 
institutions, and there is it is Federal Government, Veterans 
Affairs.
    We have to ask ourselves what is--what are we trying to 
accomplish and then what is the role of each of the three? And 
I think in many cases we didn't do that, and now we have to do 
it.
    And if we--you know, it ain't rocket science, and it is 
just--I think there is just things that weren't thought of 
particularly how we as institutions operate and then how--and 
what the requirement of the veteran--the returning veteran is 
having enough difficulty getting used to college, and to add 
these information burdens on it is unthinkable.
    Mr. Boozman. Yeah. No, I agree, and we appreciate your help 
in helping us sort that out, and we have had enough lapse in 
time now. It is not like the law was just passed, we have given 
it time, we have worked through a couple cycles, and so we have 
experience.
    So I guess the only comment I would make, Madam Chair, is 
that you know, again, this is just something that we have to 
pursue, and as you are, and I appreciate your leadership in 
doing this. That we have to bring it to a head in working with 
individuals like this and the rest of our panel, working with 
VA that is also working so hard to get this done. Hopefully we 
will be able to arrive at a solution.
    Thank you.
    Ms. Herseth Sandlin. All right, thank you, Mr. Boozman, and 
I know you made a recommendation in your opening remarks about 
a temporary moratorium on the collection efforts.
    I think as you and I both know, we knew we were going to be 
in for some headaches, despite our support of this important 
benefit, because a lot of these things weren't completely 
thought through in the desire to move forward as quickly as 
possible to deliver the benefits. And as we do that, we need to 
recognize that we should be holding harmless the veteran.
    We will work with the VA and with the institutions, while 
at the same time protecting the taxpayer. We all know from 
talking to our constituents that the veteran isn't being held 
harmless, and in a time of terrible downturn in the economy and 
tight credit, the last thing we need is for veterans credit 
scores to be effected as they are trying to get through, invest 
in themselves, and in many instances providing for their 
families.
    We are going to have to head down for votes and then we 
will resume the questioning with Mr. Teague when we return for 
the first panel. We may have a second round of questioning for 
any further comments or questions that the Ranking Member or I 
may have. Okay.
    The hearing will be in recess.
    [Recess]
    Ms. Herseth Sandlin. We appreciate everyone's patience as 
we have wrapped up the last votes for the day, so we can move 
ahead with the remainder of our hearing.
    Ms. DesLauriers, in the essence of time I may have some 
additional questions that I will submit in writing that you can 
take for the record, Mr. Boozman may as well, and so we are 
going to move to our second panel.
    But before we do and as you are taking your seats I do want 
to recognize Mr. Minnick for statement. Welcome. Thank you for 
joining us on the dais today.

             OPENING STATEMENT OF HON. WALT MINNICK

    Mr. Minnick. Madam Chairwoman, Ranking Member Boozman, and 
Members of the Subcommittee, I thank you for allowing me to 
join this hearing today.
    I would also like to thank our panel of representatives 
from the American Legion, the Iraq and Afghanistan Veterans of 
America, Veterans of Modern Warfare, and the Veterans of 
Foreign Wars.
    I thank them for their military service and for the insight 
into what must be done to improve and simplify the new GI Bill, 
which this Congress passed with strong bipartisan support last 
year.
    I would like to make a few brief remarks about the 
importance of this bill, H.R. 5933, and the ``Post-9/11 
Veterans Educational Assistance Improvements Act.''
    In 1945, the House Committee on Veterans' Affairs conducted 
a lengthy hearing to review the effectiveness of the first GI 
Bill, which was intended to give returning World War II 
veterans a college education in return for their service in 
saving the Nation from foreign aggression.
    As we are doing today, Members of that Committee listened 
to veterans' groups request upgrades to the first version of 
the bill so that the benefits could be extended to things like 
vocational education and correspondence courses. And now, two 
generations later, we are doing the same thing today.
    Just as the World War II GI Bill was upgraded to help 
educate what is often referred to as the greatest generation, 
we must upgrade and improve the new GI Bill to make it workable 
so it can fully satisfy the educational needs of a new 
generation of returning veterans.
    As a veteran myself from the Vietnam-era, I have many 
friends who volunteered to serve in that war so they could go 
to college after they left the military and with their GI 
benefits to obtain the education necessary to launch into 
successful professional careers.
    Having listened to many veteran service organizations and 
veterans from my home State of Idaho and elsewhere, I have 
introduced H.R. 5933 to offer the comprehensive improvements 
needed to make the new GI Bill fit the needs of this 
generations returning veterans.
    To provide a brief example, students enrolling in an 
excellent private college in my district, Northwest Nazarene 
University in Nampa, Idaho, will directly benefit from this 
bill in several ways.
    By raising the maximum tuition cap to $20,000 per year H.R. 
5933 will significantly increase the tuition benefits available 
for veterans attending Northwest Nazarene, and other excellent, 
but expensive, private colleges.
    The bill will also afford a living allowance to veterans 
opting to pursue their degrees online, a benefit they were 
previously denied.
    It will also reimburse travel costs for distance learners, 
and includes a new $1,000 allowance for increasingly expensive 
student books, both hard copy and electronic.
    The bill will also make educational benefits available for 
those veterans electing to pursue vocational education or other 
technical training.
    My offices in Idaho and Washington have listened to stories 
shared by veterans who have been unable to take full advantage 
of the new GI's benefits, benefits Congress intended to confer 
with last year's legislation. Many others have had their 
benefits reduced or unnecessarily limited because of the effect 
of regulations imposed under the Bill.
    To fulfill the promise we make to today's young people who 
volunteer to put their lives in harm's way to serve in the 
military and preserve our way of life, we must provide them 
with the education they need after their military service to be 
successful in today's high tech world.
    This bill makes the corrections to last year's landmark GI 
Bill required for us to redeem that promise.
    In closing, I would like to thank Chairwoman Herseth 
Sandlin for her support in this effort and very much look 
forward to working with her, Chairman Filner, the Ranking 
Member, and my Republican colleagues in moving this bill 
through to passage in the remaining days of this Congress.
    Thank you and I yield back.
    [The prepared Statement of Congressman Minnick appears on 
p. 45.]
    Ms. Herseth Sandlin. Thank you, Mr. Minnick, and I thank 
you for your hard work and your efforts not only with this 
Subcommittee and the full Committee, but working with a number 
of our veteran service organizations, and clearly with your 
constituents who have had concerns and have faced some barriers 
in fully accessing the education benefits that were authorized 
in the last Congress and what we can do the make the 
improvements. I thank you and I thank you for joining us today.
    I would now like to invite the second panel to the witness 
table. Joining us on our second panel of witnesses is Mr. 
Donald Overton, Jr., Executive Director for the Veterans of 
Modern Warfare (VMW); Mr. James Wear, Assistant Director, 
National Veterans Service for the Veterans of Foreign Wars of 
the United States (VFW); Mr. Robert Madden, Assistant Director, 
National Economics Commission of the American Legion; and Mr. 
Tim Embree, Legislative Associate for the Iraq and Afghanistan 
Veterans of America (IAVA).
    Thank you all for being here at the Subcommittee and we 
look forward to your testimony.
    Again, your written statements have been made part of the 
hearing record, and so we ask that you keep your remarks to 5 
minutes.
    Mr. Overton, we will begin with you. You are now recognized 
for 5 minutes.

   STATEMENTS OF DONALD D. OVERTON, JR., EXECUTIVE DIRECTOR, 
VETERANS OF MODERN WARFARE; JAMES D. WEAR, ASSISTANT DIRECTOR, 
  NATIONAL VETERANS SERVICE, VETERANS OF FOREIGN WARS OF THE 
  UNITED STATES; ROBERT MADDEN, ASSISTANT DIRECTOR, NATIONAL 
     ECONOMIC COMMISSION, AMERICAN LEGION; AND TIM EMBREE, 
LEGISLATIVE ASSOCIATE, IRAQ AND AFGHANISTAN VETERANS OF AMERICA

              STATEMENT OF DONALD D. OVERTON, JR.

    Mr. Overton. Thank you. Chairwoman Herseth Sandlin, Ranking 
Member Boozman, and distinguished Members of the Subcommittee 
on Economic Opportunity, on behalf of Veterans of Modern 
Warfare and our National President, Mr. Joseph Morgan, we thank 
you for the opportunity to present an update on the 
Post-9/11 GI Bill.
    My name is Donald Overton and I currently serve as 
Executive Director for VMW.
    Since the enactment of the Post-9/11 GI Bill, VMW members 
across the Nation have been afforded the opportunity to pursue 
educational endeavors at varying institutions of higher 
learning, yet, far too many have been left behind.
    It became readily apparent that this historically 
significant legislation had a multitude of unforeseen 
limitations. Hopefully, this Committee, along with your 
colleagues in the 111th Congress, will correct these 
limitations and ensure the maximum effectiveness of the most 
generous investment in veterans' educational benefits since the 
end of World War II.
    H.R. 5933, or GI Bill 2.0, as it has been referred to, 
remedies a multitude of concerns espoused by our student 
veteran members. These would include the opportunity to pursue 
vocational, apprenticeship, on-the-job training, 
correspondence, and flight training educational programs; full 
GI Bill credit for full-time National Guard service, to include 
full-time title 32 Active Guard Reserve; a housing stipend for 
distance learners, or those studying less than full-time; 
Yellow Ribbon benefits to certain National Guard and Reserve 
personnel members; and an equivalent book stipend for active-
duty students.
    We are however concerned by certain language found within 
the legislation. Our primary concern may be found at section 
11, the proposed elimination of the cost of living allowance 
for chapter 30, Montgomery GI Bill (MGIB) recipients to afford 
a cost of living allowance for chapter 33 Post-9/11 GI Bill 
recipients. Taking benefits from one class of veterans to pay 
for another is an unjust policy consideration and should not 
have been proposed. We urge you to eliminate this from any bill 
that goes forward.
    Given the prescribed effective date of August 2011, we 
believe this will afford the VA and school administrators, 
ample time to train and prepare for the adjusted benefit 
package, which will also assuage what has been a primary 
concern of school administrators, the lack of communication, 
and training time by the VA.
    Our Nation owes veterans much more than blood money, 
especially to our veterans who have been disabled in service to 
our country.
    The central event in their readjustment process is being 
able to secure gainful work at a living wage. Without a major 
cultural transformation within the Department of Veterans 
Affairs as prescribed by H.R. 3719, the ``Veterans Economic 
Opportunity Administration Act of 2009,'' the most well 
intention chapter 33 legislative remedies may be doomed to 
failure.
    H.R. 3719 establishes in the Department of Veterans Affairs 
a Veterans Economic Opportunity Administration to be headed by 
an Under Secretary for Veterans Economic Opportunity. It will 
put under one roof the following VA programs. Vocational 
rehabilitation and employment; educational assistance; 
veterans' housing, loan, and related programs; veterans' 
entrepreneurship; and homeless veterans.
    This bill also would establish as an interagency committee, 
the Department of Veterans Affairs-U.S. Department of Labor 
(DoL), as well as the Small Business Administration Joint 
Executive Committee on Economic Opportunity to recommend to the 
secretaries of Veterans Affairs and Labor and the administrator 
of the Small Business Administration strategic direction for 
the joint coordination and sharing of efforts to promote and 
administer veterans economic opportunity programs, as well as 
overseeing the implementation of those efforts.
    Unfortunately, we have seen time and again the VA's failure 
to properly implement the benefit programs within their 
purview. These failures have been particularly pervasive within 
the Veterans Benefits Administration. It is imperative that 
during this era of cultural transformation within the VA, under 
Secretary Shinseki's bold leadership, that the Veterans 
Economic Opportunity Administration be created.
    Removing these relevant programs from the antiquated and 
over-burdened Veterans Benefit Administration will ensure the 
viability of veterans' economic opportunities for their 
futures, a just reward from a grateful Nation.
    Madam Chairwoman, VMW again thanks you for this opportunity 
to express our views, and will be pleased to respond to any 
questions you or your colleagues may have.
    Thank you.
    [The prepared statement of Mr. Overton appears on p. 56.]
    Ms. Herseth Sandlin. Thank you, Mr. Overton.
    Mr. Wear, you are recognized.

                   STATEMENT OF JAMES D. WEAR

    Mr. Wear. Chairman Herseth Sandlin, Ranking Member Boozman, 
and the Members of the Subcommittee, on behalf of the 2.1 
million members of the VFW and our Auxiliaries, we would like 
to thank the Subcommittee for giving us the opportunity to 
testify today on the veterans' concerns regarding their 
education benefits and improvements to the Post-9/11 GI Bill.
    The VFW is very proud to have worked with this Subcommittee 
to pass the Post-9/11 GI Bill in July of 2008. A generation of 
veterans is now better equipped to seek higher education, with 
hundreds and thousands of veterans in schools across the Nation 
directly benefiting from the dedication, work, and leadership 
of this Subcommittee and its staff.
    Last year, VA had a quote, ``Spring 2010 GI Bill Benefit 
Processing'' Web site. It was used to track their processing of 
education enrollments during the 2009-2010 academic year. There 
is no Web site to track the payment of educational benefits 
during this 2010-2011 academic year.
    VFW suggests the same type of Web site should be set up by 
VA to track the processing of both chapter 33, Post-9/11 GI 
Bill, and non-chapter 33 education payments made during this 
academic year of 2010-2011.
    VA is to be commended for having already processed over 
150,000 chapter 33 enrollments, but VA's educational workload 
reported this past Monday that there is 173,000, almost 
174,000, non-chapter 33 enrollments still pending.
    We believe that the VA needs to focus on not only chapter 
33, but also on the timely processing of non-chapter 33 
enrollments, Montgomery GI Bill, AEP, et cetera.
    There are additional improvements that can be made by re-
examining the Post-9/11 GI Bill with an eye toward simplifying 
and strengthening the benefits it provides. We offer a number 
of suggestions to improve, simplify, and strengthen the 
legislation with the goal of ensuring equitable benefits for 
equivalent service.
    The VFW offers its strong support for H.R. 5933, the 
``Post-9/11 Veterans Educational Assistance Improvements Act of 
2010.''
    The VFW believes a number of changes can be made to the 
Post-9/11 GI Bill to adjust the needs of today's 
servicemembers, veterans, and their families. Many of these 
changes are reflected in the Bill.
    Of the many positive changes in this legislation, the 
provisions that would allow Guard and Reserve members to count 
active-duty service under title 32 towards chapter 33 
eligibility is perhaps the most important. This change will 
credit these men and women for their services in securing our 
Nation's borders and airports, cleaning up the Gulf, saving 
lives and property after natural disasters, such as Hurricane 
Katrina. Making sure the Reserve component receives equitable 
benefits for equivalent service is a top VFW priority.
    To further strengthen the benefit, the legislation would 
also eliminate the State-based payment cap, replacing it with a 
guarantee that chapter 33 benefits will fully cover the cost of 
any public undergraduate or graduate program in the Unites 
States.
    Further, it offers a dollar for dollar match up to $20,000 
per year for all approved non-public institutions of higher 
learning, IHLs, in the United States and foreign IHLs.
    The VFW also supports providing housing stipends for 
veterans pursuing a program of education at a foreign IHL, at a 
half-time rate of training, through distance learning, and 
utilizing the chapter 31 vocational rehabilitation program.
    This legislation looks to expand the GI Bill to include on-
the-job training and apprenticeships.
    The original GI Bill provided training for apprenticeships 
and vocational training for World War II veterans. We believe 
the Post-9/11 GI Bill should also provide our current veterans 
with the same opportunities to seek careers in skilled trades.
    These programs represent the most effective direct 
employment programs available to our Nation's newest veterans. 
Many veterans have transferable knowledge and technical skills 
acquired in the military that gives them a head start on 
earning a technical education that would help us re-energize 
our economy.
    The proposed change to the lump sum payment for books, 
supplies, equipment, and other educational costs for 
individuals on active duty pursuing a program of education is 
also supported by the VFW.
    This legislation will establish a process allowing a 
veteran to take multiple licensure and/or certification tests 
and that there would be no charge to the veterans entitlement 
for these tests as long as they did not exceed $2,000. Again, 
the VFW supports this.
    By streamlining processes and opening new avenues to 
education and training, veterans will be better equipped to 
make their ambitions a reality.
    Once again, thank you for hearing the voice of the VFW and 
its members. We look forward to continuing to work with you to 
improve the lives of America's veterans and their families.
    Madam Chairwoman, this concludes my testimony. I would be 
pleased to respond to any questions you or the Members of your 
Subcommittee may have.
    Thank you.
    [The prepared statement of Mr. Wear appears on p. 58.]
    Ms. Herseth Sandlin. Thank you, Mr. Wear.
    Mr. Madden, you are recognized.

                   STATEMENT OF ROBERT MADDEN

    Mr. Madden. Thank you.
    Thank you, Madam Chairwoman and Ranking Member Boozman for 
allowing the American Legion to give its views on the 
implementation of the Post-9/11 GI Bill.
    Last fall, the number of veterans receiving delayed 
payments rose by the tens of thousands. VA did not have enough 
staff to take on the overwhelming task of processing Post-9/11 
GI Bill claims on their antiquated system.
    Measures were taken to increase productivity, including 
hiring additional claims processors, mandatory overtime, and 
having the VA Central Office also process claims.
    One year later where are we? While the VA has made strides 
in processing claims efficiently, the American Legion still 
receives calls and e-mails from veterans and their families 
about the financial burden they are forced to undergo due to 
the delayed payment of housing allowance.
    Yes, VA does have the updated IT system up and running, but 
we still continue to receive information from the field that 
veterans are forced to make drastic decisions in their 
financial planning to make ends meet until they receive their 
payment.
    Just last week, I received multiple e-mails from student 
veterans making note of the following issues with VA. One, 
initial processing is very slow. Two, unable to get a person on 
the phone to physically talk to about their issues. And three, 
the amount of funding initially allocated was incorrect and 
took time, long lengths to rectify.
    Communication also seems to be a constant concern. RPOs 
give schools one policy while another RPO gives another school 
a different policy setting up veterans and their families for 
failure.
    If a veterans benefit are not processed correctly, they are 
forced to navigate a maze of VA bureaucracy and departments 
that don't talk to each other, VA Education Services and VA 
Debt Management Center, and until these issues are rectified, 
sometimes taking months, the veteran has to survive without 
their monthly living allowance.
    The American Legion consistently receives calls and e-mails 
about the undue burden, the slow process of GI Bill payments, 
and how it adversely affects them and their families. Veterans 
are incurring undue debt to manage the time between payments, 
and when they finally do receive those payments, many aren't 
sure if they are correct.
    Yes, the new IT system should allow veterans to self-
navigate their claim in December of 2010, but until then how 
many veterans need to go through the stress and burden making 
life changing decisions just to go to school.
    This is an earned benefit that is designed to be a viable 
transition for veterans to continue with their education and 
make it a successful transition to employment. Veterans who 
might suffer from PTSD and TBI need to have a hassle-free 
transition. Going to college is a path to success, and if we 
make this process harder for them, we are doing them a 
disservice. This cannot continue on.
    There are four additional issues that the American Legion 
would also like to address. Housing allowance for distance 
learners, full funding of title 32 Active Guard Reserves, 
vocation and technical training correspondence and flight 
training, and the transferability for those who have already 
retired.
    The American Legion has organizational resolutions which 
advocate for these issues to be addressed. The American Legion 
is excited to work with this Committee on getting these 
measures passed and see equity brought to veterans and their 
families.
    The American Legion currently is the ardent supporter of 
H.R. 5933 and looks forward working with the Committee to 
getting this passed.
    I thank you for the opportunity to give the American 
Legion's position, and look forward to working with the Members 
of the Subcommittee on veterans education. I would be happy to 
answer any questions you might have.
    Thank you.
    [The prepared statement of Mr. Madden appears on p. 60.]
    Ms. Herseth Sandlin. Thank you, Mr. Madden.
    Mr. Embree, you are recognized.

                    STATEMENT OF TIM EMBREE

    Mr. Embree. Thank you.
    Madam Chairwoman, Ranking Member, and Members of the 
Subcommittee, on behalf of Iraq and Afghanistan Veterans of 
America's, nearly 200,000 members and supporters, thank you for 
allowing us to testify at this critical hearing on the status 
of the Post-9/11 GI Bill and recommended improvements.
    My name is Tim Embree, I am from St. Louis, Missouri, and I 
served two combat tours in Iraq in the United States Marine 
Corps.
    Our work on the new GI Bill is not done. Even though over 
340,000 students have taken advantage of this historic new 
benefit, tens of thousands of veterans are still waiting for 
their chance to earn a first-class education.
    Whether these students are pursuing vocational or distance 
learning programs or are serving full-time in the National 
Guard, too many young veterans can't take advantage of these 
new GI Bill benefits, and many others already using the new GI 
Bill have had their benefits cut by initially complicated 
regulations in chapter 33.
    In order to complete our work on the new GI Bill, IAVA 
recommends swift passage of H.R. 5933, commonly referred to as 
the new GI Bill 2.0.
    H.R. 5933, introduced by Representative Minnick and co-
sponsored by Chairwoman Herseth Sandlin, and supported by all 
the veterans groups on this panel, will ensure that all student 
veterans have access to the new GI Bill and will assist the VA 
in delivering those benefits in a timely manner.
    Over the past year, nearly one million people have visited 
IAVA's new GI Bill Web site. We have provided direct help to 
thousands of veterans trying to navigate their GI Bill 
benefits, and we have trained hundreds of schools on the ins 
and outs of the new GI Bill.
    Our daily interactions with student veterans and schools 
have revealed many concerns regarding the VA's handling of the 
new GI Bill.
    We do want to credit the VA for making some significant 
improvements in their handling of the new GI Bill since last 
year; however, we have been cautioning student veterans to 
prepare for another rough fall. IAVA is deeply concerned that 
the VA has been failing to communicate critical information to 
students and schools missing key Congressionally-mandated 
deadlines, and is already reporting a backlog of over 190,000 
overall GI Bill claims.
    Student veterans should be focusing on their studies and 
not having to worry about keeping a roof over their heads. 
Unfortunately without the new GI Bill 2.0 and better 
communication, that won't be the case.
    As you will see in our written testimony, the current form 
of the new GI Bill's tuition benefits are both confusing and 
completely unpredictable.
    For example, IAVA member, Aaron Sanvick, moved his family 
from California to Minnesota in order to utilize his hard 
earned new GI Bill benefits in a State with relatively high 
tuition rates. Aaron could have attended a number of more 
prestigious colleges, but he was committed to not incurring any 
student loans, and the Minnesota rates provided just that 
opportunity.
    He started school in early August and wasn't initially 
concerned that the VA was late publishing the new tuition rates 
for the fall. However, on September 1st, exactly one month 
later, when the VA published the 2010-2011 rates, Aaron was in 
for a big shock. His tuition rates had unexpectedly dropped by 
40 percent. Aaron and his family now owe the school an 
additional $8,400 for this academic year alone, forcing him to 
take out student loans to avoid being kicked out of school.
    Family budgets are tight, drastic and unexpected changes 
like what happened to Aaron can be extremely destructive to the 
student and their family. Sadly this is the second time the 
tuition rates have dropped without warning. This year is 
Minnesota and last year was Florida.
    New GI Bill 2.0 will not only restore Aaron's benefits, but 
will ensure that this never happens again.
    New GI Bill 2.0 is a comprehensive effort to address the 
concerns of tens of thousands of student veterans and their 
families and involves changes that are large and small.
    New GI Bill 2.0 helps veterans access valuable job training 
by granting Post-9/11 GI bill benefits to veterans in 
vocational, apprenticeship, and on-the-job training programs.
    In today's rough job market this type of training is more 
important than ever.
    New GI Bill 2.0 also helps initial Guard servicemembers by 
granting full GI Bill credit for full-time service. This will 
reward National Guardsmen for responding to national disasters 
such as the BP oil spill clean up, and the over 43,000 full-
time active Guard and Reservists.
    We believe that the same uniform in the same service 
deserve the same benefits.
    This is also a historic precedence for the new GI Bill 2.0. 
One year after the World War II GI Bill passed, the 78th 
Congress realized they needed to amend the first World War II 
GI Bill to include veterans who had been left behind, 
ironically distance learners and vocational students, and to 
patch up the tuition benefit. It was actually the upgraded 
version of the World War II GI Bill that is currently lauded as 
one of the landmark pieces of legislation in the 20th Century.
    This is why if we act now and finish the work this Congress 
began 2 years ago, the Post-9/11 GI Bill or new GI Bill will be 
remembered as one of the greatest investments in our country's 
veterans for the 21st Century.
    History has shown us the importance of investing in our 
country's veteran, and IAVA applauds the phenomenal work this 
Committee continues to do on behalf of our Nation's veterans 
and their families.
    IAVA is proud to speak on behalf of the thousands of 
veterans coming home every day. We work tirelessly so veterans 
know we have their back. Working together with this Congress 
and the Department of Veteran Affairs we will be able to 
guarantee that every veteran is confident that America has 
their back.
    Thank you for your time today and I look forward to 
answering any questions you may have.
    [The prepared statement of Mr. Embree appears on p. 63.]
    Ms. Herseth Sandlin. Thank you, Mr. Embree. Let me just 
start with you. You had mentioned what happened in Minnesota 
and Florida, and this is really a question for anyone on the 
panel.
    My recollection is that most veteran service organizations 
originally supported the individual State-by-State calculations 
and caps. I am now wondering in light of some of the changes 
that are being proposed and some provisions in H.R. 5933, as 
you rightly identify, Mr. Embree, I have become a co-sponsor. I 
am all for being as generous as possible, I just want to make 
this a program that is a little bit easier to administer. That 
has been my concern all along as you know.
    Do each of the organizations present at the witness table 
today oppose or support a State-by-State cap.
    Mr. Embree. Well, ma'am, thank you for the question. From 
talking with the veteran service organizations--in fact we have 
formed a veteran service organization working group that has 
been focused on this subject for quite a while now. We talk on 
a regular basis. And the reason is, is because we realize it 
needs to be simplification and upgrades to the Post-9/11 GI 
Bill.
    We feel that by including all public schools and creating a 
national baseline for all private schools, it simplifies it so 
folks know going into the school year as well as students--or 
students as well as schools both know going into the school 
year what their numbers will be. It takes away the uncertainty, 
it makes it easier for the VA to process the claims, and 
ideally it will make it a simple process for everyone involved.
    So we feel that by making a national standardized format 
instead of a State-by-State format, we think it would be easier 
to implement the GI Bill.
    Ms. Herseth Sandlin. Anyone else on the panel.
    Mr. Madden. Well, speaking for the American Legion, Madam 
Chairman, we believe--we are not exactly opposed to the State-
by-State, we believe that this is a better recommendation for 
fulfilling the tuition and fees.
    Mr. Wear. The VFW also has found such variation from State 
to State that a national one would make it a lot easier for all 
the veterans and the schools to know what they are going to 
expect, how much will it cost.
    You know, the University of District of Columbia's tuition 
and fees makes it so much lower, and when you look at many 
other States, there is such a difference that a lot of the 
people are worried, well gee, how much is it going to be? It is 
this, you know, $40, $50 a credit, a lot more at various 
schools across the--all across the United States.
    So we think if you can get a national one, everybody would 
have the same thing going in. They don't have to worry about 
it. How much more do you have to worry about besides your 
housing allowance and where to live and where the kids go, and 
you know, your studies? Let us focus on letting that veteran 
work on his studies, minimize the other things.
    Mr. Overton. Madam Chairman, on behalf of Veterans of 
Modern Warfare, while we wholeheartedly support streamlining 
the benefit, we do have some concern with those States that are 
potentially impacted by the cap. They are very veteran densely 
populated States and there is varying impact there that we 
would like to see a bit of a greater statistical analysis of 
how many veterans are going to be potentially impacted and what 
those implications are going to be not only to the State 
economies--because let us face it, there are different regional 
economic concerns around the country.
    So we would at least like to see some additional statistics 
come out of VA to better analyze and understand the impact of 
this cap system, but we fully support a streamline, and 
certainly $20,000 looks like a good starting point, but once 
again, you know, given that current cap structure right now, 
five States, New York, New Hampshire, Pennsylvania, and Texas 
are going to be impacted by this proposal.
    Ms. Herseth Sandlin. Have you given some thought to one of 
the contributing factors to the complexity and some of the 
delays? As I understand it, or the VA is that when the State 
budgets started hitting these crises points they are the 
perfect storm of trying to implement this on time and the 
delays that some of the State legislatures had to make as it 
related to their tuition rates for that particular academic 
year. Do you believe that this type of proposal gets around 
that problem.
    Mr. Embree. Ma'am, if I may jump in. I do think it does 
shrink that problem a bit, because now we are used to--we know 
that the VA has been late before issuing tuition rates and the 
schools have been dealing with it. By the schools knowing--if 
you are a private school you know that you are at least getting 
that baseline then plus the Yellow Ribbon program so you can 
budget saying I know this many students can attend, or we know 
we have this much money coming in, and then we have to figure 
out the difference because we are part of the Yellow Ribbon 
program. Or if we are a public school we know that when your 
tuition rates do come out that the VA will honor that because 
all public schools will be covered. And 75 percent of students 
attend public schools, and the remaining folks in the private 
schools are eligible for the Yellow Ribbon under this new bill. 
It actually includes all folks, not just 100 percent students.
    So it does make it easier for the schools to prepare and 
for the VA to also know what amounts they need to issue.
    Ms. Herseth Sandlin. Mr. Boozman.
    Mr. Boozman. I guess the only thing I would ask is that in 
the Bill there is the elimination of the COLA for the 
Montgomery GI beneficiaries as the means to fund some of the 
increased benefits for Post-9/11 beneficiaries. It seems like 
the Post-9/11 students already receive more in educational 
assistance than those in the Montgomery GI Bill program. Isn't 
that a significant problem.
    Mr. Overton. And I will address that on behalf of Veterans 
of Modern Warfare. We see that.
    One of the things I think the ultimate end game here is, is 
to begin to probably sunset some of the previous GI Bill 
benefits. If we are able to make chapter 33 comprehensive and 
we are able to take those components of such things as the 
trade schools and these other options that individuals that are 
currently under chapter 30 MGIB benefits are now eligible to 
utilize chapter 33 and we begin to look that we are getting 
into that era where we are at about the ten-year limitation on 
MGIB beneficiaries for those individuals that are now going to 
be eligible for chapter 33, I think eventually that would also 
enhance VA's ability to implement if we began to phase out some 
of the older provisions as long as we ensure that chapter 33 
has the mechanisms in place to supersede chapter 30 
beneficiaries.
    There is going to be a little bit of a gray area. There are 
reasons for extensions in these benefits and such, so again, we 
would caution and say let us make sure that we don't create a 
scenario where we have negative implications on any class of 
veteran out there.
    Mr. Boozman. No, and I agree, and that to me really is a 
concern, because that I think really would effect a number of 
individuals.
    I agree with you in the sense that I think one of the 
things that really in working--both sides working together to 
create the Economic Opportunity Subcommittee I think really has 
been a benefit in the sense of allowing us to focus on these 
kind of issues versus everything getting wrapped up in the past 
with other benefits. I think it really has been very helpful 
and I really again praise Congressman Buyer and Congressman 
Filner in getting all that worked out early on.
    And likewise, I appreciate your statement in support of 
looking at the VA and trying to make it such that we can, you 
know, again, make sure that we are spending adequate time, you 
know, on these issues. So I appreciate that.
    I really don't have any further questions. I just 
appreciate all that you guys do as always. The testimony is 
very, very good, very helpful as always, and we appreciate you 
being here. Thank you very much.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    Mr. Minnick.
    Mr. Minnick. Thank you, Madam Chair.
    I appreciate again all of your thoughts and the hard work 
you have put into this issue and the hard work you all are 
going to make in getting this through the legislative process.
    In thinking about that one of the key issues is going to be 
the--I think all except Mr. Embree indicated they would like 
some further enhancements made in the interest of equality or 
dealing comprehensively with the problem, but the biggest 
obstacle to the success of this legislation is going to be the 
extent to which, if at all, it makes the deficit worse, and I 
think it is going to be very hard in a Congress where only a 
quarter of the people have ever been in the service and where 
there is strong momentum I think shared by all of us here 
today, that we not worsen the deficit.
    If we are going to make further improvements, we are going 
to have to find other places where we can cut in order to make 
this bill revenue neutral.
    Do any of you have constructive thoughts as to areas we 
might look beyond the pay fors that are contained in this 
legislation? And I would appreciate creative thought from any 
of the four of you, because I know the Chair is going to have 
trouble getting it scheduled and getting it approved unless we 
can assure that it is deficit neutral.
    So Mr. Embree.
    Mr. Embree. Yes, sir, thank you for bringing that up and 
thank you again for your leadership, and ma'am, for your 
leadership on this bill.
    As you all are well aware H.R. 5933 has a lot of built in 
pay fors. We do not agree with any sort of cut to any benefits. 
We do agree to some freezes by making sure those veterans are 
included now in chapter 33. We feel that the language is very 
important that it does that by allowing folks that are National 
Guardsmen that weren't included earlier under chapter 33, 
active Guard Reserve, vocational schools, on the job training, 
and things like that, we feel that is a very large pay for by 
shifting them over. It is not any elimination of money, that is 
shifting the money with the veterans. We are trying to get 
everyone under one chapter.
    We also have a list of pay fors that are included that we 
do think together add up to quite a few dollars. Closing the 
part-time loophole. There are a lot of veterans attending 
school part-time that are eligible to receive nearly twice as 
many benefits as a full-time student right now.
    So the regulation created a part-time loophole, which says 
that even though a part-time student qualifies for full living 
allowance by taking just 1 hour extra than halftime they get 
full--the burning of their entitlement is slower rate while 
getting that full rate for Basic Allowance for Housing (BAH).
    We feel that is not a good way to spend GI Bill dollars. We 
think if you go part-time you get part-time of your benefit for 
living allowance, and if you go three quarters time you get 
three quarters time, full-time full-time. That is going to save 
a couple billion dollars over 10 years.
    We also have included the active-duty loophole. Right now 
there is unlimited tuition and fees to active-duty folks that 
are taking classes through the GI Bill benefit. So we feel by 
eliminating that that is going save millions of dollars over 
those 10 years.
    So by adding it all up we do believe that it is going to be 
a large--it is going to take a large chunk away from the cost 
of the bill, and we are also willing to look at other ways to 
pay for it. I think the veteran service organizations are very 
excited about finding a way to make this cost neutral to get it 
implemented as quickly as possible before the October recess.
    Mr. Minnick. Thank you. Mr. Madden.
    Mr. Madden. I have to concur with Mr. Embree. We believe 
that the pay fors that are included within this Bill should 
possibly make this a neutral bill.
    Obviously as an organization, we are not--we are opposed to 
making or cutting any benefits that are currently being 
received by veterans and their families.
    Mr. Minnick. But if we have to make further cuts to make it 
revenue neutral when we get a Congressional Budget Office (CBO) 
score will you work with us in doing that.
    Mr. Madden. We would love that opportunity to work with 
you.
    Mr. Minnick. Thank you.
    Mr. Madden. Thank you.
    Mr. Minnick. I yield back.
    Ms. Herseth Sandlin. Thank you, Mr. Minnick.
    Yes, CBO gives us headaches, and we are going to keep 
working to trying to work through that issue. The Post-9/11 GI 
Bill had a pretty big price tag too, but the budget situation, 
the public outcry about doing something about your debt and 
deficits has gotten even more severe from when the Post-9/11 GI 
Bill was added to the emergency supplemental. But we are 
committed to working with you on this and continuing the 
communication. The dialogue that I know that Mr. Minnick's 
office has had with CBO, is not going to diminish my efforts 
that I undertook in the last Congress and in this one, whether 
it is in a budget negotiation or elsewhere to be able to make 
this a priority and find offsets. I think that the American 
public wants us to pay for our priorities, and this is a 
priority that we share, and so that is the battle we have to 
wage over here. Until we can get on the playing field to have 
that fight we have to deal with what we have currently.
    Mr. Madden and Mr. Embree, you stated that you have 
concerns from what you are hearing from your members, other 
student veterans, about the communication of critical 
information. Certainly we have heard concerns about customer 
service. I have got concerns from my constituents as it relates 
to some of the regionalization and the ability of either State 
Approving Agency officers or others who are trying to work to 
get information.
    Some of you had mentioned in your testimony the inability 
of some of your members that are student veterans to get 
answers, get access, and concerns that even the Web site is 
difficult to navigate.
    Tell me a little bit more about sort of specifically what 
is the information that you feel the VA is not effectively 
communicating that is the most critical to the student veterans 
that could avoid some of the problems that we have experienced 
over the past year.
    Mr. Madden. Thank you very much, Madam Chairwoman.
    The incidents that I receive at the assistance director 
position is every student veteran comes to me and says, I don't 
even know what is going on. I call the Call Center, I get an 
answer from someone, I get another answer from somebody else. 
And this is not referring to the RPOs, this is referring to 
specifically the Call Center. They are not getting the answer 
they need. They call back 2 days later they get a different 
answer. They call back 2 days later they get a different 
answer.
    So I believe with the new IT system and them allowing them 
to self-navigate their claim, knowing where their claim is 
during the process, being able to see that, I believe that will 
further educate them.
    Obviously we are advocating for more outreach from the VA 
on a constant basis, but we--I think that will fill some of the 
disparity there with the new IT system and giving them the 
ability to see where their claim is at that current time.
    Mr. Embree. Yes, ma'am. One of the major issues we found 
this past August, which was a similar issue we had last year 
was a tuition and fee rates, the chart coming out late, and 
that makes it impossible for students, as well as schools, to 
budget for the following semester.
    Now we do understand that some of the States were late 
turning the information into the VA, so what we would like to 
ask for is the VA to post the chart incomplete. Post what State 
information they do have and then turn to the VSO community use 
us as an asset to pressure the States to get those tuition and 
fee rates turned into the VA so the VA can post those.
    We want to remind the VA that we want to work with them on 
this. They have done a much better job, they are improving, but 
we need more communication and transparency with the veteran 
service organizations so we can help them so if they have a 
situation where they have a partial chart they can post what 
information they do have and we can help them gather the rest 
of the information.
    Mr. Wear. Also when a veteran calls there should be a 
method to keep track of on this day they were told (a), 2 days 
later they are told (b). At some point you have got to be able 
to pull up Jim Wear's record and say on Tuesday I told you 
this, you call on Thursday or next Tuesday it is still that. So 
there has to be some way where when the VA get a call from a 
veteran they have to be able to pull up that person's 
information. What did you ask? Here is what we told you. So 
that they have a more consistent response, but centered on the 
veteran.
    Whether they call a Call Center or an RPO, those all should 
go back to the veteran so when that veteran calls in again they 
are going to go to that record, not necessarily, you know, here 
is your question, oh, well here is our best guess or here is 
our answer.
    It would be better if they focused on what the veteran had 
asked and use that as a tracking mechanism, the go back to that 
point so that they can get that veteran, here is what we told 
you. Well, okay, it has changed, but at least they would know 
what the veteran had been told and should be able to then say 
yes, no, be a little clearer on focusing bringing everything 
back to the veteran.
    Mr. Overton. And briefly, Madam Chairwoman, if I could just 
address bringing us back to the concept of H.R. 3719 and the 
establishment of the fourth arm within VA, creating that what 
we look to do from the DoD/VA interface with a seamless 
transition, we really need to look at that across the board.
    Right now Labor has great programs and the DoL Vets program 
under Assistant Secretary of VETS Jefferson, they do great 
things, but there is no collaboration between these agencies.
    We have a lot of great programs out there, so finding a way 
to get these interagencies working together, and hopefully at 
some point also bringing the House Veterans' Affairs Committee 
and House Armed Services Committee back together again to begin 
addressing this as that seamless transition issue.
    There is grave concern over even the SPAWAR concept, 
because once again we are looking at a DoD/VA interagency 
agreement that has been broken in the past. So are we going to 
be stuck in the same situation where DoD didn't provide VA with 
the necessary resources to fully implement and we end up with a 
he said she said game again in the future.
    So we are concerned about that, but hopefully we can look 
at creating this arm and having accountability with the new 
Under Secretary bringing all those programs under a common 
umbrella allowing it to start from the Military Entrance 
Processing station all the way through with this electronic 
record for life that then takes the individual through active 
duty, through the transition process into the economic, you 
know, whether it be education, going into small business, we 
could create really I think the proper mechanisms to succeed at 
this and really have some cost saving measures as well.
    Ms. Herseth Sandlin. Well, thank you. I just have one final 
question, just a point of a clarification,
    Mr. Madden, from you testimony.
    You stated that there are reports of veterans and their 
family members losing their future payments instead of the $750 
reduction the VA promised for obtaining the $3,000 emergency 
payment. Can you just explain that a bit further for me.
    Mr. Madden. Can you ask the question one more time? I am 
sorry.
    Ms. Herseth Sandlin. Yes. In your written testimony you had 
stated that there are some reports from veterans and their 
family members about losing future payments instead of the $750 
reduction the VA promised for obtaining the $3,000 emergency 
payment.
    Mr. Madden. Originally they were told that they were going 
to lose their future payments as opposed to taking the $750 
out, and that is what I was told. So if that is wrong I 
apologize, but----
    Ms. Herseth Sandlin. Oh, no, I am not saying it is wrong, 
The staff and I weren't entirely clear on----
    Mr. Madden. Okay. I would be more than happy to get back 
with you.
    Ms. Herseth Sandlin. So if you could take that for the 
record.
    Mr. Madden. Certainly.
    Ms. Herseth Sandlin [continuing]. And explain a little bit 
more some of the reports that you are hearing about.
    Mr. Madden. Certainly.
    Ms. Herseth Sandlin. Okay.
    [Mr. Madden subsequently followed up in a letter, dated 
October 19, 2010, which appears on p. 90.]
    Mr. Madden. Thank you.
    Ms. Herseth Sandlin. Well, thank you for the testimony, the 
ideas, and recommendations. I think that Mr. Overton, you used 
the appropriate term of unforeseen limitations. Some were 
foreseen, some were unforeseen limitations, unintended 
consequences, a complex program and compressed timetable.
    We just want to make sure that as we look at the types of 
upgrades that are necessary to meet the needs of all eligible 
veterans that we are taking the opportunity, as I think you all 
recognize, of streamlining and simplifying the program in a way 
consistent with moving toward the Long-Term Solution as well 
and not missing the opportunity as we also seek to enhance the 
benefits to serve more individuals and their families.
    Thank you for your testimony, thank you for your service to 
our Country and your ongoing service to our Nation's veterans. 
Thank you.
    I now invite our third panel to the witness table. Joining 
us on our third panel is Captain Mark Krause, Department of 
Veterans Affairs Program Manager, Space and Naval Warfare 
Systems Center (SPAWAR) Atlantic, and Mr. Keith Wilson, 
Director of Education Service, Veterans Benefits 
Administration, U.S. Department of Veterans Affairs.
    Mr. Wilson is accompanied by the Honorable Roger Baker, 
Assistant Secretary for Information and Technology at the 
United States Department of Veterans Affairs.
    Gentlemen, welcome back. I know you missed us as much as we 
miss you during August, but we are looking forward to the 
updates that you can provide the Subcommittee, as well as 
comments on the testimony of our prior panels and questions 
that the Ranking Member and I may have for you this afternoon.
    Mr. Krause, we will begin with you. Again, written 
statements have been made part of the record. We have heard a 
lot from our first two panels as it relates to not just sort of 
the ongoing state of affairs in implementing and administering 
the Post-9/11 GI Bill, the progress that many of the witnesses 
have identified that has been made to ongoing problems that we 
know persist.
    This Subcommittee has been very active in our oversight of 
the administration of the new program, we know how important 
the Long-Term Solution is. I believe Mr. Madden in response to 
my last question identified that we hope this will alleviate 
some of the problems in the lack of communication or some of 
the critical information that some of the veterans have been 
experiencing in their ability to navigate a system that I think 
we hope will alleviate some of the other problems that we know 
have been harder to rectify.
    Mr. Krause, I will turn it over to you first, and you are 
recognized for 5 minutes.

STATEMENTS OF CAPTAIN MARK KRAUSE, USN (RET.), U.S. DEPARTMENT 
 OF VETERANS AFFAIRS PROGRAM MANAGER, SPACE AND NAVAL WARFARE 
     SYSTEMS CENTER ATLANTIC, DEPARTMENT OF THE NAVY, U.S. 
    DEPARTMENT OF DEFENSE; AND KEITH M. WILSON, DIRECTOR OF 
   EDUCATION SERVICE, VETERANS BENEFITS ADMINISTRATION, U.S. 
 DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY HON. ROGER W. 
 BAKER, ASSISTANT SECRETARY FOR INFORMATION AND TECHNOLOGY AND 
     CHIEF INFORMATION OFFICER, OFFICE OF INFORMATION AND 
        TECHNOLOGY, U.S. DEPARTMENT OF VETERANS AFFAIRS

                STATEMENT OF CAPTAIN MARK KRAUSE

    Captain Krause. Good afternoon, Chairwoman Herseth Sandlin, 
Ranking Member Boozman, and Members of the Subcommittee. I 
appreciate the opportunity to appear before you today to 
discuss the current status of the Post-9/11 GI Bill Chapter 33 
Long-Term Solution.
    My testimony will address the current status of the Long-
Term Solution, critical milestone completion, program 
challenges, future updates, and the ability of the Long-Term 
Solution to support future policy changes.
    The VA/SPAWAR Chapter 33 Long-Term Solution team delivered 
and deployed releases 1.0 and 2.0 this year on the planned 
critical milestone dates.
    All chapter 33 veteran claim examiners have been 
transitioned from the interim solution to the Long-Term 
Solution to process chapter 33 educational benefits claims.
    Since January 2010, the team has accomplished the 
following. Enabled the VA to deliver chapter 33 benefits via a 
centralized Web-based system that implements a flexible rules-
based engine. This will allow the VA to implement future 
changes and enhancements to chapter 33 policy and legislation 
in a more timely and efficient manner.
    The VA/SPAWAR Team successfully implemented Agile 
methodology within the VA and have established an effective, 
engaged, and collaborative governance process to prioritize 
capability development, resolve issues and make timely 
decisions.
    We have leveraged our Agile approach to implement 
additional functionality as reprioritzed by the VA. Examples 
include the Fry Amendment, Letter Generation, Fiscal Year 9/10 
retro-active housing rate adjustments, significant interim 
solution data errors, data conversion, switching from the 
planned interface with the financial accounting system to the 
older benefits delivery network financial system, developing a 
user authentication solution due to the unavailability of the 
benefits enterprise platform, and assuming an expanded role in 
interface development with VA legacy systems.
    Over the last several months, the VA/SPAWAR Chapter 33 
Long-Term Solution team has continued to peel back the onion to 
uncover and define more detailed chapter 33 requirements and 
processes. This discovery revealed a number of factors that 
increased the complexity and scope required by the Long-Term 
Solution.
    A summary of these discoveries included automating business 
rules and streamlining the process to adjudicate claims were 
more complex than originally anticipated. Converting and 
remediating data conversion errors from the interim solution 
into Chapter 33 Long-Term Solution was more challenging than 
planned. Enhancing existing VA systems required to provide data 
to the Chapter 33 Long-Term Solution has proven more difficult 
than expected.
    In the upcoming months, Long-Term Solution development will 
focus on providing system interfaces and capabilities to 
automate and streamline the claimant institution enrollment 
validation process, as well as initiating and providing chapter 
33 payment instructions to the Department of Treasury.
    To date, all critical milestones have been met. We 
delivered on release 1.0 on 31 March, delivered on release 2.0 
on 30 June. The Long-Term Solution functionality planned for 
each critical milestone was based on a limited understanding of 
the requirements 14 months ago. On a biweekly basis, every 2 
weeks at each sprint review, new requirements, user stories, 
functionality, and changes in scope are discussed and re-
prioritized thru a detailed VA governance process.
    Since then, the Chapter 33 Long-Term Solution Agile process 
has continued to better define program requirements, revealing 
additional technical complexities during releases 1.0 and 2.0 
and resolving those complexities.
    Due to the 4 extra weeks that were required to complete the 
data conversion and housing rate adjustment and the complexity 
of the Benefits Delivery Network (BDN), or the financial 
interface, we expect to deliver the VAONCE, which is 
essentially the VA online certification of enrollment data, 
interface on 30 September for user testing, and do not 
anticipate delivering the complete functionality planned for 
release 3.0, which is automating the financial transaction/
authorization process currently required to authorize payments 
for claims and a financial interface with the BDN financial 
system, until the December 2010 time frame. The requirements 
for release 4.0 scheduled for December 2010, are still being 
defined.
    Future updates to the Chapter 33 Long-Term Solution will be 
determined by VA leadership.
    Chapter 33 Long-Term Solution is a rules-based system that 
will support future changes to the program, some of which we 
heard requested briefly today, such as the expansion of 
benefits, changes to payment procedures, and changes to policy 
and law.
    The bottom line up front, Madam Chairwoman, is by the end 
of December we will have delivered the major functionality we 
promised, we will have the financial interface done, we will 
have the major automation of the financial processes that we 
promised done. We have another team now working on a veterans 
self-service capability in the E-Benefits portal. We are 
leveraging our folks, and we are also working on that project 
to deliver essentially to be able to view payment history, a 
claim status, and right now we are looking at the possibility 
of getting this by the end of December to allow you to change 
your personal information.
    So essentially, we still want to declare victory, as Mr. 
Baker has so often told us in that at the end of December and 
January on this project.
    And Madam Chairwoman, this concludes my statement. I am 
pleased to answer any questions you or any of the other Members 
of the Subcommittee may have.
    [The prepared statement of Captain Krause appears on p. 
70.]
    Ms. Herseth Sandlin. Thank you, Mr. Krause.
    Mr. Wilson.

                  STATEMENT OF KEITH M. WILSON

    Mr. Wilson. Thank you. Good afternoon, Chairwoman Herseth 
Sandlin, Ranking Member Boozman, and Members of the 
Subcommittee. I appreciate the opportunity to appear before you 
today to provide you an update on VA's implementation of the 
Post-9/11 GI Bill.
    My testimony will address the current status of education 
claims processing for the fall 2010 enrollments and critical 
milestones for VA's Long-Term Solution.
    Joining me today are the Honorable Roger W. Baker, 
Assistant Secretary for Information and Technology, and Mr. 
Mark Krause, VA Program Manager for SPAWAR, who has just 
discussed implementation of the Long-Term Solution.
    I am pleased to report that VA has made tremendous strides 
in delivering Post-9/11 GI Bill benefits in a timely and 
accurate manner. We have also made significant progress in the 
development and deployment of our new processing and payment 
system.
    As of the end of August last year, VA had processed 
payments for only 8,185 students for the fall 2009 semester. 
For the current fall term, VA has already processed payments 
for more than 135,000 students. The average time to process an 
enrollment certification in August was 10 days, down from 28 
days 1 year ago.
    In June and August, we successfully deployed release 2.0 
and 2.1 of the Long-Term Solution. Through these deployments, 
we successfully converted over 600,000 chapter 33 claimant 
records from our interim processing system into the Long-Term 
Solution.
    We also added greater functionality to that originally 
planned for the Long-Term Solution. Its functionality was 
expanded to enable payment of retroactive housing allowance 
adjustments for those individuals eligible for the increased 
rates in 2010.
    Additionally, the Long-Term Solution was improved to 
automatically generate letters to individuals to provide them 
better information on their benefits.
    The Long-Term Solution was also enhanced to facilitate 
claims processing for the Fry Scholarship recipients.
    VA is now processing all Post-9/11 GI Bill claims in this 
new system, thereby replacing the interim system and its 
associated manual job aids.
    Our work is far from over, and as the Members know, we 
continue to experience challenges. We have been unable to 
deliver all the functionality in accordance with our timeline 
we developed 2 years ago. Although we are processing all Post-
9/11 GI Bill claims in the Long-Term Solution, functionality to 
automate key portions of the process has been delayed.
    The interfaces with the VAONCE Certification of Enrollment 
and the Benefits Delivery Payment System previously scheduled 
for September 30th, 2010, are now scheduled for October 30th of 
2010, and December 31st, 2010, respectively.
    These delays are due to increased functionality needed to 
improve immediate claims processing capabilities, challenges 
with conversion of the data from the interim system, and a more 
complete understanding of the complexities of the interface 
with BDN.
    Additionally, by working with our key stakeholders, we 
continue to learn what is needed and make positive changes. We 
are working to improve our debt-management processes, ensuring 
that refunded payments are accurately credited to overpayments, 
and ensuring that overpayments are handled in an effective 
manner, thus minimizing negative impacts on students' pursuit 
of their educational goals.
    Our guiding principle for system development and deployment 
has been, and will continue to be, to ensure that the 
deployment schedule and delivered functionality do not have a 
negative impact on our ability to pay veterans.
    Additionally, building upon previous outreach strategies, 
the Post-9/11 GI Bill has been featured at the September 10th 
and 11th NASCAR events in Richmond, Virginia, in addition to 
other outreach activities we have incorporated. The race 
weekend was officially called the Post-9/11 GI Bill Weekend at 
Richmond International Raceway. I will talk about this more in 
our Power Point presentation.
    While recognizing we will not meet all of the key 
milestones in our aggressive development and deployment 
schedule of the LTS, VA is nevertheless proud of its 
achievements in overcoming significant challenges and 
successfully transitioning from an inadequate temporary system 
to a state-of-the-art processing system that promises to 
deliver significantly improved automation and consistency.
    VA has shown dramatic improvement over the last year in its 
ability to deliver timely and accurate benefits derived from 
this important legislation.
    Madam Chairwoman, this concludes my oral statement. As 
requested we have provided more detail in the form of a Power 
Point presentation. I would like to move to that unless you or 
other Members have questions at this point.
    Ms. Herseth Sandlin. That is fine. About how long is the 
PowerPoint?
    Mr. Wilson. I can make it as fast as you would like. It is 
about 15 minutes normal speed.
    Ms. Herseth Sandlin. Let us try to do it in 5 to 10 
minutes.
    Mr. Wilson. Absolutely.
    Ms. Herseth Sandlin. Okay.
    [Slide]
    Mr. Wilson. The first slide. Next slide. This slide 
provides a good graphic representation of where we are at from 
a claims processing perspective.
    As I mentioned, last year at this time we processed and 
paid about 8,000 claimants. We have paid, this chart shows 
150,000, it was prepared more recently than my oral testimony, 
so we are in very good shape from a claims processing 
standpoint.
    And I want to emphasize though that we do not consider 
ourselves out of the woods. We are at the high watermark for 
the fall enrollment period, there is a lot of work that 
continues to need to be done, but we are in obviously much 
better shape than we were at this time last fall.
    Next slide.
    [Slide]
    Mr. Wilson. We have been able to accomplish this success 
through a lot of hard work from our staff at the regional 
processing offices. Our daily productivity for chapter 33 
claims the 9.5 claims per person per day, and for chapter 30 
claims it is 25.4 claims per day, which does exceed our current 
goal. Basically we are processing in excess of 10,000 claims a 
day at this point. Beginning last fall, we were processing 
about 2,000 claims a day.
    Next slide.
    [Slide]
    Mr. Wilson. This slide provides some basic information 
concerning where we are at in terms of payments. We have paid 
$4.7 billion to about 340,000 individuals or to their schools. 
We have numbers there that show the split between private for 
profit, private non-profit, and public institutions. We have 
also in that total number we have paid $41.7 million under the 
Yellow Ribbon program.
    Next slide.
    [Slide]
    Mr. Wilson. This slide, it is a little bit busy, but it 
provides a general overview of the functionality that was 
originally envisioned for our four core releases versus the 
functionality that was ultimately delivered.
    Basically at this point we expected to have the 
functionality that would allow us to interface with our systems 
thereby allowing us to begin automating the process. As I 
described in my oral testimony, those are due to be released 
now in October and December.
    Next slide.
    [Slide]
    Mr. Wilson. The causes of the LTS delays, I believe I 
talked about that in my oral testimony, so I won't go over that 
in detail again.
    One of the specific questions we were asked, Madam Chair, 
is how can Congress help? And there are two points that we have 
made on this slide.
    Number one, legislative action could potentially harm our 
ability to continue to develop the Long-Term Solution, so we, 
as has always been the case, look to continue being actively 
involved with you as we are.
    Also in terms of timeline what we have put on this slide is 
looking at a potential of 24 or 36 months to incorporate 
significant changes, if significant changes are called for in 
our IT development. We can talk about that more or Mr. Baker 
can talk about that more in detail if you chose to do so.
    Next slide.
    [Slide]
    Mr. Wilson. Outreach. Outreach has been a major part of 
what we have been doing over the last year. We have developed a 
major outreach strategy to begin not reaching just the veterans 
that we have been reaching already and the servicemembers, but 
their family members as well. We have undertaken that in a 
multifaceted approach, we have had a lot of information on the 
Post-9/11 GI Bill appear in print media, radio, et cetera, we 
have also developed some national events, worked with national 
organizations in a way that we haven't done before, and we are 
very pleased with what we are beginning to see. We think there 
is a lot of potential, but I will talk about that in a little 
more detail.
    Next slide.
    [Slide]
    Mr. Wilson. Recently at the Air Guard 400 in Richmond over 
last weekend, we partnered with TRG Motor Sports, Kevin Buckler 
and TRG Motor Sports, as well as Land and Castle, the driver of 
car 71, to sponsor a Post-9/11 GI Bill car in the race. We 
sponsored the car in that race, we also sponsored the events at 
the weekend.
    We have had a tremendous amount of interest in that. We are 
still collecting initial information concerning getting our 
message out. The folks both at TRG, as well as Land and Mr. 
Castle, worked very hard. They have a lot of connection with 
the program themselves and showed a lot of commitment to 
getting the message out.
    Our Web site traffic for new people coming to our Web site 
has been up 11 percent since that event. So obviously we got a 
lot more work to do, we are learning a lot, but it is one more 
potential for us to get information out on the program.
    Next slide.
    [Slide]
    Mr. Wilson. NASCAR. We have been asked why NASCAR? For 
NASCAR the demographics are very good for us. About a third of 
the 75 million NASCAR fans are veterans servicemembers or have 
close family members that are, so it worked very well for us.
    Just anecdotally, my staff that was at the event, probably 
90 percent of the people that approached us were in those 
categories. It was a very good demographic for us. We also had 
a lot of coverage, potential coverage with the viewership.
    The Air Guard 400 was broadcast live on ABC, as well as on 
the Armed Forces network across the globe with about 6.6 
million viewers worldwide.
    Next slide, please.
    [Slide]
    Mr. Wilson. We also at the Air Guard 400 kicked off a 
series that we are calling ``My Story.'' We have put together a 
series of short clips with the generous donation of time from 
some of our veterans who have gone on camera and told us what 
the impact of the Post-9/11 GI Bill has been on their lives. 
Those were broadcast live at the event. We have all four of 
them done now and will be using those for public service 
announcements, other opportunities to get the message out. They 
are very, very good.
    Next slide, please.
    [Slide]
    Mr. Wilson. We have also been fortunate enough to work with 
an individual by the name of Mike Rowe, who hosts a show called 
Dirty Jobs on the History Channel. Mr. Rowe has done a public 
service announcement for us. He focuses largely on the trades. 
Has a very high interest in the trades. He was very generous 
with his time, and we have had some success with that as well. 
So we are very pleased with that as well.
    Next slide.
    That concludes the presentation. I would be happy to answer 
questions that you or other Members may have, Madam.
    [The prepared statement and referenced slides of Mr. Wilson 
appears on p. 71.]
    Ms. Herseth Sandlin. Thank you, Mr. Wilson. Let me start, 
if you can go to slide eight. Sorry, we don't need to go back. 
This is the slide as to what Congress can do.
    As you know, I think our Subcommittee counsel and staff 
have worked closely to try to keep this Long-Term Solution on 
track, and in some of the proposals. I know that there were 
early efforts to try to make some changes, and we understood 
the compressed timetable you were on both short term, long 
term, but in my estimation some legislative action actually has 
the potential to positively impact the full deployment of the 
Long-Term Solution. Would you agree.
    Mr. Wilson. I think the potential exists depending on what 
that would be, yes.
    Ms. Herseth Sandlin. Okay. So the legislative action has 
the potential to either positively or negatively impact.
    Mr. Wilson. That is an accurate statement, yes, ma'am.
    Ms. Herseth Sandlin. Okay. Can you give me an example of 
what a significant system change would be in any of the pending 
proposals to make improvements to the Post-9/11 GI Bill.
    Mr. Wilson. I would like to ask Mr. Baker to address that, 
if he could, please.
    Mr. Baker. From a technical standpoint, things that we can 
change that allow us to just change the rules engine can be 
done very quickly. Minor things that allow processing or that 
say in this case pay a certain amount versus a variable amount. 
Those sort of things will be very quick.
    If we have to go in and add an entire new feature to the 
system, some substantial change in the way that the system 
anticipates processing the benefits, that would require getting 
into the software and making code changes. That is going to 
take quite a bit longer from our perspective.
    Ms. Herseth Sandlin. Are you able to provide a concrete 
example of that significant system change from any of the 
pending bills, particularly H.R. 5933.
    Mr. Baker. I apologize, I am not familiar enough with the 
bills to do that.
    Ms. Herseth Sandlin. Okay.
    Mr. Baker. I don't know if Mr. Krause or Mr. Wilson can.
    Captain Krause. Ma'am, one of the----
    Ms. Herseth Sandlin. How about the Senate version? How 
about the S. 3447.
    Captain Krause. From our point of view, I have talked to my 
engineers and it is all about the data. I have a lot of 
experience with Reserve databases and Reserve systems from the 
Navy side. A lot of their data systems are 28, 30-year old 
Cobalt systems, they don't play nice in a new environment, so 
it is all about if we can get the data interfaces and get 
access to that data, and then if the data is clean.
    I know VA struggled for years with DoD data and not being 
clean and having to--I know Keith has told me stories about 
having to struggle with that. Well the Reserve data has its 
problems too. So it is all about the data. We just have to work 
with the National Guard folks and the Reserve folks to make 
sure that we access the right database, the right authoritative 
sources, and get that data and then clean it up.
    So not an overwhelming challenge, but it will be a 
challenge.
    Ms. Herseth Sandlin. So it is more the concern that I think 
Mr. Overton identified as it relates to the ongoing concerns 
between sharing of information between DoD and VA into this new 
system than it is any perhaps proposed legislative change that 
could cause more of the problem.
    Captain Krause. Right. I mean the Reserve systems and the 
active-duty systems at least in Navy and the Army and the Air 
Force, they have all been separate and they need to come 
together and be integrated, which was what DIMHRS (Defense 
Integrated Military Human Resources System) was all about. So 
essentially that has to happen. And because it hasn't happened 
yet I think the VA is going to have to, and myself supporting 
them, our team supporting them, we are going to have to go out 
and find those data sources and work with them.
    So it will just add another complexity to it, but it is 
handleable.
    Mr. Wilson. If I can add to that a little bit. The degree 
of change matters a great deal I believe from our perspective, 
and I will try to come up with a couple of examples.
    If we were to create a new category of entitled 
individuals, for example, and they did involve Guard service, 
for example, that could potentially be fairly complex, because 
we wouldn't even know, for example, whether the eligibility 
information we need to determine entitlement is actually 
captured somewhere. So that would be an issue.
    Looking at a little differently though and saying that we 
create a different tier of benefit. We want to create, for 
example, a 15 percent tier of benefit. That would be different 
because we would be getting all the feed information the same, 
we would just be adding another slice to the pie.
    So just as an example something like that might be easier 
to absorb.
    Ms. Herseth Sandlin. On page three of your slide when we 
have over 150,000 of the Chapter 33 veterans paid for 2010 that 
includes both from the spring and from the fall semester.
    Mr. Wilson. Those are unique fall enrollments for this 
current enrollment period. That was the information I captured 
on this slide.
    Ms. Herseth Sandlin. Okay. Do you have any estimates on how 
many of those 150,801 might have received overpayments.
    Mr. Wilson. I don't have that information available, but I 
would be happy to look at it for the record and provide it for 
the record.
    [The VA subsequently provided the following information:]

         The Department of Veterans Affairs (VA) is unable to determine 
        the number of overpayments associated with the 150,801 Veterans 
        paid under the 
        Post-9/11 GI Bill when slide 3 was prepared. However, the 
        average number of education overpayments created on a monthly 
        basis for all education programs in FY 2009 was 9,576. That 
        average, not considering advance payments for chapter 33, rose 
        to 23,505 for FY 2010. The average monthly dollar amount of 
        overpayment established during FY 2009 for all education 
        programs was $10,040,925. That average rose to $26,360,574 for 
        FY 2010.

         The Post-9/11 GI Bill program pays students' tuition and fees, 
        a books and supplies stipend, and, in most cases, a monthly 
        housing allowance. In the event a student withdraws from 
        classes after these payments are made, an overpayment occurs in 
        each of these benefit payments. Because the amounts paid to and 
        on behalf of Veterans under the Post-9/11 GI Bill are 
        significantly higher than in previous programs and include 
        tuition and fee payments covering the entire term, the number 
        and the amount of overpayments have increased.

    Ms. Herseth Sandlin. Or at least look at the trend----
    Mr. Wilson. Yes.
    Ms. Herseth Sandlin. Because this is, as we have discussed, 
a significant problem and we would like to see some improvement 
as it relates to dealing with that problem.
    And that leads me to the question that came up from
    Ms. DesLauriers, and that is this issue of veterans who 
participated in the 3,000 emergency payment last November and 
then they entered a repayment plan and were automatically sent 
to Debt Management Center after 180 days. And why is this 
happening? How are we going to fix this problem? And will these 
veterans' accounts be cleared from the Debt Management Center.
    Mr. Wilson. They will be cleared. We are aware that there 
are situations where that is occurring. When we are made aware 
of those situations we put those individuals directly in 
contact with the Debt Management Center and we work it out 
manually on a case-by-case basis, but it should not be 
happening as a category of cases, and we are working hard on 
that.
    Ms. Herseth Sandlin. Mr. Boozman.
    Mr. Boozman. Because of all these concerns, what are the 
impediments to implementing a temporary moratorium on the 
chapter 33 collections?
    Mr. Wilson. There are some technical challenges with doing 
that. I understand the interest in doing this from a conceptual 
perspective. We have had some initial discussions within VA on 
that. We do have technical concerns as to whether or not we 
could make what would be needed would be code changes and 
whether we could make those without creating additional risk 
within the system.
    Mr. Boozman. And again, I have the same concerns as the 
Chair, the question that she brought up and we will probably 
want to send some additional questions over, but I guess really 
the bottom line is we have the current overpayment process, and 
the question is, how do we adjust that? How do we fix it to 
ensure that veterans for whom schools who return funds to the 
VA are not subjected to the collection efforts?
    And you mentioned that, but I guess, again, I pose the 
question again just for emphasis on how important this is. I 
mean this is something that we just simply have to get fixed 
and cleared up. And so whatever efforts that we need to expend 
in that way, it is just--I want you to know how important we 
all feel like. That just simply has to be fixed.
    Mr. Wilson. Dr. Merten did a very good job I think of 
laying out the challenges and the different players, and he 
laid out three different players involved with this, VA and the 
schools and the student, and I can't disagree at all with what 
he said. I believe he is right on point.
    I would argue though that there is actually more players 
than that involved within VA and within the schools. There are 
entities within those establishments that are involved with 
different points of the process as well. Within the schools, 
you have the finance offices and the certifying officials that 
often are not in the same location, may or may not, you know, 
be working well together. The same is within VA. We have the 
Debt Management Center involved, we have the regional 
processing offices involved, and then you have the student 
obviously involved in the entire process as well.
    Every time there is a change in enrollment, for example, a 
school will have a certifying official send us a change in the 
enrollment, report the change of enrollment at some point 
during that person's process workload, separate from that the 
finance office will be refunding money, not necessarily at the 
same time it is being reported to VA, and then within VA we are 
processing that work as it comes into the RPO, crediting it, 
having that information connected with the Debt Management 
Center, and again, the veteran involved with all of this, and 
it happens every time there is a change in enrollment.
    There is obviously thousands of certifying officials, 
thousands of debt management cases. There are a lot of cooks in 
the kitchen, and from my perspective that is the core of the 
problem, is there are a lot of people involved in something, 
and it is very difficult.
    We are working very hard, the schools are working very 
hard, there is just a lot of moving parts in this.
    Mr. Boozman. Again, thank you all for being here.
    In follow up, we probably have some other things that we 
would like to ask, and then perhaps maybe we could have some 
sort of a deadline as to when they get back in regard to this, 
you know, the true problems in implementing some sort of 
temporary whatever.
    But, you have kind of sketched over that as far as the 
problems, but I guess we would really like to know 
specifically, what, because the reality is we have just got to 
fix this problem.
    So if you can get back to us and staff with some more 
concrete things I think that would be very helpful.
    Mr. Wilson. I would be happy to do that. We have had a 
series of meetings with schools. Just yesterday we received the 
latest documents referring to our meetings and we are in the 
process now of setting up another group of meetings. So we 
would be happy to do that.
    [The VA subsequently provided the following information:]

         Question: What are the specific problems in ensuring a 
        consistent and consolidated message to schools and students 
        about education benefits?

         Response: We are committed to providing the best possible 
        service to our veterans. As part of this commitment, VA has 
        employees who are responsible for maintaining direct contact 
        with participating schools to ensure that a consistent message 
        is communicated. VA's education liaison representatives (ELRs) 
        are the primary points of contact for school officials. ELRs 
        have a wide range of responsibilities in support of education 
        benefits programs and work closely with school officials to 
        inform them of changes in VA policies and procedures.

         VA provides written policy guidance to all four Regional 
        Processing Offices (RPOs) and conducts uniform training on a 
        regular basis to ensure all RPOs and employees at the National 
        Call Center are receiving the same information. In addition, 
        RPO conference calls are conducted to address any training, 
        policy, or claims processing issues.

         VA continues to send representatives to professional and 
        educational conferences to discuss the Post-9/11 GI Bill, hold 
        training for school certifying officials who work with veterans 
        at schools, and update the GI Bill Web site to provide the most 
        comprehensive information available.

    Mr. Boozman. Good. Thank you very much.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    Mr. Krause, if the critical milestones that were previously 
discussed in past Subcommittee hearings were set over a year 
ago, why are we just now in the process of defining release 
4.0?
    Captain Krause. Madam Chairwoman, throughout this project 
we have used the Agile methodology and we have built as we go. 
We had high level requirements when we started a year ago, but 
we never had the detailed requirements. We literally do them in 
many cases a month to 3 weeks in advance. That is how the Agile 
process works. We get the sprint planning session together, we 
get the subject matter experts together, we define the user 
stories, get them detailed enough so the developers can build 
them, and then in 2 weeks they have a tested developed product 
that they show the subject matter experts, they like it, and 
then we deploy it at the next milestone.
    But about a year ago, we came under Mr. Baker's Project 
Management Accountability System (PMAS). It is his system where 
we do deliveries at least every 6 months--in this case every 3 
months--and it is inflexible schedule dates, flexible 
functionality requirements dates. That is how he is running his 
software IT projects, that is how he is turning them around.
    So on any given milestone date, you know, if we--for 
instance this summer in order to protect the fall enrollment we 
focused unexpectedly on going back and automating the 
retroactive housing payments and doing some of the work needed 
to be done to automate the date of conversion so that the claim 
examiners didn't have to manually deal with hundreds of 
thousands of claims, they could focus on the fall enrollment.
    So from a business perspective from Mr. Wilson's 
perspective it was all about protecting the fall enrollment and 
making whatever adjustments had to be made to the IT systems, 
even if they weren't planned, if they were out of scope we had 
to do it in order to protect the fall enrollment.
    So that was what this summer was about. And that is why 
some of the functionality that we have delivered has been off a 
little bit on the milestones, which is permitted under the PMAS 
system, the Program Management Accountability System, as long 
as you make the dates.
    Now on this milestone three date, as we have briefed we 
have going to deliver the VAONCE interface, but it is going to 
be available for testing on the 30th, it won't be deployed on 
the 30th, so we missed a date by 3 weeks because of some of the 
additional data conversion. But at the end of October, we will 
deliver the enrollment data, which will automatically populate 
the screens for the claim examiners so they can do their work 
more efficiently and quickly.
    You know, we had to switch from going to the financial 
accountability accounting system (FAS) for the VA, FAS is what 
it is called, a modern system. We had to switch--in the summer 
Mr. Wilson made the decision, and Mr. Baker, that we had to go 
to the older more reliable BDN system. Well that was a change 
and we had to adjust to that.
    And so for that reason because of the additional scope we 
did this summer and the concerns about the complexity of a 
financial system and the importance of getting it right the 
first time, we delayed it a few months to make sure we get it 
right, and we do all the additional testing the VA wants to do 
in November.
    But as I briefed before, the bottom line is as we promised 
in December we will have finished all the major functionality 
that was expected from us. We will have a basis user interface 
or veteran self-service capability which can be built on and 
expanded, you know, part of the life cycle of the program.
    So that is the plan, that is where we are. And we have 
tried to keep the staff, your staff, informed as we have gone 
along what the functionality of each of the releases have been. 
And when we saw ourselves switching that functionality we made 
sure that we did brief the staff within a week of making sure 
that we had our ducks in a row before we talked to them.
    Ms. Herseth Sandlin. Will you and your team continue to be 
involved after December?
    Captain Krause. We will. It looks like the plan is for us 
continue to be involved after December, yes.
    Ms. Herseth Sandlin. As we continue to peel back the onion, 
by the end of the spring semester next year, are we going to 
have a complete interface functionality for the veteran?
    Captain Krause. I think you will be working on this 
application--I mean an application as I mentioned the last time 
we met in January, these legacy systems last 30 years. You are 
always modernizing them, you are always doing a change, the 
users are always saying well I want this letter generation to 
say this, not this. You have to update it and fix it for me.
    So releases I think will be continual on this regardless of 
whether SPAWAR does it or not for the next 10, 15 years. It is 
part of the life cycle of a software program.
    Typically 80 percent of the cost of a software application 
is its life cycle cost which is the out years, which is after 
you deploy.
    So I think we are just going along with that plan. And as 
the users come up with additional functionality they want in 
the spring, somebody is going have to do that work. It doesn't 
have to be us, it can be whoever does the work.
    Ms. Herseth Sandlin. Do you believe that this VA has 
acquired sufficient technical expertise throughout this process 
to take it over on a day-to-day basis after December, after 
May?
    Captain Krause. As Mr. Baker briefed before, there will 
have to be a transition. We are looking at transitioning some 
of the things back to the VA sooner.
    For instance, the hosting at Terremark, we are trying to 
transition that back to Mr. Baker's team in the February time 
frame. We are working with the technical acquisition center to 
do that.
    We are looking at moving the training back to the VA to get 
that off our plates so the VA can take over that.
    The OPTs, they will take over the operations of the system. 
A lot of that is some of the minor changes.
    We are interested in transitioning back to the VA. And do I 
think they have the expertise. Under Mr. Baker and his 
leadership I think they have acquired that technical expertise, 
at least in my opinion very quickly over the last year. They 
have a lot of good people that can take some of this on.
    So it is all about the transition and working with Mr. 
Baker to eventually do that.
    Mr. Baker. If I could comment on that. We are going to 
focus on having the expertise from an operations and 
maintenance standpoint. We will continue to rely on SPAWAR for 
the heavy development.
    And I think Mr. Krause is right, by the end of this year we 
will have met the objectives we laid out originally, but that 
was 2 years ago, and change has occurred and there are more 
things we would like to do on that system.
    So we are planning right now for a smaller, but still 
substantial budget for development during 2011.
    I think your point relative to the Web site is spot on. One 
of the things about user interfaces is it is impossible to get 
them right the first time. You want to get them out, see what 
the users say about them and then make changes that make them 
more friendly, add functionality and add information to them.
    I think we will see that occur with the Web site, we will 
see that occur with the interface that the claims processors 
use as we go along. I think all that is appropriate.
    At some point, this system will have settled down and just 
be day in, day out operations and maintenance, but I don't 
think that will be until late 2011.
    Ms. Herseth Sandlin. So any legislative changes we may make 
would delay that further is your concern unless we manage this 
from the legislative side effectively to do the streamlining 
that may make some of the hurdles easier to get across.
    Mr. Baker. The major thing I believe we would ask is in 
looking at the various proposals we can do a quick analysis of 
whether or not they can be implemented through the rules engine 
or whether they would take software changes. And it may well be 
that we can suggest things that would allow them to be 
implemented in the rules engine versus a software change, so 
that would be a very productive piece.
    But my anticipation with any large piece of software is 
there are going to be legislative changes. Just like user 
interfaces, laws are seldom perfect the first time that they 
are passed, and I think working together will just make the 
program and software better.
    Ms. Herseth Sandlin. I have a few other questions. But you 
had said one of the things to protect the fall enrollment. Is 
this part of why you did the interface with the benefits 
delivery network instead of the financial accounting system, 
and are you ultimately going to interface with the financial 
accounting system?
    Mr. Baker. We will ultimately interface with the financial 
accounting system. FAS was not ready.
    Ms. Herseth Sandlin. When will it be?
    Mr. Baker. I don't have that. As a matter of fact one of 
the fundamental drivers for us to decide to go to BDN was 
exactly that question. We have more ability to determine where 
BDN and the Long-Term Solution are than we do on the FAS side 
of the business in the vets net area. That has been more 
problematic for us. I would say we are still working that area.
    We took substantial risk out of the program by deciding 
that we would go to BDN, because we knew it was available and 
that we would go to FAS when it was available. We knew it would 
be able to process these, however it is not there yet.
    Mr. Wilson. Now in terms of protecting the fall enrollment 
though, an important factor there was the ability to automate 
those retroactive BAH payments. Because if that had not been 
done successfully, we would have been in the position of having 
to manually adjust 153,000 awards while we are doing that.
    Ms. Herseth Sandlin. Well, please continue to keep us 
updated then as it relates to the FAS system, what the 
transition and the interface will mean for the Long-Term 
Solution. I understand why you made that decision, but I have 
some ongoing concerns about our timetable and when the FAS will 
be as reliable as BDN and what the improvements will be to the 
long term system if you can move to the other interface, right?
    Mr. Wilson. I will say one of the things I have learned in 
watching the metrics of our operational systems is that BDN is 
a very stable system. It has been in existence for a long 
period of time.
    While our long term is not BDN, I am much less, if you 
will, fearful of that system today than I was a year and a half 
ago when I first came in. You know, its reputation is that it 
is an old system, but when you watch its performance day in and 
day out it has been very stable for us. So I have come to trust 
that system more than I did in the beginning.
    Ms. Herseth Sandlin. Well, would you still be able to use 
that system as a back up if you were to transition and 
interface with the newer FAS system and there were problems? I 
mean do we have that option?
    Mr. Baker. They are substantially different systems.
    Ms. Herseth Sandlin. So we have a risk whenever we make the 
transition.
    Mr. Baker. At some point we will cut over. I don't see that 
as an unusual risk of moving from payment system A to payment 
system B.
    The data conversion is going to be much like what we just 
went through and that will be where the risk is. Most 
substantially it is in that data conversion, making sure the 
payments come over correctly.
    Ms. Herseth Sandlin. Well, that was part of the delay, 
right? The complexity of the data conversion.
    Mr. Baker. That is exactly right.
    Captain Krause. Yes, ma'am. From the interim solution to 
the Long-Term Solution, Mr. Baker is talking about now an 
upcoming data conversion from BDN, which has a whole different 
data model into a new system, FAS, which is a completely 
different data model, different data structures. There will be 
a similar challenge there.
    Mr. Baker. But I think it should be said that we are doing 
that type of conversion on a regular basis as we move veterans 
from other programs out of BDN and into FAS as part of our 
transition.
    Ms. Herseth Sandlin. Okay. Mr. Boozman.
    Mr. Boozman. Mr. Baker, can you tell us how the LTS is 
being used as the gateway to the VBMS and what is the 
anticipated cost of the VBMS?
    Mr. Baker. Of VBMS, the Veterans Benefit Management System?
    Mr. Boozman. Yes, sir.
    Mr. Baker. In the spring as we looked at the compensation 
and pension benefits, if you will, what I recognized was that 
there are a lot of similarities between what Compensation and 
Pension (C&P) does and what Education does. At that point, we 
had gained enough confidence in the architecture, the rules 
engine and the work flow that were being built for the 
education system that it made sense to have the same underlying 
architecture for the education benefits and for the 
compensation and pension benefits so that some day I could have 
one single system that actually just processed all benefits.
    That is probably what I would refer to as the gateway from 
that standpoint. In other words, I have proven it works here, 
let us do the same thing again in my harder one.
    The life cycle for VBMS, right now I would tell you is in 
the range of $500 million. We are still defining as we go 
along, we are moving to an Agile methodology for that as well.
    Again, we have had success with Agile and we want to use 
that on VBMS, but we are still wrestling with how to convert 
what used to be a very heavy process system. The old paperless 
process was built around defining all the requirements then 
building it for 3 years, delivering it to the customer and 
hoping they like it. We now use a much lighter process which is 
what we used in the GI Bill benefit system.
    From a scaling standpoint, it kind of makes sense. If you 
look at the GI Bill as roughly $100 million, C&P is much more 
than five times the size of education, and it is a much more 
complex benefit than education.
    So the life cycle cost still feels about right to me there, 
but I am only doing it from a ballpark standpoint because we 
really haven't nailed that directly in.
    Mr. Boozman. Thank you, Madam Chair.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    Mr. Wilson, I will just submit some additional questions 
for you as it relates to the concerns that we have heard about 
the Call Center, some of the inconsistencies that veterans 
continue to suffer through, and a couple questions relating to 
the VA's GI Bill benefits estimator versus what IAVA has put 
together and how familiar you are with their calculator. And we 
have just had some ongoing concerns as it relates to the 
reliability of the information some of the veterans are 
receiving.
    But I want to thank each of you, all of our witnesses on 
the panels today. I know that a lot of folks have been putting 
in a lot of hard work in implementing the VA's IT systems on a 
compressed timetable. I know you have had to make some 
adjustments, I know you have done your best to keep us apprised 
of some decisions that you have had to make to try to keep to 
certain objectives that do have the veteran as the primary 
focus in trying to manage expectations.
    As you have made process, there is a lot more work to be 
done, and the potential of other changes that we would like to 
make on the legislative side, whether that happens this 
Congress or not remains to be seen, but you know of some broad 
interest in trying to move in that direction.
    But I know it has been challenging to implement a very 
complex, very comprehensive program. I know as Mr. Krause you 
said that the data is the key and that is in part what concerns 
us as it relates to DoD. As you said, the Reserve component 
issues, and I think one of the witnesses from the earlier panel 
had mentioned the need to move to sort of the life records 
system, but we are a ways away from that.
    We will continue to plug away and keep our noses to the 
grindstone to continue to try to make progress, not just on 
some of the ongoing issues as you are working with the short-
term interim solution, but what comes online with the new 
releases on the Long-Term Solution.
    Again, thank you all, I thank the Ranking Member and our 
Committee staff, and we will take these suggestions and 
recommendations from our panelists today under consideration 
and continue to move this forward in a way that is good for our 
Nation's veterans and their families.
    Thank you, and the hearing stands adjourned.
    [Whereupon, at 4:12 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

         Prepared Statement of Hon. Stephanie Herseth Sandlin,
            Chairwoman, Subcommittee on Economic Opportunity
    During the 110th Congress, we successfully passed the Post-9/11 GI 
Bill to ensure that today's veterans are afforded equitable benefits 
similar to those afforded to veterans that served during World War II. 
Furthermore, with the leadership of Representative Chet Edwards of 
Texas, we successfully passed the Marine Gunnery Sergeant John David 
Fry Scholarship to provide education benefits to the dependents of the 
men and women who passed away due to injuries sustained in support of 
missions in Iraq and Afghanistan.
    While these legislative accomplishments are significant, we must 
continue to provide the needed oversight while addressing the 
shortfalls of existing education programs to assure that student 
veterans receive their benefits in a timely manner without delay or 
undue hardship.
    To take another step toward that goal today, I hope this hearing 
can focus on several critical issues related to the Post-9/11 GI Bill 
program:

        <bullet>  The ongoing effort to successfully implement the 
        long-term solution to ensure that the VA's Information 
        Technology systems are robust enough to efficiently manage the 
        program.
        <bullet>  The current status of the program as we begin the 
        Fall 2010 school semester.
        <bullet>  A discussion of what changes need to be made to the 
        program in order to better meet the needs of eligible veterans.

    Some of you may be aware that yesterday the full Committee 
successfully passed H.R. 5360, the Housing, Employment, and Living 
Programs for Veterans Act of 2010, otherwise known as the HELP Veterans 
Act which is fully paid for without placing a cost burden on the 
taxpayers. This bill seeks to provide a number of important 
improvements to VA education benefits, including increasing the flight 
training allowance for Chapter 30 recipients; reauthorizing and 
extending the recently expired veteran work-study program; and 
increasing the amount of reporting fees payable to educational 
institutions that enroll veterans receiving educational assistance.
    I look forward to advancing this bipartisan bill as soon as time on 
the House floor is identified. I also look forward to working with my 
colleagues to consider other legislative proposals that seek to address 
the current needs of our Nation's veterans. One such legislative 
proposal is H.R. 5933, the Post-9/11 Veterans Educational Assistance 
Improvements Act of 2010, which was introduced by Rep. Walt Minnick. I 
know several of our witnesses have referenced this legislation today 
and I look forward to learning more about how the proposals in that 
legislation, as well as those included in similar and related 
legislation, could potentially impact the Post-9/11 GI Bill program and 
its implementation.

                                 <F-dash>
            Prepared Statement of Hon. John Boozman, Ranking
        Republican Member, Subcommittee on Economic Opportunity
    Good afternoon.
    Madam Chair, I appreciate the excellent testimonies submitted for 
this hearing, especially the administrative issues raised by the 
schools. It is clear that while not perfect, the level of benefits paid 
to veterans and to schools on their behalf is excellent. Unfortunately, 
administration of those benefits has not met the same standard because 
as VA and our staff noted in several meetings before passage as part of 
a defense supplement, the program is significantly more complex than 
any of its predecessors. Despite some early missteps, I am fully aware 
of the effort VA's staff has put into developing the long-term solution 
and I thank them for their work.
    One of the basic difficulties is the wide variation in how public 
institutions in 50 states and the territories are funded and managed 
and how that impacts VA's implementation of the Post-9/11 GI Bill. We 
are now entering the second year of the program and I am very concerned 
about issues surrounding the management of overpayments. VA's basic 
position is that the veteran is responsible for returning any 
overpayment to VA and that schools should send overpayments to the 
veteran and the veteran send them to VA. This seems to be an 
unnecessarily bureaucratic process that also entails significant 
opportunity for less than optimal results.
    We are also hearing about difficulties when schools send money 
directly back to VA as well as VA's concerns about how some schools do 
not identify the veterans whose accounts should be credited for 
returned overpayments and the resulting attempts by VA to collect 
overpayments from veterans. Perhaps Madam Chair, it is time for a 
temporary moratorium on chapter 33 collections until VA and the schools 
get the rules for handling overpayments straightened out.
    I yield back.

                                 <F-dash>
                Prepared Statement of Hon. Walt Minnick
    Madam Chairwoman, Ranking Member Boozman, and members of the 
Subcommittee, I thank you for allowing me to join this hearing today. I 
would also like to thank our panel of representatives from the American 
Legion, the Iraq and Afghanistan Veterans of America, Veterans of 
Modern Warfare, and Veterans of Foreign Wars. I thank them for their 
military service and for their insight into what must be done to 
improve and simplify the new GI Bill which this Congress passed with 
strong bi-partisan support last year.
    I'd like to make a few brief remarks about the importance of this 
process and this bill, H.R. 5933, the Post-9/11 Veterans Educational 
Assistance Improvements Act.
    In 1945 the House Committee on Veterans' Affairs conducted a 
lengthy hearing to review the effectiveness of the first GI Bill which 
was intended to give returning World War II veterans a college 
education in return for their service in saving the Nation from foreign 
aggression. As we are doing today, members of that Committee listened 
to veterans' groups request upgrades to the first version of the bill 
so that the benefits would be extended to things like vocational 
schools and correspondence courses.
    And now, two generations later, we are doing the same thing today. 
Just as the WW II GI Bill was upgraded to help educate what is often 
referred to as the ``greatest generation,'' we must upgrade and improve 
the new GI Bill to make it workable so it can fully satisfy the 
educational needs of a new generation of returning veterans. As a 
veteran myself of the Vietnam Era, I have many friends who volunteered 
to serve in that war so they could go to college after they left the 
military and with their GI benefits obtain the education necessary to 
launch successful civilian careers.
    Having listened to many veteran service organizations and veterans 
from my home state of Idaho and elsewhere, I have introduced H.R. 5933 
to offer the comprehensive improvements needed to make the new GI Bill 
fill the needs of this generation's returning veterans.
    To provide a brief example, students enrolling in an excellent 
private college in my district, Northwest Nazarene University in Nampa, 
Idaho, will directly benefit from this bill in several ways. By raising 
the maximum tuition cap to $20,000 per year, H.R. 5933 will 
significantly increase the tuition benefits available for veterans 
attending Northwest Nazarene--and other excellent, but expensive, 
private colleges.
    The bill will also afford a living allowance to veterans opting to 
pursue their degrees online--a benefit they were previously denied. It 
will also reimburse travel costs for distance learners and includes a 
new $1,000 allowance for increasingly expensive student books, hard 
copy and electronic. This bill will also make the educational benefits 
available for those veterans electing to pursue vocational education or 
other technical training.
    My offices in Idaho and Washington have listened to stories shared 
by veterans who have been unable to take full advantage of the new GI 
Bill's benefits. Benefits Congress intended to confer with last year's 
legislation. Many others have had their benefits reduced by 
unnecessarily limiting regulations.
    To fulfill the promise we make to today's young people who 
volunteer to put their lives in harm's way to serve in the military and 
preserve our way of life, we much provide them with the education they 
need after their military service to be successful in today's high tech 
world. This bill makes the corrections to last year's landmark GI Bill 
required for us to redeem this promise.
    In closing I'd like to thank Chairwoman Herseth Sandlin for her 
support in this effort and very much look forward to working with her, 
Chairman Filner, the Ranking Member and my Republican colleagues in 
moving this bill through to passage in the remaining days of this 
Congress.
    Thank you and I yield back.

                                 <F-dash>
          Prepared Statement of Faith DesLauriers, Legislative
   Director, National Association of Veterans' Program Administrators
                           EXECUTIVE SUMMARY
Concerns NAVPA hears from veterans regarding their educational 
        benefits:

        <bullet>  Students pursuing their education through Distance 
        Learning should have the same eligibility for housing stipends 
        as students attending what is defined as in-residence training.
        <bullet>  Retired and/or separated veterans, who earned and are 
        otherwise eligible for the Post-9/11 GI Bill, have voiced their 
        extreme disappointment in being denied the ability to transfer 
        their entitlement to their dependents.
        <bullet>  Veterans have voiced their concern that the ability 
        to pursue their educational endeavors are restricted to that 
        which is deemed by congress to be traditional.
        <bullet>  Students don't understand why VA distinguishes 
        between tuition and fees with different caps for each rather 
        than combining them into one maximum
        <bullet>  Students are concerned that the VA remains unable to 
        credit refunds made by the schools to their accounts.
        <bullet>  Veterans are receiving letters from the Debt 
        Management Center although these students are current with the 
        payment plans negotiated with DMC in an effort to repay the 
        emergency advance payments from fall 2009.

Feedback NAVPA has from schools:

        <bullet>  There is a critical need for consistent guidance as 
        to the correct procedures for returning or refunding payments, 
        as well the assurance that funds returned to the VA will in 
        fact, be credited to veteran's debts/overpayments.
        <bullet>  Many students who access their education benefits are 
        placed at a financial disadvantage because of DVA's policy to 
        count class enrollment sessions versus term enrollment periods.
        <bullet>  It is imperative that an efficient communication 
        mechanism be established between schools and the VA.
        <bullet>  Inconsistent guidance to schools among and between 
        RPOs and ELRs continues to be problematic.
        <bullet>  Responsibilities associated with this program have 
        increased the processing time for each claim at the school 
        level approximately 300 percent yet institutions continue to be 
        compensated at the rate of $7 for each student enrolled in most 
        VA educational benefits, a rate that has not changed in over 30 
        years.
        <bullet>  Reinstate the customer service units at each of the 
        RPO's specifically to work with Veterans' Program 
        Administrators.

Improvements to Chapter 33 that NAVPA believes are needed:

        <bullet>  GI Bills must remain an earned entitlement and not 
        become a ``need-based award''--leave other scholarships, 
        grants, etc. out of the equation.
        <bullet>  Eliminate inequities among rates paid to eligible 
        individuals for attendance at schools of different types--
        public, private, foreign, graduate, undergraduate, resident or 
        non-resident.
        <bullet>  Elimination of annual state tuition and fee maximums 
        would improve timing of certification, processing, and payment 
        accuracy.
        <bullet>  Tie the living stipend to training time for all forms 
        of course delivery and reduce the minimum training time 
        requirement to half-time, rather than more than half-time.
        <bullet>  Correct the rule that makes it impossible for a 
        reserve component member eligible at less than the 100 percent 
        tier of Chapter 33, to combine federal Tuition Assistance 
        (first pay) and Ch 33 (second pay) in any way that would cover 
        all their charges.
        <bullet>  Clarify Non-duplication of a Federal program.
        <bullet>  NAVPA members fully support legislation which would 
        expand the student work study program.
        <bullet>  Overpayments created by the eligible individual as a 
        result of a reduction or termination of enrollment should be 
        recovered from entitlement.
        <bullet>  NAVPA Recommends elimination of the multiple levels 
        of eligibility as it relates to required active duty service.
        <bullet>  Amend Chapter 33 to expand educational and training 
        opportunities such as OJT/Apprenticeships and other viable and 
        previously approved vocational training opportunities.
        <bullet>  Continue to work toward providing equity in benefit 
        and simplicity in rules regarding eligibility, payments and the 
        overall administration of the Post-9/11 GI Bill.

                               __________

    Good afternoon Chairwoman Herseth Sandlin, Ranking member Boozman, 
and Members of the Subcommittee. Accompanying me today is Margaret 
Baechtold, Director Veterans Support Services, Indiana University. We 
appreciate the opportunity to appear before you today and for the 
opportunity to share the concerns and recommendations of veterans' 
program administrators, as well as that of the population they serve 
regarding educational benefits.

Concerns we hear from veterans regarding their educational benefits

        <bullet>  Students pursuing their education through Distance 
        Learning should have the same eligibility for housing stipends 
        as students attending what is defined as in-residence training. 
        Veterans should not be penalized for being responsible, 
        disciplined adult learners, for putting their family first or 
        whatever reason (personal, professional, geographical, etc.) 
        one might have for choosing a mode of study other than that 
        which is strictly defined as ``in-residence'' training. 
        Veterans training under all other GI Bill programs receive full 
        benefit reimbursement for pursuit of programs through distance 
        learning.
        <bullet>  Veterans have voiced their concern that the ability 
        to pursue their educational endeavors are restricted to that 
        which is deemed by congress to be traditional. This not only 
        restricts the method/modality by which they receive their 
        educational plans, but restricts their personal choice in 
        educational and training institutions, as well as careers.
        <bullet>  Retired and/or separated veterans, who earned and are 
        otherwise eligible for the Post-9/11 GI Bill, have voiced their 
        extreme disappointment in being denied the ability to transfer 
        their entitlement to their dependents.
        <bullet>  Students don't understand why VA distinguishes 
        between tuition and fees with different caps for each rather 
        than combining them into one maximum, particularly for 
        determining the maximum payment allowed for enrollment at 
        private schools, out-of-state residents in the public sector, 
        and graduate/professional enrollments in both.
        <bullet>  Students are concerned that the VA remains unable to 
        credit refunds made by the schools to their accounts. 
        Consequently, a debt or overpayment is created and payments are 
        withheld from living stipends, book stipends and kickers to 
        recoup a debt that does not exist. What is even more critical 
        is the fact that this is negatively impacting their credit 
        scores, credit card companies are cancelling their credit line 
        and in many cases veteran students who counted on the promise 
        of a housing allowance each month, are being evicted from their 
        homes for a debt that does not exist.
        <bullet>  Veterans are receiving letters from the Debt 
        Management Center (DMC) stating ``The following information on 
        your delinquent indebtedness, along with your name and address, 
        was reported to a number of consumer reporting agencies''. 
        Although, these students are current with the payment plans 
        negotiated with DMC in an effort to repay the emergency advance 
        payments from fall 2009.

Feedback we have from schools administering education benefits:

        <bullet>  There is a critical need for consistent guidance as 
        to the correct procedures for returning or refunding payments, 
        as well the assurance that funds returned to the VA will in 
        fact, be credited to veteran's debts/overpayments. Checks sent 
        to the VA are being held until they are no longer negotiable. 
        Schools are finding it necessary to track the check, stop 
        payment and issue another check. Often the cycle is repeated. 
        Even when the checks are cashed the debt is being charged to 
        the school rather than reconciling the students account with 
        the returned funds.
        <bullet>  Many students who access their education benefits are 
        placed at a financial disadvantage because of DVA's policy to 
        count class enrollment sessions versus term enrollments 
        periods. This often results in a reduction of the veterans 
        student monthly entitlements and is contrary to the 
        disbursement of Title IV funds. Recommendation: Consider 
        changing the method of computing all credit hours earned in a 
        standard college term to maximize the GI Bill benefit to the 
        veteran.
        <bullet>  It is imperative that an efficient communication 
        mechanism be established between schools and the VA. While 
        schools are not always privileged to the eligibility tier on 
        which payment will be made, there is an expectation that 
        schools will defer tuition and fee payments based on the 
        students' statement that they are eligible for Chapter 33.
        <bullet>  Inconsistent guidance to schools among and between 
        RPOs and ELRs continues to be problematic.
        <bullet>  Veterans' Program Administrators, often referred to 
        as Certifying Officials are the people who have the most 
        contact with individuals eligible to train under this newest GI 
        Bill. They are working untold hours to assist in the 
        administration of this program and to maintain compliance with 
        the rules governing all veterans' education programs. It is not 
        business as usual. The program complexities, counseling, fiscal 
        and reconciliation responsibilities associated with this 
        program have increased the processing time for each claim 
        approximately 300%. Institutions continue to be compensated at 
        the rate of $7 for each student enrolled in most VA educational 
        benefits. If the educational institution delivers an advance 
        payment check, compensation is increased to the rate of $11 for 
        that student. These fees have not changed since the inception 
        over 30 years ago; however, several programs have been added on 
        to the school VA veteran's program administrator's 
        responsibility at the institution. It is time and appropriate 
        for that fee, paid to the college or university, to be 
        increased. NAVPA recommends $50.00 per student and to eliminate 
        the difference in reporting fee for the certification of 
        advance payments. Fees should be designated for the office of 
        veterans' affairs for services, outreach, and professional 
        development.
        <bullet>  Customer Relations/Communication continues to be 
        inconsistent and all too often inaccurate, regarding 
        information given to both the students and the schools by the 
        VA Call Center. Recommendation: Reinstate the customer service 
        units at each of the RPO's specifically to work with Veterans 
        Program Administrators.

Improvements to Chapter 33 that NAVPA believes are needed:

        <bullet>  GI Bills must remain an earned entitlement and not 
        become a ``need-based award''--leave other scholarships, 
        grants, etc, out of the equation.
        <bullet>  Eliminate inequities among rates paid to eligible 
        individuals for attendance at schools of different types--
        public, private, foreign, graduate, undergraduate, resident or 
        non-resident.
        <bullet>  Elimination of annual state tuition and fee maximums 
        would improve timing of certification, processing, and payment 
        accuracy. Recommendation: (1)Provide tuition and fee payments 
        for the public sector based on the actual cost (i.e. tuition 
        and mandatory fees) as certified by the educational 
        institution. (2)Provide tuition and fee payments for enrollment 
        in the private sector, foreign schools and for out of state/
        non-residents attending public schools, based on actual cost, 
        as certified by the educational institution; not to exceed the 
        highest cost program in the public sector. That is, establish a 
        ``national maximum'' (tuition and mandatory fees) allowed for 
        all education and training programs. For the purpose of 
        updating the National Maximum each year, it is recommended that 
        the effective date of the new rate be October 1 of each 
        academic year.
        <bullet>  Tie the living stipend to training time for all forms 
        of course delivery and reduce the minimum training time 
        requirement to half-time, rather than more than half-time. For 
        example, allow 50% of the monthly living stipend for half- time 
        enrollment, 75% for three-quarter- time, and 100% for full-
        time. Keep it simple as well as equitable--Use the Montgomery 
        GI Bill payment schedule as a successful model.
        <bullet>  Develop an Education Benefits Web Portal. A web 
        portal will provide an efficient mechanism for information 
        exchange with, and access to, education systems by veterans and 
        other stakeholders, such as schools, state approving agencies, 
        etc. At minimum, provide access to Veterans' eligibility data 
        on VA-ONCE to verify benefits remaining, eligibility tier, 
        overpayments, etc.
        <bullet>  Correct the rule that makes it impossible for a 
        reserve component member eligible at less than the 100% tier of 
        Chapter 33, to combine federal Tuition Assistance (first pay) 
        and Ch 33 (second pay) in any way that would cover all their 
        charges. This disadvantage also applies to ROTC scholarship 
        recipients.
        <bullet>  Clarify Non-duplication of a Federal program. DVA 
        advisories concerning which programs would duplicate federal 
        benefits appears to conflict with current laws. A brief summary 
        of CFR 21.7143 (c) provides that; (1) payment of educational 
        assistance is prohibited for a unit course or courses which are 
        being paid for entirely or partly by the armed forces during 
        any periods he or she is on active duty; (2) payment of 
        educational assistance is prohibited for a unit course or 
        courses which are being paid for entirely or partly by the 
        Department of Health and Human Services during any period that 
        he or she is on active duty with the Public Health Service or 
        (3)for a unit course or courses being paid for entirely or 
        partly by the United stated under the Government Employees 
        Training Act.
        <bullet>  NAVPA members fully support legislation which would 
        expand the student work study program. Allow veterans and other 
        eligible persons the opportunity to work in the college/
        university veterans' affairs office and/or administrative or 
        academic departments at the degree granting institution of 
        higher learning in which the student is pursuing their academic 
        credentials. Additionally, allow them to take advantage of this 
        programs while enrolled at a minimum of \1/2\ time student 
        status, especially critical for summer sessions and other non-
        standard length enrollment periods. Many veterans have not 
        graduated when their MGIB entitlement has expired after having 
        reached its 36th month. These veterans are still in school; 
        still have some time remaining relative to the delimiting date, 
        yet have no VA educational benefit to help them through the 
        remaining few months of school. We recommend that the VA Work-
        study program not be limited to 36 months, rather be made 
        available to them as long as they have not reached their 
        delimiting date.
        <bullet>  Eliminate overpayments--To establish an overpayment 
        puts unnecessary burden on the student and the Department of 
        Veterans' Affairs in the effort to recover the overpayment. We 
        are suggesting that an individual has 36 months of entitlement 
        under a single program and that an overpayment should not exist 
        until the eligible individual has used 36 months. Overpayments 
        created by the eligible individual as a result of a reduction 
        or termination of enrollment should be recovered from 
        entitlement.
        <bullet>  The percentage or tier of eligibility for the Post-9/
        11 GI Bill is the most complicating factor in determining 
        eligibility, processing claims and making other financial 
        awards by both the VA and the educational institutions. NAVPA 
        Recommends elimination of the multiple levels of eligibility as 
        it relates to required active duty service. The level of 
        benefit should be reduce to two levels, one level for a 
        cumulative period of active duty of 3 or more years and another 
        for less than 3 years. We suggest that to establish basic 
        eligibility, an otherwise eligible individual must serve on 
        active duty for 181 cumulative days following September 10, 
        2001, completed the initial obligated period of service and met 
        all other eligibility requirements.
        <bullet>  NAVPA encourages the Secretary and Congress to amend 
        Chapter 33 to expand educational and training opportunities 
        such as OJT/Apprenticeships and other viable and previously 
        approved vocational training opportunities. Many veterans are 
        not interested in attending college, but have the skills 
        necessary to master a trade. Limiting training opportunities 
        (career options), consequently dilutes the readjustment element 
        of the program.
        <bullet>  Continue to work toward providing equity in benefit 
        and simplicity in rules regarding eligibility, payments and the 
        overall administration of the Post-9/11 GI Bill.

    Again, thank you for this opportunity to participate in this 
hearing, to discuss current problems affecting veterans as well as 
educational institutions, and to recommend solutions on behalf of our 
nation's veterans, servicemembers and their dependents, and the 
National Association of Veterans' Program Administrators.
    Madam Chairwoman, this concludes my statement. I would be pleased 
to answer any questions you or other members of Subcommittee may have.

                                 <F-dash>
        Prepared Statement of Alan G. Merten, Ph.D., President,
     George Mason University, on behalf of American Association of
                    State Colleges and Universities,
                           Executive Summary
Concerns Heard from Veterans Regarding Educational Benefits

    VA's delays and problems in implementing Chapter 33 are well-
documented in both hearing testimony and the press. Specific new 
concerns are as follows:

        <bullet>  Veteran students filling out help desk tickets on the 
        VA Web site are given unrelated information and directed to the 
        FAQ site, causing frustration
        <bullet>  Continuing delays (2-3 months) in receipt of 
        Certificate of Eligibility from VA

Feedback from Schools Administering Educational Benefits

    Despite implementation pressures facing the VA, VA did not make an 
effort to understand how institutions operate and work with the Federal 
Government. Specific examples are as follows:

        <bullet>  VA did not take advantage of existing program models 
        directing federal funds to institutions on behalf of students 
        (e.g., Title IV programs under the Higher Education Act of 
        1965);
        <bullet>  VA's interpretation of the higher education term 
        ``tuition and fees'' caused significant confusion. The higher 
        education community usually refers to tuition and fees as a 
        single amount, not two separate ones; VA's separation of 
        ``tuition'' and ``fees'' confused not only veteran students, 
        but institutions;
        <bullet>  The VA did not issue clear, coherent, and consistent 
        Chapter 33 operational guidance to institutions, adding to 
        increased administrative burden on institutions;
        <bullet>  VA's required fund return processes have caused 
        veterans to owe significant monies to the Federal Government 
        and do not align with the Return of Title IV Funds process 
        under the HEA, which does not disadvantage students in this 
        manner.

Needed Improvements to Chapter 33

    AASCU recommends Congress consider the following:

        <bullet>  Congress should clearly define the benefit amount for 
        which an individual veteran student is eligible and eliminate 
        the separate tuition and fee charts constructed by the VA;
        <bullet>  Future legislation should clearly establish the 
        benefit equal to the established charges for the program of 
        education at a public institution, adhering to the underlying 
        tenet of the Post-9/11 GI Bill of covering the cost of public 
        education for veterans;
        <bullet>  Basic Allowance for Housing (BAH) should be 
        implemented for online students due to enrollment patterns of 
        veterans;
        <bullet>  Congress should consider requiring VA to collect and 
        publish more complete and timely data on Post-9/11 GI Bill 
        usage, including VA customer service data for students and 
        institutions.

                               __________

    Madame Chairwoman Herseth-Sandlin, Ranking Member Boozman, and 
distinguished Members of the Subcommittee, my name is Dr. Alan Merten 
and I am president of the George Mason University. Today, however, I am 
here to present the perspective of the American Association of State 
Colleges and Universities (AASCU) related to the implementation of the 
Post-9/11 GI Bill benefits program at its 430 institutions located in 
49 states, the District of Columbia, Puerto Rico, Guam, and the Virgin 
Islands. Thank you for holding this hearing and providing the 
opportunity to present this testimony. The Post-9/11 GI Bill is an 
excellent, timely opportunity for veterans and their families to pursue 
postsecondary education.
    I would also like to note that AASCU is the contract administrator 
for the Department-of-Defense-funded Servicemembers Opportunity 
Colleges (SOC). The SOC Consortium is a network of approximately 1,900 
colleges and universities offering educational services to our nation's 
Armed Forces and veterans. In order to be included in the Consortium, 
an institution must establish flexible policies appropriate for the 
unique demands on servicemembers and dependents. These policies address 
items such as enrollment and transfer of credit.
    While national- and institutional-level data on the Post-9/11 GI 
Bill program and veteran students on campus is lacking, some specific 
data points about AASCU institutions serving veteran students are as 
follows:

        <bullet>  AASCU's San Diego State University, one of the many 
        military-friendly AASCU institutions, enrolled over 1,100 
        active-duty military, reservists, veterans, and military 
        dependents in Spring 2009;
        <bullet>  Of the 7 brick-and-mortar campuses reported by the VA 
        as having enrolled the most veteran students using Post-9/11 GI 
        Bill benefits in 2009-10, 3 campuses (Old Dominion University, 
        Troy University, and University of Maryland-University College) 
        were AASCU members. These institutions enrolled over 5,000 of 
        the 12,000+ students on those 7 campuses (approximately 43 
        percent of enrollment), with University of Maryland-University 
        College alone enrolling over 3,000 veteran students;
        <bullet>  In 2007-08 (prior to Post-9/11 GI Bill 
        implementation), according to the National Center for Education 
        Statistics, approximately 21 percent of all military 
        undergraduates (including active-duty, reserve, and veterans) 
        were enrolled at public 4-year institutions.

    When the Post-9/11 GI Bill was first introduced it was anticipated 
that colleges and universities would see a 20-25 percent increase in 
enrollment of veterans. At Mason, we saw a 30 percent increase in our 
Fall 2009 enrollment of veterans and a 79 percent increase in Spring 
2010. One of those newly enrolled veterans introduced President Obama, 
Vice President Biden, Senator Webb and Senator John Warner, and 
Secretary Shinseki at George Mason University when the bill was 
introduced nationally on August 3, 2009.

    The Committee asked us to address three areas:
        <bullet>  concerns heard from veterans regarding their 
        educational benefits,
        <bullet>  feedback from institutions about implementation and 
        administering benefits,
        <bullet>  improvements to the Chapter 33 program that AASCU 
        would suggest are needed.

    Historically, GI Bill benefits were provided directly to the 
veteran student. As Vietnam-era veterans, my wife and I received 
benefits in this manner. The creation and implementation of the Post-9/
11 GI Bill program altered this dynamic by having the Department of 
Veterans Affairs (VA) issue tuition and fee payments directly to the 
institution after a certifying process. The compressed timeline the VA 
faced in implementing this program created a difficult situation.
    I would like to highlight some of the issues faced by veterans on 
our campuses. The VA's delays and problems in implementing Chapter 33 
are well-documented in both hearing testimony and the press. In fact, 
VA has gone on record to say that its performance was not acceptable. 
Thus, one of the major and universal issues being faced by veteran 
students is delays. In addition to delays in processing original 
benefits, many Post-9/11 GI Bill benefit delays have occurred in 
reprocessing and in payment of other allowances, such as housing and 
book stipends. In addition, delays of up to a year are occurring with 
regard to appeals for claim re-evaluations.
    Given that tuition and fee benefit payments are now directed to 
institutions, veteran students rely more heavily on school officials to 
provide guidance and information related to their benefits. The VA's 
guidance to both institutions and veterans has been generally basic in 
nature. This has frustrated both institution officials and the veteran 
student population. Veteran students have informed institutions that 
they find the VA Web site--which VA has heavily publicized as a way of 
providing Post-9/11 GI Bill information to veterans and institutions 
alike--difficult to navigate. Reportedly, VA's responses to inquiries 
submitted online are often inadequate and do not address the specific 
problem about which they have inquired. Students also find they cannot 
get through to the VA toll-free number (a problem shared by 
institutions). Institutions report that staff at the VA toll-free 
hotline provide information to students that is later found to be 
incorrect, which places more administrative burden on institutions.
    The school official is not a VA employee and in many cases does 
this task as a collateral duty. As a result of the Post-9/11 GI Bill, 
the workload on these staff members has increased to the point that 
many schools like Mason have had to hire additional personnel to handle 
not only the certification process but the billing process as well. 
While the VA does pay schools an annual reporting fee of $7.00 for each 
certified veteran, that amount hardly covers the costs. Senator Chuck 
Hagel (R-Neb.) said, ``the biggest obstacle might be reintegrating 
soldiers seamlessly into society,'' and he suggests that higher 
education can do that better than any other institution. Higher 
education can do this but it needs to be supported and equipped to 
ensure this success.
    The Post-9/11 GI Bill has also presented higher education 
institutions with a number of challenges that many are not yet prepared 
to meet. These include a number of student veterans with academic need, 
mental health and disability issues.
    There are academic issues that many veterans face. Some veterans 
require some remedial education before starting college, some because 
they have lost skills in the years since high school and others because 
they were not college-ready in the first place. Some have received 
their GEDs through the military. Some may benefit from first attending 
community colleges whose open enrollment policies and education model 
is often more conducive to adult learners.
    A recent RAND report indicated that 1 in 5 Post-9/11 veterans will 
suffer from combat stress or cognitive issues such as Post Traumatic 
Stress Disorder or Traumatic Brain Injury. These potential student 
veterans require additional support from university staff who must work 
with military specific combat stress issues as the veteran attempts to 
cope with battlefield experiences. Not all schools and not all student 
health centers are equipped to address these needs.
    In addition to the mental health issues, the Department of Defense 
indicated recently that there are over 36,000 servicemembers who have 
been wounded in action. Some of these wounded warriors have 
catastrophic combat injuries that are not typically found on campuses 
where disabilities have a far different meaning. Such injuries 
represent a growing concern in higher education on how to be Americans 
with Disabilities Act (ADA) compliant since most institutions of higher 
learning are only prepared for historic disabilities. Since this 
service is mandated by law regardless of cost, there appears to be no 
legally acceptable response if the institution were to fail in 
providing these services.
    Despite the implementation pressures facing the VA--which AASCU 
fully understands--more effort on VA's part to understand how 
institutions operate and work with the Federal Government should have 
occurred. For many decades, programs directing federal funds to 
institutions on behalf of students have existed, namely Title IV 
programs under the Higher Education Act. Even a cursory examination of 
these programs would have guided the VA toward a more efficient 
implementation of the Post-9/11 GI Bill. Further, the VA interpretation 
of the higher education term ``tuition and fees'' caused significant 
confusion. The higher education community usually refers to tuition and 
fees as a single amount, not two separate ones; VA's separation of 
``tuition'' and ``fees'' into two discrete charts, while well-
intentioned, was confusing for not only veteran students, but 
institutions.
    Other higher education officials have testified before Congress to 
these same concerns. It is VA's seeming refusal to take into account 
higher education's established operating procedures that has led to 
many of the current implementation issues. While the delays above are 
an administrative issue, VA has not issued clear, coherent, and 
consistent Chapter 33 operational guidance to institutions. Campus 
administrators must routinely address diverse issues involving veteran 
students. Many of these issues are nuanced and need more than basic 
operational guidance. While we understand VA's time constraints and 
initial focus on getting benefits processed, unfortunately the lack of 
clear and comprehensive guidance anticipating complex situations has 
complicated and delayed the delivery of benefits.
    Institutions have the opportunity to elect to receive Post-9/11 GI 
Bill tuition and fee benefits for veteran students either 
electronically or via individual checks. Institutional feedback is that 
neither approach seems to be ideal. If institutions receive payments 
electronically, the electronic funds transfer process does not allow 
for individual annotations explaining why a particular tuition and fee 
benefit is being returned to VA (e.g., a student having dropped from 
full-time enrollment to part-time enrollment). If institutions opt to 
receive individual checks for each veteran student, a cumbersome 
reconciliation process is necessary for institutions to ensure the 
correct monies are credited to veteran students' accounts.
    A common concern is that administrative burden has increased 
throughout the implementation of the program, mainly due to the 
necessity to resolve over- or underpayments by VA. The issue of over- 
and underpayment requires close examination. When students change 
majors, drop or withdraw from a class, or have other life circumstances 
affect their finances or attendance, the institution must recalculate 
benefits. This reevaluation may result in either decreased or increased 
benefit eligibility. The VA issued guidance on how to handle these 
circumstances that required institutions to return all of the 
originally issued benefit and start the certification process over from 
scratch.
    Contrast this process with the Return of Title IV Funds process 
under the Higher Education Act. In these situations, institutions 
recalculate benefit eligibility and adjust accordingly. If the student 
has received an overpayment, the excess amount is returned to the 
Federal Government. If a student is eligible for additional funds, the 
school requests the additional funds. In both situations, however, the 
student is not usually in a limbo state of having no funds credited to 
his or her account.
    If, for some reason, federal Title IV grant funds received directly 
by a student (i.e., a refund of grant monies in excess of tuition and 
fees) are later determined to be an overpayment and thus must be repaid 
by the student, the institution can receive those funds from the 
student and conduct appropriate fiscal transactions with the Department 
of Education on the student's behalf. That way, the institution is 
always acting on behalf of the student. However, this is not the case 
with Post-9/11 GI Bill benefits administration.
    VA's requirement that institutions return the entire initial 
benefit amount issued has placed veterans in the position of owing 
significant monies to the Federal Government. The VA is being extremely 
diligent in pursuing these veteran students; however, there are 
instances where funds returned to the VA by institutions were not 
properly credited by the VA to individual students' accounts. These 
processing issues have resulted in detrimental circumstances, as 
highlighted by the document attached to this testimony (see Attachment 
A).
    To further complicate the return of tuition and fee funds in an 
over- or underpayment situation, the VA established two different 
procedures for the flow of funds. If classes have not begun, the 
institution must return the funds directly to the Federal Government. 
After classes have begun, VA directs that the payment--even if an 
overpayment--should be issued to the student. The VA will then collect 
any monies owed to the Federal Government directly from the individual. 
This further complicates an already convoluted process. Further, based 
on past experiences with over- and underpayments of Post-9/11 funds, 
some schools are reluctant to issue a check for over $20,000 to a 
student but would rather act as the responsible agent. By contrast, the 
benefit adjustment process for Title IV education benefits is the same 
throughout the entire academic calendar.
    Given the above examples, it is difficult not to wonder whether if 
VA had better consulted with the Department of Education and/or higher 
education institutions during the ramp-up to Post-9/11 GI Bill 
implementation, some of its 2009-10 performance failures might have 
been mitigated and taxpayer money saved.
    As noted earlier, Chapter 33 is a tremendous opportunity for 
veterans and their families to pursue higher education; therefore, we 
offer the following as suggestions to further enhance and improve the 
current program.
    First and foremost, Congress needs to clearly define the benefit 
amount for which an individual veteran student is eligible. This 
specifically entails eliminating the separate tuition and fee charts 
constructed by the Veterans Administration as the means to determine 
Post-9/11 GI Bill payment eligibility. The current tuition and fee 
charts as constructed by VA are not only an interpretation of the 
current Post-9/11 GI Bill language that we believe Congress did not 
intend, but are also inconsistent with commonly accepted higher 
education practices, as noted earlier.
    Standard practice in most institutions of higher education is to 
bill a student for tuition, required fees, and any other applicable 
charges (e.g., room and board for a resident student) for a single 
term. The bill is generally itemized--except at those institutions 
charging a ``comprehensive fee'' that includes tuition, required fees, 
room, and board--but usually not separated into one payment for tuition 
and one payment for fees. Federal Title IV funds are also generally 
applied to the total of tuition and fees rather than being divided into 
one payment for tuition and one payment for fees.
    Thus VA's interpretation of Post-9/11 GI Bill language to separate 
``tuition'' and ``fees'' into two separate categories runs counter to 
how higher education operates. This is not merely a semantic issue. 
When the tuition and fee charts were originally issued by VA, this 
method had the financial consequence of lowering Post-9/11 GI Bill 
benefits for veteran students in California, where ``fees'' are 
commonly used to characterize what other states call ``tuition.'' This 
terminology is common knowledge in the higher education community and 
to California residents. It was apparently unknown to VA. Fortunately, 
public outcry from both veteran students and public and private 
institutions in California--as well as Congressional concern--rectified 
this problem. But VA's interpretation of the Post-9/11 GI Bill to 
create these charts negatively affected veteran students and 
institutions of higher education alike.
    The Post-9/11 GI Bill establishes a highest in-state rate for the 
academic year that fails to take into account tuition increases at 
institutions during that academic year. For example, at Mason our 
summer tuition rate increase was approximately 8 percent. Since this 
increase was above the highest in-state rate established for the 
academic year, it was not covered.
    The underlying tenet of the Post-9/11 GI Bill is to ensure that 
costs at a public institution are covered for a veteran student. As 
such, any future legislation should clearly establish the benefit equal 
to the established charges for the program of education at a public 
institution. This removes any confusion between ``tuition'' and 
``fees'' in different states and gives the veteran student a clearer 
idea of what he or she is eligible for in advance of enrollment.
    In addition, there is a notion being discussed of designating the 
VA as the ``last payer'' for the veteran. While AASCU understands some 
of the reasons for this notion, please understand that the idea will 
not simplify Chapter 33 or reduce confusion for veteran students. Let 
me be clear: Should Congress pursue this notion, it will again be faced 
with rewriting this legislation within the next two years due to the 
intolerable chaos it will inflict on both veteran students and program 
administrators.
    Even before the Post-9/11 GI Bill, Mason experienced a similar 
issue with our ROTC program. The Post-9/11 GI Bill is an entitlement 
for a veteran's service to the armed forces but it cannot be used in 
conjunction with ROTC benefits, which are paid to a student for future 
service. When we questioned this dilemma the VA stated that the student 
has to choose which federal benefit he/she wishes to receive. A veteran 
shouldn't have to forgo a benefit they have earned to take advantage of 
another.
    Another issue that Congress should address on behalf of veteran 
students is related to providing a basic allowance for housing (BAH) 
for online students. Currently, BAH benefits are only awarded to 
veterans taking at least one course on campus. Nearly 70 percent of 
active-duty servicemembers take online courses; thus, as students 
transition to veteran status, they are already accustomed to utilizing 
distance learning options. The lack of this benefit has resulted in 
decisions creating further hardship. For example, a student who 
otherwise would have taken an online course who now must travel to a 
face-to-face classroom may incur transportation costs or child-care 
costs that would have otherwise been avoided. Also, veteran students 
recovering from service-related injuries (particularly those students 
suffering from PTSD or TBI) report feeling forced to go into a 
classroom to keep their BAH even though to them, a distance-learning 
environment would better suit their recovery process.
    Finally, AASCU would ask Congress to consider requiring VA to 
collect and publish more complete and timely data on Post-9/11 GI Bill 
usage, including data on customer service by VA to both veteran 
students and institutions. As has been noted not only in testimony to 
the House and Senate but in the higher education press and in other 
media, VA's statistics related to Post-9/11 GI Bill usage and claims 
processing are incomplete and confusing. Publishing more timely and 
complete data would allow veteran students and taxpayers to better 
understand VA's progress in administering this complex program. 
Furthermore, given that this is a new program, a unique opportunity 
exists for VA to use the data collected to refine and streamline its 
processes and functions. In addition, it will be useful for the larger 
higher education community to use the data in improving programs and 
services for veteran students.
    According to the American Council on Education 2009 report on 
``Serving Those Who Serve: Higher Education and America's Veterans,'' 
only about 71 percent of eligible servicemembers use their VA education 
benefits, only 6 percent use their full benefits, and on average, they 
only use 17 months of a 36-month entitlement.
    While many of the circumstances highlighted today are a direct 
result of the Post-9/11 GI Bill implementation process, institutions 
like Mason stand ready to work with the VA in order to ensure ease of 
access for veterans enrolling in postsecondary education. Many of the 
issues discussed are operational in nature; thus legislative fixes are 
not necessarily appropriate. Furthermore, institutions of higher 
education were extraordinarily flexible and generous in the 2009-10 
academic year at the request of VA when dealing with veteran students 
whose Chapter 33 benefits were delayed by VA's implementation problems.
    The good news is that the VA has increased its outreach to schools 
and appears much more willing to work collaboratively and openly with 
the higher education community to understand how the VA processes--and 
their interface with higher education business practices--could be 
improved to better and more effectively assist veteran students. We are 
encouraged that this effort will continue and can resolve the 
operational issues that have plagued implementation.
    The initial unwillingness on the part of the VA to reach out to 
schools hurt veteran students first and foremost. It also hindered the 
efforts of higher education institutions across the country to assist 
veteran students' enrollment and facilitate their success. The higher 
education community is prepared and eagerly looks forward to working 
collaboratively with the VA to streamline this program and reduce the 
confusion to institutions, the VA, but most importantly the veteran.
    Thank you again Madame Chairwoman. I look forward to your 
questions.

                               __________

                                                       Attachment A
    The Higher Education community presents the following scenarios 
that lead to the return of Post-9/11 GI Bill benefits to the Department 
of Veterans Affairs. This outline of common scenarios is provided in 
response to VA concerns regarding the receipt of funds from 
institutions.

        1.  Veteran enrolls but never attends class.

    When a veteran applies for Post-9/11 benefits, the institution of 
higher education must verify enrollment then complete and send the 
veteran's Certificate of Eligibility (COE) to VA. Upon receipt of the 
COE, VA calculates the veteran's benefit and remits payment to the 
school, often prior to the start of class. Not infrequently, a veteran 
will withdraw before classes begin but after payment of Post-9/11 
benefits has been received by the school. This payment must be refunded 
to VA.

        2.  Veteran's Post-9/11 benefits and other tuition-restricted 
        aid exceed cost of tuition and fees.

    Veterans are frequently eligible for multiple types of financial 
aid in addition to Post-9/11 benefits. Schools often receive other aid 
for a veteran after his or her Post-9/11 benefits have been received. 
When the combination of Post-9/11 benefits and other aid exceeds the 
cost of tuition and fees, the excess payment must be returned to the 
aid source. If we understand the proposed legislative change correctly, 
VA is `last payer'; therefore the Post-9/11 benefits comprise the 
excess payment and must be refunded to VA.

        3.  Veteran declines Post-9/11 benefits after they have been 
        paid by VA.

    Veterans may change their mind and decide not to use their Post-9/
11 benefits after they have already received them. These benefit 
payments must be refunded to VA.

        4.  School receives Post-9/11 benefit payments from VA on 
        behalf of veterans for whom school has not completed 
        Certificate of Eligibility.

    In order to determine a veteran's eligibility for Post-9/11 
benefits a COE must be submitted to VA by the school. If the school 
receives a benefit payment without having submitted a COE the payment 
must be refunded to VA.

        5.  School receives duplicate and inaccurate Post-9/11 benefit 
        payments from VA.

    When schools receive a duplicate Post-9/11 benefit payment for the 
same veteran, the duplicate payment must be refunded to VA. When 
schools receive an under- or over-payment of Post -9/11 benefits for a 
veteran, schools must refund the entire payment to VA and request VA to 
remit the correct payment amount.
    The table below contains specific examples of the situations 
described above.


------------------------------------------------------------------------
                  School                               Example
------------------------------------------------------------------------
1. Western Illinois University              Veteran withdrew before
                                             class after Post-9/11
                                             benefits had been paid; WIU
                                             refunded benefits to VA via
                                             check in Dec 2009; VA
                                             cashed the check in Feb
                                             2010 but didn't process it
                                             to the veteran's account
                                             until Aug 2010.
------------------------------------------------------------------------
2. University of Illinois                   Veteran received ROTC
                                             scholarship after Post-9/11
                                             benefits had been paid; UI
                                             refunded benefits to VA via
                                             ACH in early March 2010
                                             according to VA's ACH
                                             return policy; VA still has
                                             not processed the refund
                                             and was still requesting
                                             payment from the veteran in
                                             late Aug 2010.
------------------------------------------------------------------------
3. University of Illinois                   Per veteran's request, UI
                                             refunded Post-9/11 benefits
                                             to VA via ACH in early
                                             March 2010 according to
                                             VA's ACH return policy; VA
                                             did not process the refund
                                             until late July 2010;
                                             meanwhile VA reported
                                             veteran as delinquent to
                                             the credit bureaus, ruining
                                             his credit and causing
                                             Discover to cancel his
                                             credit card.
------------------------------------------------------------------------
4. University of Illinois                   UI received $8,305.60 Post-9/
                                             11 benefit payment from VA
                                             on January 19, 2010 then
                                             received another payment in
                                             the amount of $9,343.80
                                             from VA on May 13, 2010 for
                                             the same veteran.
------------------------------------------------------------------------
5. Illinois State University                ISU received payment from VA
                                             for a veteran's books and
                                             supplies stipend (which
                                             should have been remitted
                                             directly to the veteran).
------------------------------------------------------------------------
6. Illinois State University                ISU certified a veteran's
                                             Post-9/11 benefit
                                             eligibility at 70 percent
                                             but received payment from
                                             VA in March 2010 at 60
                                             percent; ISU questioned
                                             VA's eligibility
                                             calculation in March 2010
                                             and was told by VA that 60
                                             percent was correct; at
                                             veteran's request, ISU
                                             questioned VA again in
                                             August 2010 and was told
                                             student eligibility is 70
                                             percent.
------------------------------------------------------------------------
7. The George Washington University         GWU received Post-9/11
                                             benefit payments from VA
                                             via check and ACH for the
                                             same veteran.
------------------------------------------------------------------------


                                 <F-dash>
             Prepared Statement of Donald D. Overton, Jr.,
             Executive Director, Veterans of Modern Warfare
    Chairwoman Herseth Sandlin, Ranking Member Boozman, and 
Distinguished Members of the Subcommittee on Economic Opportunity, on 
behalf of Veterans of Modern Warfare (VMW) and our National President 
Joseph Morgan we thank you for the opportunity to present our views on 
an ``Update on the Post-9/11 GI Bill.''
    My name is Donald Overton and I am a 100% service-connected combat 
disabled Army veteran of the first Gulf War currently serving as 
Executive Director for Veterans of Modern Warfare. VMW is a 501(c)19 
National Wartime Veterans Service Organization founded in 2006. VMW 
represents active-duty, National Guardsmen, Reservists, and Veterans 
who have served honorably in our Nation's armed forces from August 2, 
1990 through a date to be prescribed by Presidential proclamation or 
law.
    Since the enactment of the Post-9/11 GI Bill more than a year ago, 
VMW members across the Nation have been afforded the opportunity to 
pursue educational endeavors at varying institutions of higher 
learning. However, far too many have been left behind. It became 
readily apparent that this historically significant legislation had a 
multitude of unforeseen limitations. Hopefully, this committee, along 
with your colleagues in the 111th Congress, will correct these 
limitations and ensure the maximum effectiveness of the most generous 
investment in veterans' educational benefits since the end of World War 
II.
    Considering the current global economic climate, and our Nation's 
fiscal obligations both foreign and domestic, veterans' education and 
employment has fortunately remained a top national priority. VMW 
salutes the House Committee on Veterans' Affairs for its ongoing 
efforts and consideration of H.R. 3337 (Post-9/11 Veterans' Job 
Training Act of 2009), H.R. 4765 (authorizing VA to receive work-study 
allowances for certain outreach services provided through congressional 
offices), H.R. 3813 (Veterans Training Act), H.R. 3719 (Veterans 
Economic Opportunity Administration Act of 2009) and H.R. 5933 (Post-9/
11 Veterans Educational Assistance Improvements Act of 2010).
    VMW staunchly supports these legislative initiatives, although we 
are somewhat concerned by certain provisions. Since many of these 
initiatives have been incorporated and seemingly culminated into H.R. 
5933, we will focus our Chapter 33 benefits package comments on this 
bill, while we address our concerns over effective and efficient 
implementation. Without a major cultural transformation within the 
Department of Veterans Affairs, as prescribed by H.R. 3719, the most 
well intentioned Chapter 33 legislative remedies may be doomed to 
failure.

Student Veterans Chapter 33 Concerns

    Chapter 33 Post-9/11 GI Bill benefits failed to provide:

        <bullet>  the opportunity to pursue educational programs at 
        institutions other than institutions of higher learning, 
        including vocational, apprenticeship, on-the-job training, 
        correspondence and flight training;
        <bullet>  full GI Bill credit for full-time National Guard 
        service, to include full-time Title 32 Active Guard Reserve and 
        state activation service;
        <bullet>  housing stipend for distance learners, or those 
        studying less than full-time;
        <bullet>  Yellow Ribbon benefits to certain National Guard and 
        reserve personnel members;
        <bullet>  multiple licensing or certification testing 
        reimbursements; and
        <bullet>  an equivalent book stipend for active-duty students.

    Although this list is not exhaustive of the concerns of our student 
veteran members, it does provide a framework from which to develop and 
implement substantial legislative improvements to the Post-9/11 GI Bill 
benefits package. These improvements will have a positive impact on the 
lives of tens of thousands of Americans who have served in our Nation's 
armed forces, as well as on their families and the global economy.

Chapter 33 Improvements

    H.R. 5933 (Post-9/11 Veterans Educational Assistance Improvements 
Act of 2010) remedies a multitude of concerns espoused by our student 
veteran members. This legislation would:

        <bullet>  revise definitions concerning eligibility, and 
        include certain National Guard service as service qualifying 
        for such assistance;
        <bullet>  revise assistance amounts (including monthly 
        stipends), and types of approved programs of education;
        <bullet>  allow the pursuit of educational programs at 
        institutions other than institutions of higher learning, 
        including on-the-job training and apprenticeships, flight 
        training, and correspondence courses;
        <bullet>  provide an assistance amount for programs of 
        education pursued while on active-duty;
        <bullet>  repeal the limit on the use of such assistance for 
        the payment of only one licensing or certification test;
        <bullet>  allow an individual entitled to supplemental 
        educational assistance to transfer such entitlement to the 
        post-9/11 program;
        <bullet>  bar the duplication of benefits under other 
        educational assistance programs;
        <bullet>  increase the amount of the reporting fee paid by the 
        Secretary of Veterans Affairs (VA) to an educational 
        institution for providing information concerning an 
        individual's enrollment in a program of education;
        <bullet>  extend to certain National Guard and Reserve 
        personnel eligibility to receive public-private contributions 
        for additional educational assistance;
        <bullet>  reauthorize through 2016 the Veterans' Advisory 
        Committee on Education;
        <bullet>  revise cost-of-living adjustments under the 
        Montgomery GI Bill educational assistance program; and
        <bullet>  provide an alternate subsistence allowance amount for 
        veterans entitled to such allowance because of service-
        connected disabilities.

    While we applaud these adjustments, VMW remains concerned by 
language found in H.R. 5933 at:
    Section 3 ``Modification of Amount of Assistance and Types of 
Approved Programs of Education''

    (a) . . .
        (1) . . .
                (A) . . .
                (B) . . .
                (C) . . .
                        (A) An amount equal to----
                                (i) . . .
                                (ii) in the case that such institution 
                                is a non-public or foreign institution 
                                of higher learning, the lesser of----
                                        (I) . . .
                                        (II)$20,000 for each academic 
                                        year

    Establishing these tuition caps will have a negative impact on 
student veterans attending private colleges within the following 
states: Michigan, New Hampshire, New York, Pennsylvania and Texas. 
There is no guarantee that the Yellow Ribbon program will be capable of 
absorbing these monetary offsets, and without current statistical data 
to analyze the number of student veterans potentially impacted, or the 
overall extent of this provision, we would encourage a comprehensive 
analysis prior to insertion of this provision in the legislation that 
will ultimately be enacted.
    Our other concern may be found at Section 11, the proposed 
elimination of the Cost of Living Allowance for Chapter 30 Montgomery 
GI Bill recipients to afford a Cost of Living Allowance for Chapter 33 
Post-9/11 GI Bill recipients. Taking benefits from one class of 
veterans to pay for another is an unjust policy consideration and 
should not have even been proposed. We urge you to eliminate this from 
any bill that goes forward.
    Given the prescribed effective date of August 2011, we believe this 
will afford the VA and school administrators' ample time to train and 
prepare for the adjusted benefit package. This will also assuage what 
has been the primary concern of school administrators: the lack of 
communication and training time by the VA.

Implementation Improvements

    Our Nation owes veterans much more than ``blood money,'' especially 
to our veterans who have been disabled in service to our country. The 
central event in their readjustment process is being able to secure 
gainful work at a living wage.
    H.R. 3719 (Veterans Economic Opportunity Administration Act of 
2009), establishes in the Department of Veterans Affairs a Veterans 
Economic Opportunity Administration, to be headed by an Under Secretary 
for Veterans Economic Opportunity who will administer VA programs of 
economic opportunity assistance to veterans and their dependents and 
survivors. It will put under one roof the following VA programs: (1) 
vocational rehabilitation and employment; (2) educational assistance; 
(3) veterans' housing loan and related programs; (4) veterans' 
entrepreneurship; and (5) homeless veterans.
    This bill also would establish as an interagency committee the 
Department of Veterans Affairs-Department of Labor-Small Business 
Administration Joint Executive Committee on Economic Opportunity to 
recommend to the Secretaries of Veterans Affairs and Labor and the 
Administrator of the Small Business Administration strategic direction 
for the joint coordination and sharing of efforts to promote and 
administer veterans economic opportunity programs for education and 
training, vocational rehabilitation, employment, small business, and 
homelessness, and to oversee implementation of those efforts.
    We have seen time and again the VA's failure to properly implement 
the benefit programs within their purview. These failures have been 
particularly pervasive within the Veterans Benefits Administration 
(VBA). It is imperative that during this era of cultural transformation 
within the VA, under Secretary Shinseki's bold leadership, that the 
VEOA be created. Removing these relevant programs from the antiquated 
and over-burdened VBA will ensure the viability of veterans' economic 
opportunities for their futures, a just reward from a grateful Nation.

Conclusion

    Madame Chairwoman, VMW again thanks you for this opportunity to 
express our views, and will be pleased to respond to any questions you 
or your colleagues may have.

                                 <F-dash>
                  Prepared Statement of James D. Wear,
             Assistant Director, National Veterans Service,
             Veterans of Foreign Wars of the United States
    CHAIRWOMAN HERSETH SANDLIN, RANKING MEMBER BOOZMAN AND MEMBERS OF 
THE SUBCOMMITTEE:

    On behalf of the 2.1 million members of the Veterans of Foreign 
Wars and our Auxiliaries, we would like to thank the subcommittee for 
giving us the opportunity to testify today on veterans' concerns 
regarding their education benefits and improvements to the Post-9/11 GI 
Bill.
    The VFW is very proud to have worked with this subcommittee to pass 
the Post-9/11 GI Bill in July of 2008. A generation of veterans is now 
better equipped to seek higher education, with hundreds of thousands of 
veterans in schools across the nation directly benefiting from the 
dedication, work and leadership of this subcommittee and its staff.
    VA's latest education workload report dated September 7, 2010, 
shows the number of non-Chapter 33 educations enrollments pending at 
168,237. While VA recently reported that their automated data 
integration system had allowed them to process 130,000 Chapter 33 
enrollments so far this year, we believe that they also need to focus 
on timely processing of non-Chapter 33 enrollments as well.
    VA is to be commended for the timely processing of these claims and 
for having the ``Spring 2010 GI Bill Benefit Processing'' Web site 
available to track their processing of education enrollments during the 
2009-2010 academic year. However, there is no analogous ``Fall 2010 GI 
Bill Benefit Processing'' Web site to track current education payment 
progress during the 2010-2011 academic year. VFW requests that VA have 
a Web site to track the processing of both Chapter 33 and non-Chapter 
33 education payments during the 2010-2011 academic year.
    While VA's Web site will help to track enrollments, there are 
additional improvements that can be made by reexamining the Post-9/11 
GI Bill with an eye toward simplifying and strengthening the benefits 
it provides. We offer a number of suggestions to improve, simplify and 
strengthen the legislation with the goal of ensuring equitable benefits 
for equivalent service.
    The VFW offers its strong support for H.R. 5933, the Post-9/11 
Veterans Educational Assistance Improvements Act of 2010. We are 
enthusiastic about the direction this legislation takes the Post-9/11 
GI Bill. The VFW believes a number of changes must be made to the Post-
9/11 GI Bill to address the needs of today's servicemembers, veterans 
and their families. Many of these changes are reflected in the bill.
    Of the many positive changes in this legislation, the provisions 
that would allow Guard and Reserve members to count active-duty service 
under Title 32 orders toward Chapter 33 eligibility is perhaps the most 
important. This change will credit these men and women for their 
service securing our nation's borders and airports, cleaning up the 
Gulf, and for saving lives and property during and after natural 
disasters such as Hurricane Katrina. We need to reward this continuous 
noble service with Post-9/11 GI Bill eligibility. Making sure the 
Reserve component receives equitable benefits for equivalent service is 
a top VFW priority.
    Because of variations in state tuition and fees, this legislation 
would eliminate the state-based payment cap, in favor of the guarantee 
that Chapter 33 benefits will fully cover the cost of public 
undergraduate or graduate programs across the Unites States. Further, 
it offers a dollar for dollar match up to $20,000 per year at all 
approved non-public and foreign institutions of higher learning.
    In the Post-9/11 GI Bill, half-time training was linked with less 
than half-time training. This legislation separates those definitions 
to clarify the difference between half-time training and less than 
half-time training. This change will make the rate of benefit payment 
easier for the veterans and the institutions of higher learning to 
understand as well for VA to administer.
    This legislation seeks to provide a housing stipend for half-time 
students. VFW supports proportionate housing stipends. Current law does 
not pay a living allowance for half-time students, yet students 
enrolled with one credit more than half-time receive the full living 
stipend. The legislation proposes that if veterans enrolled in a 
program of education on a half-time basis the monthly housing stipend 
would be 50 percent of full-time basic housing stipend. This would make 
rates simpler to understand and greatly reduce the number of over 
charges to veterans. The VFW supports proportionate housing stipends 
for half-time students.
    The VFW also supports providing housing stipends to veterans so 
that they can focus on their studies knowing their housing costs will 
be covered while pursuing a program of education at a foreign 
institution of higher learning.
    One of the primary purposes of the GI Bill is to serve as a 
transition program. We encourage every veteran to attend classes in a 
traditional classroom setting among their civilian peers. We believe 
the GI Bill helps reintegrate veterans into civilian life by 
encouraging socialization in the classrooms and lecture halls of 
America. Nevertheless, the VFW supports providing housing stipends for 
distance learning so veterans can focus on their studies knowing not 
only are their housing costs provided for but their transportation 
costs are minimized. Also, offering one of the newest technological 
means of delivering learning to students helps educational institutions 
keep down tuition and fees.
    There are many essential well-paying jobs that require training not 
provided in colleges or universities. This legislation would expand the 
Post-9/11 GI Bill to include programs of education at institutions 
other than institutions of higher learning to include On-the-Job 
Training and Apprenticeships. The original GI Bill provided World War 
II veterans benefits for apprenticeships and vocational training. We 
believe the Post-9/11 GI Bill should also provide current veterans the 
same opportunity to seek careers in skilled trades. These programs 
represent the most effective direct employment programs available to 
our nation's newest veterans. The legislation would include certified 
Vocational Programs (non-degree granting institutions) and On-the-Job 
Training (OJT)/Apprenticeship programs to allow veterans the 
opportunity to learn a trade while receiving a living allowance, 
tuition and book stipend. Many veterans have technical skills and 
transferable credit acquired in the military that gives them a head 
start on earning a technical education. We should encourage veterans to 
invest in technical educations as these skill sets will help us to re-
build our cities and restart our economy.
    Each veteran should receive a living allowance based on BAH and the 
zip code of the OJT program. The annual $1,000 book stipend would best 
be paid in $500 intervals at the beginning of the training and then six 
months thereafter to aid the veteran in covering the cost of tools and 
program supplies.
    We support educational assistance for flight training and programs 
of education taken by correspondence.
    The VFW supports legislation which allows a lump sum for books, 
supplies, equipment and other educational costs for individuals on 
active duty pursuing a program of education.
    This legislation would also establish a protocol allowing veterans 
to take multiple licensure and certification tests at no charge to 
their entitlement until the test costs exceed $2,000.00. The VFW 
supports this.
    This legislation ensures that supplemental education assistance 
under Subchapter III of Chapter 30, transfers into Chapter 33. The VFW 
supports the inclusion of these important incentives to assist the 
Department of Defense (DoD) in managing its military retention 
programs.
    This legislation also adds to the Chapter 31 program an equitable 
housing stipend for veterans utilizing the Vocational Rehabilitation 
and Education programs. The VFW supports this.
    These changes to the GI Bill are absolutely necessary to ensure 
that veterans have every opportunity to pursue and complete programs of 
learning that will not only help them make the transition from warrior 
to civilian, but will also provide them the tools to become and remain 
productive, taxpaying, members of society for a lifetime. By 
streamlining processes and opening new avenues to education and 
training, veterans will be better equipped to make their ambitions a 
reality.
    Once again, thank you for including the voice of the VFW and its 
members; we look forward to continuing to work with you to improve the 
lives of America's veterans and their families.
    Madam Chairwoman, this concludes my testimony. I will be pleased to 
respond to any questions you or the members of your subcommittee may 
have. Thank you.

                                 <F-dash>
             Prepared Statement of Robert Madden, Assistant
        Director, National Economic Commission, American Legion
                           EXECUTIVE SUMMARY
    Although the Post-9/11 Bill was the single greatest benefit offered 
to the
Post-9/11 veteran, the implementation fell far short of the needs of 
those new veterans. Delays in applying for and receiving benefits has 
been the single greatest failure during the implementation in the past 
year. The American Legion heard from hundreds of veterans and their 
families discussing the issue of delayed or no payment. These late 
payments caused veterans and families to drop out of school due to 
financial hardship.
    To alleviate some of these issues, the Department of Veterans 
Affairs has increased the number of claims processors and is 
implementing a new IT system to help streamline the claims process and 
should have a self-navigating system that veterans can access by 
December 2010. This will go a long way in addressing many of the 
preliminary problems that still plague veterans and their family 
members.
    The American Legion recommends communication between Regional 
Processing Offices (RPO) be uniform. There are schools that have 
campuses across the nation and are therefore using multiple RPOs for 
information. Institutions are receiving multiple policy protocols from 
separate RPOs for the same situation which in turn causes confusion for 
veterans and educational institutions. This process of getting 
different responses from separate RPOs needs to be addressed and 
communication must be accurate and similar across the Nation.
    In order to properly serve the veterans and families of this 
country, The American Legion recommends several changes to the Post-9/
11 GI Bill. Those changes include: Allowing housing allowance for 
distance learners; addition of vocational, apprenticeship, on-the-job 
training and flight training; transfer of educational benefits to 
dependents of those who have retired from active duty, and inclusion of 
Title 32 Active Guard Reserves to receive Federal benefits under 
Chapter 33.
    No matter what era, we should not forget the sacrifice of those who 
served in our military. However, the latest generation of veterans and 
their families have experienced a new hardship and experience due to 
multiple deployments and a changing nature of war. These veterans 
deserve the highest quality of service when receiving benefits and 
should be granted the opportunity to choose their education and 
employment path when returning to school.

                               __________

    Madam Chairwoman, Ranking Member Boozman and Members of the 
Subcommittee:
    Thank you for this opportunity to present The American Legion's 
views on the status of the Post-9/11 Veterans Educational Assistance 
Act of 2008. The American Legion commends the subcommittee for holding 
a hearing to discuss this very important and timely issue.
    American men and women are serving in two wars, while also serving 
this great nation in various capacities across the globe. Veterans who 
have served since September 11, 2001 are entitled to education 
benefits, not just any education benefits, but the most comprehensive 
benefits since the Servicemen's Readjustment Act of 1944. The original 
WWII benefit is said to have produced 50 years of economic prosperity 
for America. With over 2 million servicemembers having served since 
2001, the Post-9/11 GI Bill can do the same thing for this country and 
give this new ``Greatest Generation'' an education.
    The American Legion has not only been a lead supporter of the Post-
9/11 GI Bill, but also a concerned advocate during the implementation. 
The 111th Congress has held hearings on the long-term and short-term 
implementation strategies for administration of the Post-9/11 GI Bill 
by the Department of Veterans Affairs (VA). These hearings updated 
Congress on VA's development of the information technology components 
for the new law and the progress made during implementation. The 
American Legion testified before Congress last year about its concerns 
regarding VA's implementation strategies and urged VA to be ready to 
fulfill its administrative duties ``right the first time.''
    Since the passage and the implementation of the Post-9/11 GI Bill, 
VA had a rough and rocky start. Thinking they were fully prepared to 
implement the biggest changes in GI Bill history, VA set out to put 
their best foot forward in August 2009. They soon found that the 
implementation system was flawed and there was no easy way to process a 
Certificate of Eligibility or an actual claim. A processor for the old 
Montgomery GI Bill needed only around 30 minutes to process a claim, 
but for the components of the Post-9/11 GI Bill, this time ballooned to 
close to 2 hours per claim. This time-intensive process compounded by a 
lack of adequate staff fostered a significant backlog of education 
claims.
    Unfortunately, many veterans waited weeks and months just to get 
their Certificate of Eligibility, and even longer to actually receive 
benefits. These men and women gave up their jobs in order to better 
their employment chances by going to school. It should be noted, to be 
able to get the most out of the benefit, a veteran or family member 
needs to take a course load of over half-time. In the worst case 
scenarios, veterans who recently left the military were without a job 
and without their education benefit from VA. The American Legion 
received hundreds of calls and emails from veterans discussing their 
financial difficulties and the possibility of homelessness was 
sometimes mentioned. The American Legion responded to a number of these 
veterans with Temporary Financial Assistance, one of our many programs 
to assist veterans and their families.
    When the cries for assistance reached its highest levels,, VA 
responded and provided individuals who were in school an emergency 
payment of up to $3,000. The American Legion applauded and still agrees 
this was a smart decision to make, but now is seeing the backlash from 
this decision. Now, there are reports of veterans and their family 
members losing all of their future payments instead of the proposed 
$750.00 reduction VA promised from the payment plan. VA has taken steps 
to rectify this situation, but some of the damage has already been 
done. Many veterans and their families called The American Legion 
because they cannot get through to VA and need information. We take 
pride in assisting them, but need VA's cooperation to get issues 
resolved. The American Legion believes there needs to be more oversight 
on decisions that are made to ensure proper implementation, so that the 
veteran or his/her family member is not the one who suffers.
    Another recurring issue is overpayment. There have been reports of 
schools being overpaid, which is why many schools are waiting for the 
add/drop period before sending in the veteran's enrollment 
certification. In spite of this move by the schools, the veteran is 
still being overpaid; consequently, the schools send back the money, 
but it is not being reported back to the VA in a timely manner. 
Ultimately, the veteran is then denied their housing allowance and 
books stipend, until their payment is recouped by VA. This causes an 
undue burden for the veteran and his/her family and causes, again, 
another financial hardship. Every time a mistake happens, it does not 
affect VA, but does manage to cause problems for the veteran. Closer 
oversight on these issues would be the fix to many of these problems.
    One of the main challenges VA faces is communication. One Regional 
Office (RO) says the veteran can do something one way and then another 
RO says the veteran cannot. Secondly, a veteran or family member will 
call the 1-800 numbers for education assistance and will ask a 
question. That same veteran will call back, get a different operator 
and ask the same question. What the veteran receives, on occasion, is 
multiple answers. The veteran needs to receive the same answer so he/
she can properly navigate the education process.
    The American Legion also would like to bring to the Committee's 
attention a flaw that exists in the Post-9/11 GI Bill. With all the 
great benefits the Post-9/11 GI Bill offers, it has unfortunately left 
out a few educational choices. The American Legion is a strong 
supporter of allowing the Post-9/11 GI Bill to be used for non-degree 
granting institutions. This employment path is a more traditional 
choice, but vocational, apprenticeship, on-the-job training and flight 
training are not payable by the current bill (Post-9/11). This 
disparity has caused much concern for The American Legion. We have 
found that not every veteran has the time or is considering attending 
college. They might have a family and need to become gainfully employed 
as soon as possible, which is something that vocational, on-the-job 
training, apprenticeship and flight training offer. Instead, a veteran 
may choose a more traditional path and attend a non-degree institution, 
but cannot use their Post-9/11 GI Bill benefits to complete these 
courses. Most of these education paths consist of a shorter training 
time and can lead to immediate employment. The American Legion believes 
that veterans should never be limited in the manner they use their 
educational benefits.
    The American Legion also sees other areas where the Post-9/11 GI 
Bill can be improved. Those who have served since September 11, 2001 
and retired before the implementation of the Post-9/11 GI Bill should 
be allowed to transfer their educational benefits to their dependents. 
We also note the increased utilization of online distance learning. 
Currently, those who attend classes strictly online are prohibited from 
receiving the housing allowance. These men and women take these classes 
due to the flexibility they offer. Veterans who attend these classes 
have families and may need flexibility to be able to advance their 
career and should be entitled to the housing allowance. The greatest 
equity issue is those men and women who served during the crisis of 
September 11, 2001. These Title 32 Active Guard Reserve members served 
under federal orders but were not allowed to include their federal time 
for eligibility for the Post-9/11 GI Bill. These men and women served 
valiantly and with distinction. This is a must fix and needs to be 
addressed immediately.
    Currently, there are two bills, H.R. 5933 and S. 3447, which are 
companion measures. These bills propose changes to the Post-9/11 GI 
Bill to make the Post-9/11 GI Bill a stronger benefit for veterans and 
their families. The American Legion supports both of these bills. 
Veterans should be free to choose their school and get the education 
they believe is best for them and their family.
    Even with some challenges and missteps, The American Legion 
continues to ensure veterans and their families get the necessary 
assistance during this education transition. The American Legion 
recently held the ``Veterans on Campus'' education symposium, which 
tried to identify best practices on how to assist veterans in their 
transition from the military to college life. We found a large number 
of student-veterans and academia did not have sufficient information 
about the Post-9/11 GI Bill benefits. VA needs to provide more outreach 
to colleges and universities around the country to ensure these 
student-veterans have a full range of knowledge concerning their 
education benefits. The American Legion is excited about the final 
implementation of the new IT for veterans. We hope this IT solution 
helps resolve many of the application, payment and communication 
problems that have been experienced.
    Although the VA has taken many necessary steps in order to provide 
a fluid transition for veterans and their families, we have seen 
numerous bumps along the way. Sometimes, as in the case of the 
emergency payment, VA has had to make some tough choices to correct 
those problems. The American Legion will continue to monitor the 
continued transition for the Post-9/11 GI Bill.
    The American Legion appreciates the opportunity to present this 
statement for the record. Again, thank you Madame Chairwoman, Ranking 
Member Boozman, and Members of the Subcommittee for allowing The 
American Legion to present its views on this very important issue.

                                 <F-dash>
             Prepared Statement of Tim Embree, Legislative
          Associate, Iraq and Afghanistan Veterans of America
    Madam Chairwoman, Ranking Member, and members of the subcommittee, 
on behalf of Iraq and Afghanistan Veterans of America's over two 
hundred thousand members and supporters, I would like to thank you for 
allowing us to testify before your subcommittee. As a representative of 
IAVA, I also extend the gratitude of tens of thousands of our members 
who can now afford to attend school, and become the Next Greatest 
Generation.

I. Executive Summary:

    Our work on the new GI Bill is not done. The Post-9/11 GI Bill is a 
historic commitment to this generation of veterans and over 300,000 
students have taken advantage of this hard earned benefit. But, while 
some student veterans are on the path to earning themselves a first 
class future, tens of thousands of veterans are being left behind. Too 
many young veterans find themselves unable to take advantage of these 
GI Bill benefits and many others, already using the new GI Bill, have 
had their benefits cut by needlessly complicated regulations in Chapter 
33. In order to complete our work on the new GI Bill, IAVA recommends 
swift passage of H.R. 5933, commonly referred to as the New GI Bill 
2.0.
    New GI Bill 2.0 finishes the Post-9/11 GI Bill and includes:

        <bullet>  Vocational Training: Invaluable job training for 
        students studying at vocational schools.
        <bullet>  Title 32 AGR: Grant National Guardsmen responding to 
        national disasters full GI Bill credit.
        <bullet>  Distance Learners: Provide living allowances for 
        veterans in distance learning programs.
        <bullet>  Tuition/Fees: Expand and simplify the Yellow Ribbon 
        Program.
        <bullet>  Active Duty: Include a book stipend for active duty 
        students.

    Over the past year IAVA has helped thousands of veterans navigate 
through their GI Bill benefits and we have trained hundreds of schools 
on the ins and outs of the new GI Bill. Our daily interactions with 
student veterans and schools have revealed the following concerns 
regarding the VA's handling of the new GI Bill.

        <bullet>  Student veterans complete their assignments on time 
        and so should the VA: Nine months late updating the new BAH 
        rates and one month late publishing the 2010-11 tuition/fees 
        chart.
        <bullet>  Delays are imminent: 160,000 backlogged GI Bill 
        claims, 60 percent more than any other time this decade with 
        the exception of last year. This will mean unacceptably long 
        wait times, yet again.
        <bullet>  Processing remains plagued by repeated mistakes: Many 
        veterans have been erroneously denied benefits and are forced 
        to spend months trying to unravel the errors.
        <bullet>  Lack of reliable information costs veterans: The 
        irrevocable choice between the new and old GI Bill is worth 
        thousands of dollars and VA still lacks good resources to help 
        inform that choice.
        <bullet>  Refunds of overpayments: There are no guidelines for 
        schools to follow to repay the VA for erroneous tuition 
        overpayments and this results in veterans having their entire 
        GI Bill withheld.

II. Introduction

    IAVA believes that by finishing the work Congress began two years 
ago, this historic commitment to our veterans will be remembered as one 
of the shrewdest investments in our country's men and women in uniform 
for generations to come.
    Today's veterans are our country's leaders of tomorrow. Hundreds of 
thousands of combat veterans from Iraq and Afghanistan have served 
honorably and are now looking to utilize the Post-9/11 GI Bill to begin 
the next chapter of their lives. Thanks to the most generous increase 
in education benefits since World War II these veterans and their 
families now have the opportunity to pursue a ``first-class'' 
education.
    IAVA has gained unique insight into where implementation of the New 
GI Bill has succeeded and where it has failed. For over two years, IAVA 
has been assisting student veterans navigate this generous, yet 
complicated, new benefit. Nearly 1 million people have visited our 
premier GI Bill resource, www.newgibill.org. We offer the most accurate 
benefits calculator, Frequently Asked Questions (FAQs), and resources 
where veterans can find answers to their GI Bill questions. As we have 
stated over and over again, the VA must improve their outreach. By 
working closely with IAVA and the VSO community the VA could be solving 
problems before they arise rather than constantly reacting to the 
latest crisis.
    On top of the VA's rocky implementation, we recognize that the new 
GI Bill is still a work in progress. Once finished, the new GI Bill 
will be a shining moment in the history of our great republic. Everyday 
we wait to pass upgrades to the new GI Bill, tens of thousands of 
veterans are ineligible to access this new education benefit and many 
others using the new GI Bill have had their benefits cut by one of the 
many poorly written regulations in Chapter 33.

III. Lessons Learned for the New GI Bill's Sophomore Year

    IAVA has been cautioning student veterans to prepare for another 
rough autumn and has been pleading with the VA to be as transparent as 
possible. The VA has made some significant improvements in their 
handling of the new GI Bill since last year. However, IAVA is deeply 
concerned that the VA has been failing to communicate critical 
information to students and schools, missing key congressionally 
mandated deadlines and will likely have unacceptably long delays in the 
processing of GI Bill benefits again this semester.

    A. Student veterans complete their assignments on time and so 
should the VA.

    The VA has owed over 150,000 student veterans additional living 
allowance payments for over 9 months. In January the Department of 
Defense's new housing rates took affect and in turn students attending 
over 4,000 colleges were due an increase in their living allowances. 
This increase amounted to over $200/month at some schools including 
Long Island University, University of Massachusetts and University of 
Connecticut.

         ``When are they going to adjust the BAH rates for 2010? No 
        matter who I call or email about this issue, I never get a 
        straight answer. I am currently living in Milwaukee, Wisconsin 
        and the rates were increased by $111 for my area as of Jan 1 
        2010. It is nearly August and they have yet to increase. Any 
        info you can provide me with would be helpful.''--Chris (IAVA 
        Vet)

    Sadly, the VA's only mention of how they would handle the new rate 
changes was a tweet from one of the VA's many twitter accounts on 
December 18th and was not mentioned again for over 9 months.

         @DeptVetAffairs: For GI Bill students: BAH rates will remain 
        the same to begin the spring semester. Any changes won't happen 
        until later in the spring.

    Phone calls to the GI Bill call center left veterans even more 
confused about when they could expect to be paid. IAVA believes that 
keeping veterans like Chris in the dark for over 9 months about their 
benefits is completely unacceptable. Thankfully, earlier this month the 
VA finally made a public announcement on their Web site outlining how 
they will handle this issue.
    The living allowance payments were not the only benefit the VA has 
been delinquent. The VA is mandated to issue the state tuition caps on 
August 1st of each year to help veterans and schools adequately plan 
for the fall semester. Unfortunately, the VA failed to publish this 
tuition chart for exactly a month. As a result, students started school 
with no idea what the new GI Bill would cover. Schools were asked to 
submit enrollment certifications and the VA would just process the 
tuition benefits later. Now the VA will have to go back and recertify 
all the new GI Bill claims they received in the month of August during 
the VA's busiest season of the year.
    Why does this matter? Ask the student veterans attending schools in 
Minnesota like Northwestern College who are now on the hook to pay an 
additional $7,000 in tuition this year. These students started classes 
in late August only to see their tuition benefits drop $300/credit a 
week later. Northwestern was likely deferring those tuition costs in 
the hopes that the GI Bill would be paying at least as much as last 
year, but now those students will have to shell out an additional 
$7,000 just to stay in class. The VA will claim that they did not know 
all the tuition caps until September 1st, but they did know many of 
them and should have published what they had as soon as they knew them.

         ``I just talked to the financial aid director at my school 
        here in St. Paul, Minnesota. I found out today that the VA has 
        cut the MN tuition cap at $450 per credit. It was listed on 
        their Web site as $750 until this week. Partially as a result 
        of the $750 rate, I made the decision to move my family from 
        California to Minnesota. Now I am faced with suddenly receiving 
        $4200 less per semester in assistance than I had anticipated . 
        . . . My school choice was directly affected by the amount that 
        I thought I would be receiving, based upon the VA's officially 
        posted rates. Also, there are those who have barely managed to 
        budget enough money to go to school. Now telling them that they 
        will be receiving significantly less than they had been 
        depending on could force them out of school. I understand that 
        budgets are tight everywhere. However, I feel cheated by 
        finding out after the fact. This is information they should 
        have given us months ago.''--Aaron (IAVA Vet)

    B. Student veterans need to know that GI Bill delays are imminent.

         ``When I called today to check on my GI Bill status, the 
        telephone advisor told me that due to the upgrade that put them 
        behind for about a week they are estimating it can take around 
        41 days for them to process the enrollment information and get 
        the funds to the schools and vets.''--Brent (IAVA Vet)

    Student veterans enrolling in school this Fall should be prepared 
to wait a long time for their GI Bill benefits to process. The VA has a 
GI Bill backlog of over 185,000 claims, nearly 50 percent more than any 
other time this decade, except last year. And although the VA has kept 
the number of outstanding new GI Bill claims at a steady rate (18,000) 
the old GI Bill users are suffering because of it (over 168,000). These 
delays are unacceptable and continue to put too much pressure on 
student veterans. They should be trying to focus on their studies and 
not worrying about keeping a roof over their heads due to the VA's 
inability to manage information. The VA should also publish the 
expected wait times prominently on their Web site, to help student 
veterans have realistic expectations of when their benefits will 
arrive.



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    IAVA recommends the VA implement the following concrete ideas: 1) 
Post a waiting time widget on the VA's GI Bill homepage saying, ``Now 
working on GI Bill claims from (fill in the date)'' and 2) Reinstitute 
the practice of disclosing the date of the oldest pending GI Bill claim 
in the Monday Morning Workload report.

    C. Processing of new GI Bill claims remain plagued by repeated 
mistakes.

    In the haste to clear the deck of GI Bill claims, many veterans 
have been erroneously denied benefits and are forced to spend months 
trying to unravel the errors.

         ``Since January of this year I have been receiving letters 
        that I owe the VA for 2 semesters that they claim I dropped 
        out. I never did and have been given the run around by both the 
        VA and the school but neither side tell me anything. I have 
        been doing this for 6 months and worst of all is that they are 
        taking my entire check leaving me with nothing to purchase 
        books or to use to pay bills. Because of this I am in extreme 
        debt, I have a two-month-old baby, which needs diapers and baby 
        wipes and have fallen into depression again because the 
        creditors call me constantly asking for payment. I am not 
        working at the time because I want to focus on school. I am 
        getting disability and work-study payments, but even so I keep 
        going in the negative side in my bank account. I have no clue 
        how else to pressure the school and the VA to promptly fix the 
        situation and give me back the money they wrongfully took. If 
        you can't help me could you please send me to someone who 
        can.'' IAVA Vet

    IAVA contacted the VA regional office on this student veteran's 
behalf. They corrected his file, erased his debt and issued him a back 
payment of over $7,900. He told IAVA that the VA finally paid him on 
his daughter's birthday and that he can now buy her a real birthday 
present. And while IAVA is eternally grateful to the Regional Offices 
for continuing to solve the GI Bill issues we send their way, this 
story is just the tip of the iceberg. Many other veterans don't even 
know there has been a mistake or they give up when no one seems to be 
willing to take up their cause. IAVA believes that the VA must do an 
immediate audit of their GI Bill claims processing and publically 
announce their error rates. Veterans who are fighting with the VA about 
their benefits should know that they aren't alone.

    D. Lack of reliable information costs veterans.

    Veterans making the irrevocable choice between the old and new GI 
Bill are forced to make that decision without immediate, reliable 
access to key information that may affect tens of thousands of dollars 
in their education benefits.

         ``My VA rep at my school told me to apply for the new post 9/
        11 GI Bill because I had already collected the 36 months on the 
        old GI Bill. So, I applied for the new GI bill to get the extra 
        12 months of benefits and I just received an approval letter 
        for 3 days of the new GI bill benefits because I still had 3 
        days left on the old GI bill.''--Charles (IAVA Vet)

    If Charles had known that he had 3 days remaining on the old GI 
Bill he could have simply waited an extra couple of days before he 
applied and he would have been able to attend school for at least 
another academic year under the new GI Bill. Unfortunately for Charles 
the lack of good information meant that he simply lost his new GI Bill 
benefits.
    Charles' story is a cautionary tale for all student veterans and 
more importantly the VA. While the VA has spent most of their focus 
making sure veterans know that their choice to use the new GI Bill is 
``irrevocable'' (bold and italics on the VA form), they have failed to 
show student veterans what that actually means to them personally. For 
example, the VA's GI Bill benefits estimator is an inexcusable tool for 
a Department that has spent millions on GI Bill information technology. 
This tool does not help veterans compare benefits between the old and 
GI Bill in any meaningful way.

         ``How do I determine what the amount is for so I can make sure 
        I'm getting the proper benefits? In other words, I want a 
        statement. I called the VA and they told me ``no''--there was 
        no statement and I would have to determine the benefits myself 
        by pro-rating book costs, BAH, etc. There must be an easier 
        way....''--Jonathan (IAVA Vet)

    The VA has testified numerous times that they are scheduled to 
unveil a student portal for veterans to track their GI Bill benefits by 
the end of the year. Many student veterans and schools have requested 
this functionality and IAVA sincerely hopes that the VA meets its own 
internal deadline of Dec 2011. However, IAVA is deeply concerned that 
veterans and schools have not been involved in the development of this 
new functionality. We believe that the VA should immediately engage 
student veterans, campus officials and veterans groups during the final 
stages of development. IAVA also strongly encourages the VA to allow 
school certifying officials access to student information. More often 
than not the school certifying official is the only source of GI Bill 
information the veteran ever receives.

    E. The VA has no structure for schools to refund of overpayments.

    Some errors in the certification and processing of GI Bill claims 
are inevitable, and we must do everything we can to minimize those 
errors. However, to not have a contingency plan when they do occur is 
extremely irresponsible and has taken a profoundly negative toll on 
student veterans who have been affected. If a school has been overpaid 
there is no mechanism for the school to repay the VA directly. While 
the school starts the refund process to the student veteran, the VA 
will immediately put a hold on the student's GI Bill benefits whether 
they were aware of the overpayment or not. Take the following case for 
example:

         ``My school was underpaid and sent the VA a bill for a little 
        over $200. The VA thinks that is all they had to pay and sent 
        me a letter saying I have to pay all the money back. I did not 
        change classes or even drop any. I have tried to call them but 
        the phone is busy; I emailed them but they said to call them in 
        the reply. What am I supposed to do? School starts Fri . . . I 
        just got the letter today and my school said I have to contact 
        a rep myself. The appeal letter said it will be 3+ months for 
        it to process. Please Help!!''--Mickel (IAVA Vet)

    One month later:

         ``I just withdrew from school because I did not have the money 
        to drive there without the VA paying me. I had no choice. The 
        school will try to send back every cent of the money they paid 
        them.''

    Four months later, with the help of the Atlanta Regional Office, we 
were finally able to get the VA creditors off Mickel's back and get him 
the money he deserved; however, he had already dropped out of school 
and was even further behind his civilian counterparts.
    Student veterans like Mickel deserve better. In order to prevent 
this from happening in the future, the VA should develop a simple 
process for schools to refund overpayments directly to the VA and 
improve communication between the Education Liaison Representatives 
(ELRs) and the school certifying officials.

IV. H.R. 5933: New GI Bill 2.0

    H.R. 5933 will improve the new GI Bill and ensure that all student 
veterans have access to this generous education benefit. By simplifying 
and streamlining the administrative rules, H.R. 5933 would enable the 
Department of Veteran Affairs (VA) to process GI Bill claims in a 
timely manner. H.R. 5933, which we have come to call the ``New GI Bill 
2.0,'' is a comprehensive effort to address the concerns of tens of 
thousands of student veterans and their families by including:

        <bullet>  Vocational Training: Offering valuable job training 
        for students studying at vocational schools
        <bullet>  Title 32 AGR: Granting National Guardsmen responding 
        to national disasters full GI Bill credit
        <bullet>  Distance Learners: Providing living allowances for 
        veterans in distance learning programs
        <bullet>  Tuition/Fees: Expanding and simplifying the Yellow 
        Ribbon Program
        <bullet>  Active Duty: Including a book stipend for active duty 
        students

    Even the original WWII GI Bill needed a tune up like H.R. 5933. One 
year after the passage of the WWII GI Bill the House Committee on World 
War Veterans Legislation (an early predecessor to this committee) 
conducted a marathon four day long hearing to review the effectiveness 
of this new benefit.
    In a small touch of irony, veterans groups like the Legion, VFW, 
and DAV collectively asked the committee, as we are today, to upgrade 
the WWII GI Bill to include vocational schools, correspondence courses 
and to simplify the tuition benefit.
    Congress promptly responded and passed H.R. 3749, ``To Amend the 
Servicemen's Readjustment Act of 1944.'' These upgrades finished the 
work Congress had started and secured the WW II GI Bill as one of the 
greatest investments in the 20th century. It was actually the amended 
version of the WWII GI Bill that helped build America's middle class 
and laid the foundation for what Tom Brokaw dubbed the ``Greatest 
Generation.'' IAVA believes that just like the WWII GI Bill, the Post-
9/11 GI Bill needs the comprehensive improvements in H.R. 5933 to 
become the smartest investment in the 21st century and to help lay the 
foundation for the next greatest generation.

A. Invaluable Professional Job Training

    H.R. 5933 will help veterans access valuable job training by 
granting Post-9/11 GI Bill benefits to veterans in vocational, 
apprenticeship and On-The-Job training (OJT) programs. IAVA member 
Charles Conrad returned home from war to face a bleak economy. He had 
finished two tours, was released from his stop-loss orders and was 
ready to begin the next chapter of his young life. Charles moved to 
Pittsburgh and enrolled in the Pennsylvania Gunsmith School, a well-
known vocational school founded in 1949. Charles, like countless other 
veterans, assumed that by combining his military experience with a 
vocational certificate, he would make himself marketable in today's 
rough job scene. Unfortunately, Charles was let down by the new GI 
Bill. Currently, the Post-9/11 GI Bill does not pay for trade schools--
and now Charles is left struggling to pay down piles of bills.

         I was depending on the housing allowance and without it I 
        can't even afford the school . . . It's a slap in the face to 
        me that I can't use the Post-9/11 GI Bill . . . It's like 
        saying a trade school isn't good enough for the new GI Bill, 
        but it is for the old GI Bill. Is there any way that trade 
        schools will ever be allowed under the new GI Bill?

    Most people don't realize that a majority of WWII veterans used 
their GI Bill benefits to attend vocational schools. Although there are 
a limited number of vocational programs at the local community colleges 
currently authorized, allowing veterans to enroll in the vocational 
program of their choice would enable all of our war-fighters to use 
their hard-earned new GI Bill benefits.

B. Full Credit for Full Time Served

    H.R. 5933 will help National Guard servicemembers by granting full 
GI Bill credit for full-time service. New GI Bill 2.0 classifies state 
activations for national disasters (e.g., Hurricane Katrina and the BP 
oil spill) and full-time Title 32 Active Guard Reserve (AGR) service as 
qualifying service. This correction will help almost 30,000 Army 
National Guard and 13,500 Air National Guard servicemembers serving on 
Title 32 or ``state'' orders. This vital improvement will also ensure 
that the thousands of National Guard troops from Louisiana, Alabama, 
Florida, and Mississippi who are currently protecting our coastline 
from the oil spewing in the Gulf will receive credit towards their 
Post-9/11 GI Bill benefit.
    IAVA member Sergeant First Class (SFC) Bradford Mingle has been 
wearing our country's uniform every day for the past 19 years, 
including during a recent tour in Afghanistan. SFC Mingle is part of 
the Active Guard and Reserve program (AGR), which means he works full-
time for the National Guard. Imagine SFC Mingle's surprise and anger 
when he applied for the New GI Bill, only to have the VA tell him he 
hadn't served long enough to qualify for the full benefits.

         I am an AGR soldier with 19 years active duty but I'm not 
        qualified to get what an Active Army Soldier gets? Is our 
        service not worth as much? Why are AGR Soldiers always left 
        out?

    According to the current law, only one of SFC Mingle's 19 years of 
active duty service actually counted toward his GI Bill eligibility. 
Yet a full-time reservist doing the same job as SFC Mingle would 
qualify for the full GI Bill simply because his or her checks were paid 
for by the federal government, rather than the state government. Same 
uniform, same service--vastly different benefits.

C. Fairness for Disabled Veterans Utilizing Distance Learning

    Many disabled veterans and single parents are attending online 
courses to achieve their dream of a college degree. But, under the 
current rules, even if they are taking a full course load, they do not 
qualify to receive the new GI Bill's substantial monthly living 
allowance. If these veterans were able to take just one course at a 
local college, they would qualify for the full living allowance. Yet 
enrolling in a course at a brick-and-mortar institution is nearly 
impossible for a single mother simultaneously struggling to keep food 
on the table or for a disabled veteran who cannot navigate a flight of 
stairs without assistance.
    IAVA member Specialist (SPC) Weaver was awarded a bronze star for 
his meritorious service during two tours in Iraq. He is currently at 
home recovering from the fractured spine he sustained after being 
ejected from a moving vehicle. SPC Weaver suffers from vertigo, hearing 
problems and loss of mobility. Despite his injuries, SPC Weaver still 
dreams of completing his education and has been looking to attend 
college online, where he can complete his degree at his own pace. In 
spite of his service, SPC Jeffrey Weaver cannot benefit from the New GI 
Bill in its current form.

         This seems quite absurd as it is fact that many service-
        disabled veterans are undergoing treatments and have special 
        needs. Although I am not totally disabled, because of my 
        current conditions, it would be nearly impossible to collect on 
        the Post-9/11 GI Bill entitlements. This seems to be an issue 
        we need to raise to Congress.

    A living allowance for students of online institutions would help 
veterans to avoid having to choose between keeping a roof over a 
family's head and concentrating on being a successful student. The 
allowance would enable them to provide for their families while 
increasing their future earning potential through education. The New GI 
Bill was supposed to encourage student veterans to focus on their 
education and not their financial situation--but without the New GI 
Bill 2.0 upgrade, student veterans pursuing degrees through distance 
learning are left out in the cold.

D. Simplify the Yellow Ribbon Program

    New GI Bill 2.0 simplifies the tuition benefit by abolishing the 
confusing state cap program and replacing it with a simple promise. 
Under the current form of the New GI Bill, the tuition benefits are 
confusing, and completely unpredictable. In California, tuition caps 
have been raised three times this year alone. Worse, nationwide tuition 
caps have fluctuated wildly since last year and states like Florida and 
Minnesota have seen their benefits drop for no apparent reason.
    Recently, in front of the Senate Veterans' Affairs Committee, the 
VA admitted to ``delays in determining the 2009-2010 maximum tuition, 
and fee rates resulted in delayed processing of payments for students 
attending school in those states.'' The VA later said that reforming 
the tuition and fees benefit was its top priority fix for the New GI 
Bill. Considering that the VA was late exactly a month publishing the 
new tuition/fees chart this year, we need a GI Bill benefit that is 
easy to calculate and is easily understood by those who use the benefit 
as well as those who distribute it.
    Under the proposed New GI Bill 2.0, if a student veteran attends a 
public school, the New GI Bill will pay for the entire cost of tuition 
and fees--no questions asked. If a student veteran attends a private 
school, the VA will pay a nationally recognized, baseline amount. If a 
private school is more expensive than the national baseline, the school 
is encouraged to take part in the yellow ribbon program in order to 
eliminate the remaining gap in education costs.
    IAVA member Lieutenant Colonel (LTC) Brian Pummill is in an 
extreme, remote location in Afghanistan. LTC Pummill should be focused 
solely on the mission at hand, but his thoughts are back at home as he 
tries to explain to his college-bound daughter how the New GI Bill's 
tuition benefit will work. Even after a long career successfully 
navigating military bureaucracy, LTC Pummill is thoroughly perplexed by 
the VA's confusing tuition and fee caps.

         I don't understand how to calculate how much TUITION AND FEES 
        the VA will pay Saint Mary's College . . . I see calculations 
        that just compute this by $321/credit hour, but this doesn't 
        come close to the MAXIMUM FEES BY TERM of $12,438.00 indicated 
        for SMC. Since SMC's TUITION AND FEES for 2010-2011 are the 
        same for ALL FULL-TIME STUDENTS, REGARDLESS OF THE CREDIT HOURS 
        THEY ARE TAKING, why wouldn't we take the Maximum fees by term 
        ($12,438), multiply that by 2 ($24,876), then divide by 9 
        months ($2,764/month), to calculate the per month value of the 
        GI Bill at SMC, if that is the actual cost of Tuition and Fees 
        to attend SMC. The same calculation by the credit hour, 
        assuming you take 32 credit hours per year, is only $321.75 
        times 32, which is only: $10,296.00. How does a student qualify 
        to be reimbursed at the MAXIMUM TUITION AND FEES PER TERM, 
        instead of by the credit hour--at SMC, the difference between 
        these two calculations is staggering.

    H.R. 5933 will simplify the benefit and help servicemembers like 
LTC Pummill get their mind back on the mission.

E. Other Improvements to the New GI Bill

    New GI Bill 2.0 is an essential comprehensive upgrade, involving 
changes large and small. These changes are vital to the academic 
success of student veterans pursuing a higher education. H.R. 5933 will 
also:

        <bullet>  Grant active duty students a book stipend worth 
        $1,000/year
        <bullet>  Increase Vocational Rehabilitation monthly benefits 
        by up to $780/month
        <bullet>  Reimburse students who take multiple accreditation/
        certification tests
        <bullet>  Allow enlistment kickers to be transferred to 
        dependents
        <bullet>  Increase school reporting fees
        <bullet>  Simplify the types of discharges that qualify for 
        benefits

    VII: Conclusion

    The Post-9/11 GI Bill, or ``New GI Bill,'' will be remembered as 
one of the greatest investments in our country's veterans for 
generations to come if we act now and finish the work this committee 
began two years ago. History has shown us the importance of investing 
in our country's veterans, and IAVA applauds the phenomenal work this 
committee continues to do on behalf of our nation's veterans and their 
families.
    IAVA is proud to speak on behalf of the thousands of veterans 
coming home every day. We work tirelessly so veterans know we have 
their back. Together, with this Congress and the Department of Veteran 
Affairs, we can guarantee that every veteran is confident that America 
has their back.
    Thank you.

                                 <F-dash>
         Prepared Statement of Captain Mark Krause, USN (Ret.),
       U.S. Department of Veterans Affairs Program Manager, Space
   and Naval Warfare Systems Center Atlantic, Department of the Navy,
                       U.S. Department of Defense
    Good afternoon Chairwoman Herseth-Sandlin, Ranking Member Boozman, 
and Members of the Subcommittee. I appreciate the opportunity to appear 
before you today to discuss the current status of the Post-9/11 GI Bill 
Chapter 33 Long Term Solution (CH 33 LTS). My testimony will address 
the current status of the LTS, critical milestone completion, program 
challenges, requirements for legislative fixes, future updates, and the 
ability of the LTS to support future policy changes.

Current Status of Long Term Solution Development Program

    The VA/SPAWAR CH 33 LTS Team delivered and deployed Releases 1.0 
and 2.0 this year on the planned critical milestone dates. All CH 33 
Veteran Claim Examiners (VCEs) have been transitioned from the Interim 
Solution to the LTS to process CH 33 educational benefits claims. Since 
January 2010, the Team has accomplished the following:

        <bullet>  Enabled the VA to deliver CH33 benefits via a 
        centralized web-based system that implements a flexible rules-
        based engine. This will allow the VA to implement future 
        changes and enhancements to CH33 policy and legislation in a 
        more timely and efficient manner.
        <bullet>  The VA/SPAWAR Team successfully implemented Agile 
        methodology within the VA and have established an effective, 
        engaged, and collaborative governance process to prioritize 
        capability development, resolve issues and make timely 
        decisions.
        <bullet>  Leveraged our Agile approach to implement additional 
        and unplanned scope changes: Fry Amendment, Letter Generation, 
        FY-9/10 retro-active housing rate adjustment, significant 
        Interim Solution data errors, data conversion, switching from 
        the planned interface with the Financial Accounting System 
        (FAS) to the older Benefits Delivery Network (BDN), developing 
        a user authentication solution due to the unavailability of the 
        Benefits Enterprise Platform (BEP), and assuming an expanded 
        role in interface development with VA legacy systems.

    Over the last several months the VA/SPAWAR CH 33 LTS Team has 
continued to ``peel back the onion'' to uncover and define more 
detailed CH 33 LTS requirements and processes. This discovery revealed 
a number of factors that increased the complexity and scope required by 
the LTS. A summary of these discoveries include:

        <bullet>  Automating business rules and streamlining the 
        process to adjudicate claims were more complex than originally 
        anticipated.
        <bullet>  Converting and remediating data conversion errors 
        from the Interim Solution into Chapter 33 LTS was more 
        challenging than planned.
        <bullet>  Enhancing existing VA systems required to provide 
        data to the Chapter 33 LTS has proven more difficult than 
        expected.

    In upcoming months LTS development will focus on providing system 
interfaces and capabilities to automate and streamline the claimant 
institution enrollment validation process as well as initiating and 
providing CH33 payment instructions to the Department of the Treasury.

Critical Milestones

    To date, all critical milestones have been met. LTS functionality 
planned for each critical milestone was based on a limited 
understanding of the requirements 14 months ago. On a bi-weekly basis 
at each Sprint Review, new requirements/user stories and changes in 
scope were discussed and re-prioritized thru the governance process. 
Since then, the CH 33 LTS Agile process has continued to better define 
program requirements, revealing additional technical complexities/
challenges during Releases 1.0 and 2.0.
    Due to the four extra weeks that were required to complete the data 
conversion and housing rate adjustment and the complexity of the BDN 
financial interface, we expect to deliver the VAONCE (VA online 
certification of enrollment) interface on 30 Sept for user testing, and 
do not anticipate delivering the complete functionality planned for 
Release 3.0 (automating the financial transaction/authorization process 
currently required to authorize payments for claims and a financial 
interface with BDN) until the Nov/Dec 2010 time frame. The requirements 
for Release 4.0, scheduled for December 2010, are still being defined.

Future LTS Updates

    Future updates to the CH 33 LTS will be determined by VA 
leadership. CH 33 LTS is a rules-based system that will support future 
changes to the program such as the expansion of benefits, changes to 
payment procedures, and changes to policy and law.
    Madam Chairwoman, this concludes my statement. I am pleased to 
answer any questions you or any of the other members of the 
Subcommittee may have.

                                 <F-dash>
            Prepared Statement of Keith M. Wilson, Director,
          Education Service, Veterans Benefits Administration,
                  U.S. Department of Veterans Affairs
    Good afternoon Madam Chairwoman, Ranking Member Boozman, and 
Members of the Subcommittee. I appreciate the opportunity to appear 
before you today to provide an update on the Department of Veterans 
Affairs (VA) implementation of the Post-9/11 GI Bill (chapter 33 of 
title 38, United States Code). My testimony will address the current 
status of education claims processing for fall 2010 enrollments and 
critical milestones for VA's Long Term Solution (LTS). Joining me today 
is Mr. Mark Krause, VA Program Manager for the Department of the Navy's 
Space and Naval Warfare Systems Center Atlantic (SPAWAR), who will 
discuss the implementation of the LTS.
    As the Subcommittee Members know, the Post-9/11 GI Bill is the most 
extensive educational assistance program authorized since the original 
GI Bill was signed into law in 1944. Secretary Shinseki and the entire 
Department are committed to making sure all Servicemembers, Veterans, 
and their family Members eligible for this important benefit receive it 
in a timely manner so they can focus on what is most important: their 
education. We greatly appreciate the guidance and support of this 
Subcommittee, and Congress as a whole, as we continue our efforts to 
implement this important legislation.

Current Workload and Processing

    Our focus is on serving our Veterans. As we have made changes in 
how we process claims and in how we implement the LTS, above all else, 
the driving force in our decisionmaking is to ensure that we provide 
the fastest and most accurate education benefits possible.
    I am pleased to report that VA has made tremendous strides in 
delivering Post-9/11 GI Bill benefits in a timely and accurate manner. 
We have also made significant progress in the development and 
deployment of our new processing and payment system. As of the end of 
August last year, VA had processed payments for only 8,185 students for 
the fall 2009 semester. For the current fall term, VA has already 
processed payments for more than 135,000 students. The average time to 
process an enrollment certification as, of August 31, was 10 days, down 
from 28 days 1 year ago.
    In June and August, we successfully deployed releases 2 and 2.1 of 
the LTS. Through these deployments, we successfully converted over 
600,000 chapter 33 claimant records from our interim processing system 
to the LTS.
    We also added greater functionality to that originally planned for 
the LTS. Its functionality was expanded to enable payment of 
retroactive housing allowance adjustments for individuals with Basic 
Allowance for Housing (BAH) rates that had increased between 2009 and 
2010. Additionally, the LTS was improved to automatically generate 
letters to individuals that provide information about their benefits. 
The LTS was also enhanced to facilitate claims processing for Fry 
Scholarship recipients. VA is now processing all Post-9/11 GI Bill 
claims in the new system, thereby replacing the interim solution and 
its associated manual processing tools.
    Our work is far from over, and, as the Members know, we continue to 
experience challenges. We have been unable to deliver all functionality 
in accordance with the timeline we developed 2 years ago. Although we 
are processing all Post-9/11 GI Bill claims in the LTS, functionality 
to automate key portions of the process has been delayed. The 
interfaces with the VA Online Certification of Enrollment (VA ONCE) and 
the Benefits Delivery Network (BDN) payment system, previously 
scheduled for September 30, 2010, are now scheduled for October 30, 
2010, and December 31, 2010, respectively. These delays are due to 
increased functionality needed to improve immediate claims processing 
capabilities, challenges with conversion of data from the interim 
system to the LTS, and a more complete understanding of the 
complexities of the interface with BDN.
    Additionally, by working with our key stakeholders, we continue to 
learn what is needed and make positive changes. We are working to 
improve our debt-management processes--ensuring that refunded payments 
are accurately credited to overpayments and ensuring that overpayments 
are handled in an effective manner--thus minimizing negative impacts on 
students' pursuit of their educational goals. Our guiding principle for 
system development and deployment has been, and will continue to be, to 
ensure that the deployment schedule and delivered functionality do not 
have a negative impact on our ability to pay Veterans.

Fall 2010 Enrollment

    Effective August 1, 2009, section 1002 of Public Law 111-32 
expanded the Post-9/11 GI Bill to include the children of 
Servicemembers who die in the line of duty. This new authority, known 
as the ``Marine Gunnery Sergeant John David Fry Scholarship,'' is now 
available for the children of Servicemembers who died in the line of 
duty since September 10, 2001. Eligible individuals can receive 36 
months of entitlement. VA began accepting applications for this program 
on May 1, 2010. As of September 1, 2010, VA has processed approximately 
280 Fry Scholarship claims.
    On June 3, 2010, VA sent a notice to school certifying officials 
informing them that they may submit enrollment certifications for 
training pursued during the fall semester even if they do not know a 
student's actual tuition and fee charges. Upon receipt of the student's 
actual charges, the certifying official was asked to submit an amended 
enrollment certification to VA with the corrected information. This 
will ensure that students receive their Post-9/11 GI Bill housing 
allowance and books and supplies stipend in a timely manner for the 
fall semester.
    As of August 30, 2010, VA has received fall enrollment 
certifications for more than 200,000 individuals, of which 
approximately 135,000 have been processed. We have exceeded our claims 
processing productivity expectations for the fall 2010 enrollment 
period. We set a goal of processing an average of 6 Post-9/11 GI Bill 
claims per employee per day, or 20 non-Post-9/11 GI Bill claims per 
employee per day. We are currently averaging 9.5 Post-9/11 GI Bill 
claims and 25.4 non-Post-9/11 GI Bill claims processed per employee per 
day. The overall volume of claims completed per day has dramatically 
improved over last year. During the fall 2009 enrollment, VA was 
processing an average of 2,000 claims for all benefit programs per day. 
We are currently processing more than 10,000 claims per day for all 
benefit programs

Payments Since Inception of Program

    Since August 1, 2009, VA has paid more than $4.7 billion in Post-9/
11 GI Bill benefits for approximately 340,000 individuals. From August 
1, 2009 to July 31, 2010, VA paid $697 million in tuition and fee 
benefits to public schools, $618 million to private for-profit schools, 
and $437 million to private non-profit schools. VA also paid a total of 
$41.7 million under the Yellow Ribbon program. More than 66,000 
students have applied to use benefits transferred to them by their 
spouses or parents.

Long Term Solution

    VA partnered with the SPAWAR to develop an end-to-end claims 
processing solution that utilizes rules-based, industry-standard 
technologies, for the delivery of education benefits. This is our long-
term strategy for implementing the Post-9/11 GI Bill. The Post-9/11 GI 
Bill contains eligibility rules and benefit determinations that will 
work well with rules-based technology that requires minimal human 
intervention.
    VA's automated system is being released in four phases to ensure 
robustness and stability. Release 1 of this effort, which was deployed 
on March 31, 2010, was limited to a ``pilot'' release and delivered the 
capability to complete new original claims; automatically calculate 
awards including tuition and fees, housing, books and supplies, Yellow 
Ribbon, and Montgomery GI Bill--Active Duty and Reserve Educational 
Assistance Program kickers; and automatically calculate awards for 
overlapping terms and intervals.
    VA deployed Release 2 of the Post-9/11 GI Bill LTS to the Regional 
Processing Offices (RPO) on June 30, 2010. This release allowed VA to 
process changes in enrollment information, claims for Fry Scholarship 
students, and claims for transfers of entitlement. This functionality 
also allowed for expanded letter generation from the new system. 
Additionally, data conversion from the Interim Solution Front End Tool 
database to the LTS occurred for 153,000 cases without payments. 
Development of this release and the data conversion activities were 
more complex than expected, and not all of the originally planned 
functionality was delivered on June 30, 2010. In order to minimize the 
need to manually reconcile data or BAH payments, a subsequent Release 
2.1 was developed to complete the data conversion process for all 
remaining cases, conduct BAH payment adjustments, and provide any 
remaining Release 2 functionality.
    Release 2.1 was deployed on August 23, 2010. This release replaced 
the functionality of the interim solution and associated manual 
processing tools. Release 2.1 converted the approximately 393,000 
records from the Interim Solution and made BAH adjustments for 
approximately 150,000 individuals. Beneficiaries received BAH 
adjustments on or about September 7, 2010. Post-9/11 GI Bill 
beneficiaries had received housing allowances based upon the 2009 BAH 
rates until September 1, 2010, due to limitations of our manual 
processing procedures. Release 2.1 allowed for the transition to 2010 
BAH rates, and generated retroactive payments to compensate students 
for any increase in housing rates due, since the Department of 
Defense's implementation of the new rates in January 2010. Other major 
functionality included in Release 2.1 included capability for 
reconciliation of converted data, and batch interfaces of converted 
data to the BDN and the LTS. Currently, Veterans Claims Examiners at 
the four RPOs are processing Post-9/11 GI Bill claims using the LTS.
    The delay of Release 2.1 of the LTS affected future releases. 
Release 3 was originally scheduled for deployment on September 30, 
2010; however, this schedule date will be adjusted. The realignment of 
priorities with respect to BAH 2010 adjusted payments, data conversion, 
extensive testing required for Release 2.1, and the complexity of 
interfacing with the legacy BDN will impact the range of functionality 
that can be delivered in Releases 3 and 4. VA is examining the 
deliverable schedule to determine the functional elements that are 
achievable by December 2010. It is anticipated that the delay in 
Release 3 will also impact Release 4, which was originally scheduled 
for December 2010. SPAWAR will determine the impact to Release 4 after 
completing an assessment of the Release 3 schedule.
    The LTS is based on industry standard service-oriented 
architecture. This provides a high degree of integration potential and 
interoperability meaning the system will be able to adapt to future 
needs. Additionally, the LTS is based on a rules engine that is 
modifiable to account for future needs. While the system is inherently 
flexible, it is not possible for VA to determine a specific timeframe 
to adapt to required changes until the precise changes are defined from 
a functional requirements perspective. Therefore, VA is unable to 
commit to being able to implement potential changes within a specific 
timeframe. VA believes a generally accepted timeline of 24-36 months to 
incorporate significant system changes should be considered.

Outreach--Summer/Fall 2010

    VA continues to conduct a nationwide outreach and media campaign 
focused on two goals: to increase general awareness of its education 
programs, emphasizing the Post 9/11 GI Bill; and to provide eligible 
participants with clear and easily accessible information through the 
GI Bill Web site (www.GIBILL.va.gov).
    Some of the principal components of the campaign will facilitate 
the following improvements:

        <bullet>  Establish a basic strategy and plan, with a single 
        cohesive message and pathway to the GI Bill Web site;
        <bullet>  Revamp and update the GI Bill Web site for ease of 
        use and navigation;
        <bullet>  Reach advertising visibility targets of 20 percent 
        for national general awareness and 80 percent for our direct 
        customers; and
        <bullet>  Enhance existing social-media platforms like our 
        Post-9/11 GI Bill Facebook page to include campaign material.

    In the fall of 2009 and again this year, VA placed ads highlighting 
the Post-9/11 GI Bill in print and Web outlets in an effort to reach 
eligible participants and key stakeholders, like higher education 
personnel. Ads were placed in magazines such as Marine Corps Times and 
Chronicle of Higher Education. Web ads were placed on Web sites such as 
GIJobs.com and Military.com.
    In addition, VA also partnered with NASCAR to increase awareness of 
the Post-9/11 GI Bill. Working with The Racer's Group (TRG) 
Motorsports, we placed the Post-9/11 GI Bill logo and Web address on 
the rear panel (TV Panel) of the #71 racecar of Bobby Labonte for the 
Coca-Cola 600 during Memorial Day weekend, which was broadcast on 
Sunday, May 30, 2010, on the Fox Network. Additionally, the Speed 
Channel broadcast the practice sessions live on Saturday afternoon, May 
29, 2010.
    Our return on investment for participating in NASCAR was very 
positive. An estimated 6.5 million people watched the race, 165,000 
attended the race, and approximately 700,000 Servicemembers deployed 
overseas watched and listened to the race broadcast over the Armed 
Forces TV and Radio Network. Hits to the GI Bill Web site increased by 
29 percent Saturday--the day before the race--and 34 percent during the 
race. Additional coverage of the race, mentioning the Post-9/11 GI 
Bill, was also in USA Today, the New York Post, NASCAR.com, 
Motorsports.com, Twitter, and Facebook.
    ESPN and NASCAR studies show that one-third of the average 6.5 
million television viewers are Veterans or on active duty, and most 
NASCAR fans have an influencer relationship with a Veteran. NASCAR's 
strong influence in both rural and Active Duty/Deployed audiences are 
in full alignment with the goals of our outreach plan.
    Building upon the success of the Coca Cola 600 race, the Post-9/11 
GI Bill was also featured at the September 10 and 11 NASCAR races in 
Richmond, Virginia. The race weekend was officially called ``The Post-
9/11 GI Bill Weekend at Richmond International Raceway.'' The GI Bill 
logo and Web address was prominently featured for the entire race 
weekend and in pre- and post-event media coverage.

Conclusion

    While recognizing we will not meet all of the key milestones in our 
aggressive development and deployment schedule for the LTS, VA is 
nevertheless proud of its achievements in overcoming significant 
challenges and successfully transitioning from an inadequate temporary 
system to a state-of-the-art processing system that promises to deliver 
significantly improved automation and consistency. VA has shown 
dramatic improvement over the last year in its ability to deliver 
timely and accurate benefits derived from this important legislation. 
Recognizing that much of the fall enrollment period is still before us, 
we remain vigilant and focused on ensuring we are timely in meeting the 
needs of our Veterans. We are indebted to the Subcommittee for its 
consistent support.
    Madam Chairwoman, this concludes my statement. I would be pleased 
to answer any questions you or any of the other Members of the 
Committee may have.
                             GI BILL UPDATE
                           September 16, 2010
                                 AGENDA
        <bullet>  Current Workload and Processing
        <bullet>  Fall Enrollment Progress
        <bullet>  Expenditures
        <bullet>  Long Term Solution (LTS)
        <bullet>  Outreach
                   Ch 33 Then and Now: Fall Progress


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                          Fall 2010 Enrollment
        <bullet>  Productivity exceeding goal

                <bullet>  Chap 33 at 9.5/day/VCE (Goal is 6)
                <bullet>  Non Chap 33 at 25.4/day/VCE (Goal is 20)

        <bullet>  One year ago, 2,000 claims for all benefit programs 
        per day. Today, over 10,000 claims for all benefit programs per 
        day.
        <bullet>  Average of 24 days to process chapter 33 originals, 
        and 14 days for chapter 33 enrollment certifications
                  Chapter 33 Benefits Since Inception
        <bullet>  As of 9/1/2010, VA has paid over $4.7 billion to 
        340,000 individuals and their schools


                <bullet>  Approximately $2.1B to schools and $2.6B to 
                students

        <bullet>  Between August 1, 2009 and July 31, 2010, VA paid a 
        total of $1.75B to schools:

                <bullet>  $618M to for-profit schools
                <bullet>  $437M to private, non-profit schools
                <bullet>  $697M to public schools


                        <bullet>  $41.7M of the above figures was paid 
                        under the Yellow Ribbon Program


                 LTS: Expected vs. Actual Functionality
------------------------------------------------------------------------
          Expected Functionality                Actual Functionality
------------------------------------------------------------------------
R1: Replace functionality of FET and Job    R1: Replaced by Limited
 Aid; Adjudicate original and supplemental   Release 1--Pilot release to
 claims. 3/30/2010                           subset of users; New
                                             original claims only. 3/30/
                                             2010
R2: Expansion of R1 functionality and       R2: Replace functionality of
 automated data feeds for claim and          FET and Job Aid; Adjudicate
 Veteran information. 6/30/2010              original and supplemental
                                             claims. Converted 150,000
                                             non-pay records from FET to
                                             LTS. 6/30/2010
                                            R2.1: Converted 393,000
                                             records with payments from
                                             FET to LTS. Adjusted BAH
                                             rates and authorized
                                             retroactive payments for
                                             153,000 students. 8/23/2010
R3: Automated data feeds to financial       R3: School enrollment
 processing system and school enrollment     interface. Release delayed
 interface. 9/30/2010                        1 month, does not include
                                             payment interface. 10/30/
                                             2010
R4: Expansion of previous release           R4: BDN payment interface
 functionalities and Veteran Self-Service    and other data feeds. 12/31/
 capability.12/31/2010                       2010; begin incorporating
                                             Veteran self-service
                                             components. Spring 2011
------------------------------------------------------------------------


                          Causes of LTS delays
    <bullet>  Delay in full interim system deployment
    <bullet>  Job Aids to augment limited functionality

        <bullet>  Added Functionality to meet urgent needs

                <bullet>  BAH housing retroactive payments and 
                adjustments
                <bullet>  Automated letter generation
                <bullet>  Fry scholarship

        <bullet>  Data conversion complexity
        <bullet>  Improved understanding of payment interface 
        complexity

                <bullet>  BDN interface needed to address FAS 
                unavailability
                          What Congress Can Do
        <bullet>  Long Term Solution (LTS)

                <bullet>  Legislative action has the potential to 
                negatively impact full deployment of the LTS

        <bullet>  Post-9/11 GI Bill

                <bullet>  VA believes a generally accepted timeline of 
                24-36 months to incorporate significant system changes 
                should be considered.
                                Outreach
        <bullet>  VA is conducting a nationwide media campaign to:

                <bullet>  Increase general awareness of our education 
                programs
                <bullet>  Provide clear and easily accessible 
                information through the GI Bill Web site.

        <bullet>  Key goals of the FY 2010 fall campaign:

                <bullet>  Establish a single cohesive message and 
                pathway to the GI Bill Web site
                <bullet>  Revamp the GI Bill website for ease of use 
                and navigation
                <bullet>  Reach advertising visibility targets of 20 
                percent for national general awareness and 80 percent 
                for our direct customers
                <bullet>  Enhance existing social media platforms (i.e. 
                Post-9/11 GI Bill Facebook page) to include campaign 
                material
                          Outreach Activities
    NASCAR Sponsorship
                                            Saturday, Sept 11, 2010
                                          7:30 PM; ABC Sports & AFN
                                                       Richmond, VA



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 NASCAR
    Demographics

        <bullet>  One out of three military service Members are NASCAR 
        fans
        <bullet>  Nineteen percent of NASCAR fans have served, or are 
        currently serving in the military.

    Event

        <bullet>  Car Sponsorship for AirGuard 400.
        <bullet>  Richmond International Raceway weekend sponsorship.

    Value

        <bullet>  Viewership of 6.6 million on ABC
        <bullet>  Additional viewership of 1 million on the Armed 
        Forces Network
        <bullet>  An average of 4 million radio listeners
        <bullet>  Kickoff for ``My Story'' clips
                          ``My Story'' Videos
    2 videos completed
    2 additional underway
    Rollout at AirGuard 400
    PSA usage



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                          Outreach Activities
                Mike Rowe on Post-9/11 GI Bill Benefits


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    http://www.mikeroweworks.com/2009/11/post-911-gi-bill/

                                 <F-dash>
                 Statement of John L. Wilson, Assistant
       National Legislative Director, Disabled American Veterans
    Madame Chairwoman and Members of the Subcommittee:
    On behalf of the 1.2 million members of the Disabled American 
Veterans (DAV), I am honored to present this statement for the record 
on the Post-9/11 GI Bill, in accordance with our congressional charter 
and DAV's mission to advance the interests, and work for the 
betterment, of all wounded, injured, and disabled American veterans.
    The Post-9/11 GI Bill, which went into effect August 1, 2009, 
provides educational benefits for servicemembers who have served on 
active duty for 90 or more days on or after September 11, 2001. The 
benefits depend on the number of days served on active duty. It also 
creates a benefit package that gives current and previously activated 
National Guard and Reserve members the same benefits as active duty 
servicemembers.
    The Post-9/11 GI Bill education benefit includes: 100 percent of 
in-state tuition and fees of public colleges and universities; a 
monthly housing allowance (living stipend) based on an E-5 with 
dependents for the zip code of the school's location; up to $1,000 a 
year for books and supplies; a one-time relocation allowance; and the 
option to transfer benefits to family members while still on active 
duty.
    Approved training under the Post-9/11 GI Bill includes graduate and 
undergraduate degrees, and vocational/technical training of up to 36 
months with benefits generally payable for up to15 years following 
release from active duty. Additionally, tutorial assistance, and 
licensing and certification test reimbursement are approved under the 
Post-9/11 GI Bill.
    Speaking about the Post-9/11 GI Bill, Secretary Shinseki stated 
that ``safely investing one's money requires study of the markets and a 
reasonable understanding of its forces. Here is an investment option 
that is guaranteed to pay high dividends for years to come.''
    While the Post-9/11 GI Bill is a comprehensive package of 
educational benefits, DAV submits that the ``high dividends'' are not 
likely to be earned by a certain group--otherwise eligible service-
connected disabled veterans who will opt out of VA's Vocational 
Rehabilitation and Employment (VR&E) program due to the low monthly 
stipend.
    To be eligible, VR&E participants must have a discharge that is 
other than dishonorable, a service-connected disability rating of at 
least 10 percent from the Veterans Benefits Administration (VBA), or a 
memorandum rating of 20% or more that they received from VBA before 
separating from active duty, and an employment handicap. An employment 
handicap is an impairment that impacts a veteran's ability to obtain or 
retain employment based on their demonstrated abilities, aptitudes and 
interests.
    If qualified, participants can receive a comprehensive 
rehabilitation evaluation to determine their abilities, skills, and 
interests for employment. In addition, they can receive vocational 
counseling and rehabilitation planning for employment services, resume 
development, on-the-job training, apprenticeships, post-secondary 
training at a college, vocational, technical or business school and 
other important benefits. These are critical services, which may make 
the difference in a veteran not only obtaining but maintaining gainful 
employment. The living stipend provided to VR&E participants may make 
the difference in being able to provide shelter for his or her family.
    The Post-9/11 GI Bill living stipend currently averages $1,200 a 
month, but can run as high as $2,700 for full-time students, depending 
on school zip code. By contrast, the subsistence allowance under VR&E 
is approximately $548 for full-time students with no dependents and 
approximately $800 for those with two dependents, regardless of zip 
code.
    Under the current construct, disabled veterans are potentially 
placed in the difficult position of having to choose between VR&E or 
the Post-9/11 GI Bill as a result of the substantial differences in the 
monthly living stipend. As a result, we are deeply concerned that 
disabled veterans, in order to provide for their families out of 
economic necessity, will forgo receiving the comprehensive 
rehabilitative assistance available to them through VR&E and, instead, 
choose the more generous Post-9/11 GI Bill.
    Recent unemployment statistics underscore the reality of our 
concern and that of this Subcommittee. July 2010 employment statistics 
of the Labor Department's Bureau of Labor Statistics showed the overall 
unemployment rate for veterans generally rose to 8.4 percent, up from 
May's 7.8 percent. For veterans from Iraq and Afghanistan specifically, 
the unemployment rate rose to 11.8 percent, an increase from the June 
rate of 11.5 percent and May's 10.6 percent. While this is an 
improvement from March of this year when the unemployment rate was 14.7 
percent for this group, the stagnant economy continues to make both 
small and large private businesses reluctant to hire, thus dimming 
veterans' employment prospects. These unemployment statistics 
underscore the reality that the transition from military service to 
veterans' status for this highly trained and well motivated group, 
which we have addressed in previous testimony as problematic and in 
need of additional legislative action, makes the additional services 
available to them through VR&E programs even more valuable.
    Given this set of circumstances, what choice should a veteran make? 
One can understand the logic of economic necessity driving veterans in 
choosing a benefit with a much higher stipend versus one with a lower 
stipend but more comprehensive services.
    There is a solution already in Congress that, if enacted, would 
resolve this dilemma. H.R. 5933, Post-9/11 Veterans Educational 
Assistance Improvements Act of 2010, provides a legislative remedy. 
While there are several other important provisions of this bill, our 
focus rests on Section 8, which would amend Section 3108(b) title 38, 
United States Code, making veterans entitled to Chapter 31 subsistence 
allowance and entitled to Chapter 33 able to elect the E-5 monthly 
housing allowance at the average national amount while participating in 
VR&E programs.
    S. 514, the Veterans Rehabilitation and Training Improvements Act 
of 2009, introduced March 3, 2009, also addresses the subsistence 
allowance. The relevant section of this bill for our purposes, Section 
2(b), modifies the amount of the subsistence to the basic allowance for 
housing for E-5s with or without dependents, as applicable, while 
participating in VR&E programs.
    Our position on this issue as reflected in this testimony is found 
in the attached DAV Resolution No. 099, passed at our most recent 
National Convention, held July 31-August 3, 2010, in Atlanta, Georgia. 
DAV believes that the anticipated ``high dividends'' of which Secretary 
Shinseki spoke will not be earned by otherwise eligible service-
connected disabled veterans who will opt out of VA's Vocational 
Rehabilitation and Employment (VR&E) program due to the low monthly 
stipend.
    Subsistence allowances must be comparable, regardless of program, 
to ensure maximum participation and maximum benefit, whether it is 
assisting veterans in finding employment, participation in vocational 
rehabilitation, or other such services. The Administration and Congress 
must never force service-connected disabled veterans with employment 
handicaps to utilize less financially supportive programs than those 
available to their non-disabled counterparts, or even more tragically, 
opt out of vocational rehabilitation for the more financially 
beneficial Post-9/11 GI Bill. Truly, our service-connected disabled 
veterans deserve better.
    Madame Chair, to you and the Subcommittee, I thank you for the 
opportunity to present the views of DAV.

                               __________

                           RESOLUTION NO. 099

 SUPPORT FOR LIMITED DUAL ENTITLEMENT TO VOCATIONAL REHABILITATION AND 
 EMPLOYMENT CHAPTER 31, AND THE POST-9/11 EDUCATION ASSISTANCE PROGRAM 
  UNDER CHAPTER 33 IN ORDER TO ENSURE THAT DISABLED VETERANS ARE NOT 
              FORCED TO CHOOSE THE LESSER OF TWO BENEFITS
    WHEREAS, our nation established veterans' programs to repay or 
reward veterans for their extraordinary service and sacrifices on 
behalf of their fellow citizens, especially those veterans disabled as 
a result of military service; and
    WHEREAS, these programs include the Vocational Rehabilitation and 
Employment (VR&E) program for service-connected disabled veterans with 
employment handicaps as well as the post-9/11 Post-9/11 GI Bill under 
title 38, United States Code, chapter 33 (Post-9/11 GI Bill); and
    WHEREAS, the Post-9/11 GI Bill currently provides a more 
financially lucrative subsistence allowance than does the current VR&E 
Chapter 31 program; and
    WHEREAS, such a disparity will ultimately force service-connected 
disabled veterans with employment handicaps to either utilize a program 
less financially supportive to them and their families than their non-
disabled counterparts, or opt out of vocational rehabilitation for the 
more financially beneficial post 9/11 Post-9/11 GI Bill ; and
    WHEREAS, our Nation's first duty to veterans is the rehabilitation 
and welfare of its service-connected disabled; NOW
    THEREFORE, BE IT RESOLVED that the Disabled American Veterans in 
National Convention assembled in Atlanta, Georgia, July 31-August 3, 
2010, supports limited dual entitlement to assistance under the 
Vocational Rehabilitation and Employment program under Chapter 31 and 
the post-9/11 educational assistance program under chapter 33.

                                 <F-dash>
                  Statement of Judith Flink, Executive
            Director, University Student Financial Services,
                 University of Illinois at Chicago, IL
    Mr. Chairman and Members of the Committee: My name is Judith Flink. 
I serve as Executive Director of University Student Financial Services 
for the three campuses of the University of Illinois. I have worked in 
the University's business office and been actively involved in higher 
education for over 30 years. On behalf of myself, colleagues in the AAU 
Bursar organization, colleagues from other educational institutions 
around the country, and most importantly, on behalf of the veterans 
attending or seeking to attend our institutions, I thank you for this 
opportunity to testify.
    In 2008, Congress passed landmark legislation recognizing the 
contributions and needs of millions of Americans who served their 
country in our armed forces in Afghanistan, Iraq and elsewhere. This 
legislation, the Post-9/11 GI Bill, makes possible educational dreams 
that not only express a special thanks to our veterans, but also 
contribute directly to the economic recovery and future of America.
    America's postsecondary institutions are proud to have supported 
the enactment of this bill and welcome the opportunity to serve 
veterans in our classrooms. Today, universities across the country 
enroll thousands of veterans who receive support through federal GI 
benefits. Part of my hope in being here is to promote changes to the 
program that will increase that number.
    Unfortunately, as you are aware, implementation of the vitally 
important education benefits authorized by the bill has not been 
smooth. Delays in getting the program up and running, followed by 
numerous subsequent flaws in the interface between the VA and 
educational institutions, have created hardship for veterans and 
institutions. My colleagues and I recognize the enormity of 
implementing this program and creating the systems to manage it. We 
sincerely applaud the VA for its excellent work in getting the program 
up and running under difficult circumstances. Our desire is to 
strengthen our partnership with the VA in an effort to help the program 
run better.
    With that in mind, I focus my testimony on flaws in the system that 
if corrected will more effectively fulfill the promise of this program. 
Included with my remarks is a list of concerns compiled by the 
University of Illinois and 16 peer institutions. While the list is not 
exhaustive, it identifies major concerns that render access to 
educational benefits under this program difficult for veterans and 
expensive for the federal government. Some of these concerns result 
from legislative provisions, and many are the result of VA policy and 
procedures.
    The majority of our remaining concerns are administrative in 
nature. VA policies and procedures often fail to accommodate the 
education community's existing systems and procedures, thereby creating 
needless delay and hardship for veterans. I will not belabor the 
Committee with all the concerns on our attached list. Allow me to 
highlight just three of them.
    Perhaps our greatest concern as university business officers is the 
VA's refund policy which requires institutions to refund tuition 
overpayments to students who must then refund them back to the VA. This 
policy mirrors that of the original GI Bill wherein all benefits 
(including tuition) were paid directly to the students who were then 
responsible for paying their tuition bills to the school and for 
refunding any overpayments back to the VA. But under the Post-9/11 GI 
Bill, tuition benefits are paid to the school not the student. 
Therefore, the requirement to refund overpayments to students instead 
of directly to the VA is not only inefficient, it also puts students at 
risk of losing future benefit eligibility under the program if they 
fail to understand or fulfill their responsibility to return those 
funds to the VA. This risk is high. In all other financial aid 
programs, overpayments are refunded directly to the aid source 
bypassing the student. Thus, students have come to expect that when 
they receive a refund from the school it is theirs to use for books and 
living expenses. By the time they receive notification from the VA of 
the amount they must repay, the money may have been spent. The VA will 
then suspend future benefit eligibility until payment is received which 
would delay or prevent the student from continuing their education.
    A second major concern is the VA's remittance of payment for 
students for whom the institution has certified a different amount, or 
for whom the institution has not even completed a Certificate of 
Eligibility. No explanation is provided with these payments. Therefore, 
the institution must contact the VA for an explanation of the 
discrepancy before releasing payment to the student. When the 
institution calls, the VA's phone lines have long delays with hold 
times up to 40 minutes. Sometimes calls are dropped altogether due to 
the high volume and the institution must dial again. For months, the 
VA's phone lines were closed on Thursdays and Fridays. These delays and 
their resultant hardship to the Veteran could be eliminated if the VA 
included an adequate explanation to the school with each payment.
    Our third concern is a lack of universal published guidance. The VA 
will provide guidance through Policy Advisories but often as a response 
to a specific question posed by an institution. The Advisories may not 
be disseminated to all participating schools creating a lack of 
consistent, uniform policy among institutions. This lack of guidance 
results in confusion and conflicting administration between 
institutions and creates frustration on the part of veterans. The 
creation of a single source of readily accessible Post-9/11 GI Bill 
administrative manual would eliminate the majority of this frustration 
and burden.
    While I've only mentioned three of our concerns, the attached list 
is more comprehensive. We are confident, however, that many of them can 
be successfully resolved through open dialogue between schools and the 
VA. Our recent attempts to initiate this dialogue met with 
disappointing results. We received a written response from the VA, for 
which we are grateful, but were not given the opportunity to discuss 
the matter in more detail or open a meaningful dialogue.
    My peers and I respectfully ask your assistance to open this 
dialogue. We believe regularly scheduled meetings between the VA and a 
working group from the education community will enable both parties to 
collaborate on proposed program changes and regulations prior to 
implementation. We would like to be considered as both a resource and 
partner for the VA and Congress in our mutual endeavor to improve 
delivery of Post-9/11 GI Bill tuition benefits to our veterans.
    Thank you again for the opportunity to speak with you. I hope my 
testimony can be a spring board for productive dialogue between all 
parties who share your commitment to strengthening and improving 
services to our veteran community. I would be pleased to respond to any 
questions Members of the Committee might have.
        ATTACHMENTS STUDENT SPECIFIC EXAMPLES OF REFUND PROCESS
          AND IMPLEMENTATION ISSUES WITH THE POST-9/11 GI BILL

------------------------------------------------------------------------
                  School                               Example
------------------------------------------------------------------------
1. Western Illinois University              Veteran withdrew before
                                             class after Post-9/11
                                             benefits had been paid; WIU
                                             refunded benefits to VA via
                                             check in Dec 2009; VA
                                             cashed the check in Feb
                                             2010 but didn't process it
                                             to the veteran's account
                                             until Aug 2010.
------------------------------------------------------------------------
2. University of Illinois                   Veteran received ROTC
                                             scholarship after Post-9/11
                                             benefits had been paid; UI
                                             refunded benefits to VA via
                                             ACH in early March 2010
                                             according to VA's ACH
                                             return policy; VA still has
                                             not processed the refund
                                             and was still requesting
                                             payment from the veteran in
                                             late Aug 2010.
------------------------------------------------------------------------
3.University of Illinois                    Per veteran's request, UI
                                             refunded Post-9/11 benefits
                                             to VA via ACH in early
                                             March 2010 according to
                                             VA's ACH return policy; VA
                                             did not process the refund
                                             until late July 2010;
                                             meanwhile VA reported
                                             veteran as delinquent to
                                             the credit bureaus, ruining
                                             his credit and causing
                                             Discover to cancel his
                                             credit card.
------------------------------------------------------------------------
4. University of Illinois                   UI received $8,305.60 Post-9/
                                             11 benefit payment from VA
                                             on January 19, 2010 then
                                             received another payment in
                                             the amount of $9,343.80
                                             from VA on May 13, 2010 for
                                             the same veteran.
------------------------------------------------------------------------
5. Illinois State University                ISU received payment from VA
                                             for a veteran's books and
                                             supplies stipend (which
                                             should have been remitted
                                             directly to the veteran).
------------------------------------------------------------------------
6. Illinois State University                ISU certified a veteran's
                                             Post-9/11 benefit
                                             eligibility at 70% but
                                             received payment from VA in
                                             March 2010 at 60%; ISU
                                             questioned VA's eligibility
                                             calculation in March 2010
                                             and was told by VA that 60%
                                             was correct; at veteran's
                                             request, ISU questioned VA
                                             again in August 2010 and
                                             was told student
                                             eligibility is 70%.
------------------------------------------------------------------------
7. George Washington University             GWU received Yellow Ribbon
                                             benefit payment from VA on
                                             behalf of a veteran for
                                             whom VA had calculated 100%
                                             eligibility; VA later
                                             discovered they had
                                             incorrectly accounted for
                                             the veteran's ROTC years,
                                             and recalculated Yellow
                                             Ribbon eligibility at 80%.
------------------------------------------------------------------------
8. George Washington University             GWU received Yellow Ribbon
                                             benefit payment from VA on
                                             behalf of a veteran for
                                             whom VA had calculated 100%
                                             eligibility; VA paid half
                                             the benefit by check, half
                                             by wire; VA later
                                             discovered veteran was only
                                             eligible for 90% Yellow
                                             Ribbon benefits.
------------------------------------------------------------------------
9. George Washington University             GWU received a $7,000
                                             overpayment of Post-9/11
                                             benefits for a veteran on
                                             March 9, 2010; GWU called
                                             VA to ask what to do with
                                             the funds and was
                                             instructed to wait for VA
                                             to call back later; after
                                             hearing nothing from VA for
                                             4 months, GWU credited the
                                             overpayment to the
                                             veteran's account at GWU on
                                             July 13; a week later VA
                                             called and requested GWU to
                                             refund $7,954.92 to VA.
------------------------------------------------------------------------
10. George Washington University            A GWU veteran was active
                                             duty at start of Fall 2009
                                             but scheduled to go off
                                             active duty mid semester;
                                             veteran also wanted to
                                             participate in Yellow
                                             Ribbon; GWU contacted VA
                                             for instructions and was
                                             told to certify Yellow
                                             Ribbon eligibility after
                                             veteran went off active
                                             duty; VA paid veteran's
                                             full tuition plus YR plus
                                             housing stipend; VA then
                                             created a debt for the
                                             housing stipend.
------------------------------------------------------------------------

               LIST OF CONCERNS REGARDING ADMINISTRATION
                        OF THE POST-9/11 GI BILL
    The Post-9/11 GI Bill was signed into law August 1, 2009. 
Certification and processing of VA Chapter 33 program benefits began 
immediately thereafter. The volume of applicants overwhelmed VA 
resources and the program got off to a rough start. Improvements have 
been made in VA's process, but the program continues to present 
significant challenges to the education community.
    Following is a list of VA Chapter 33 issues and suggestions 
submitted by administrators from educational institutions (hereinafter 
collectively referred to as Institution) around the country. The issues 
needlessly delay delivery of benefit payments to veterans and unduly 
burden Institutions. The suggestions offer potential solutions.

Issues:

        <bullet>  VA refund policy is highly labor-intensive because:

                <bullet>  VA under- and over-payments with no attached 
                explanation result in long processing delays as 
                Institution attempts to contact VA for details.
                <bullet>  VA policy is inconsistent--some overpayments 
                must be refunded to VA, others to the student; some 
                refunds must be electronic, some by paper check.
                <bullet>  VA policy of refunding to the student is 
                contrary to all other forms of student financial 
                assistance that require Institutions to refund to the 
                aid source.
                <bullet>  The policy of refunding to the student 
                results in inaccurate IRS Form 1098-T reporting. For 
                example, if VA remits $10,000 Chapter 33 tuition 
                benefits to Institution then the student drops classes 
                resulting in a $4,000 tuition reduction and Institution 
                refunds that $4,000 to the student instead of VA, the 
                Institution will report $10,000 in Box 5 of the 
                student's Form 1098-T, not the $6,000.

        <bullet>  Inadequate explanation of VA payments:

                <bullet>  VA payments do not match the amount certified 
                by Institution on the Certificate of Eligibility.
                <bullet>  VA remits payments for students for whom 
                Institution has not completed a Certificate of 
                Eligibility.
                <bullet>  VA remits duplicate payments for some 
                students.
                <bullet>  VA pays out-of-state tuition after 
                Institution has charged and certified in-state tuition.
                <bullet>  VA payments lack adequate identifying 
                information--enrollment term, number of credit hours, 
                percentage of eligibility, etc. For example, if 
                Institution certifies $5,000 and VA remits only $3,200, 
                Institution is given no explanation why.
                <bullet>  VA policy of remitting individual instead of 
                collective payments is highly labor-intensive.

        <bullet>  Delayed VA payments result in additional labor-
        intensive Institution activities:

                <bullet>  Institution processes emergency loans for 
                delayed housing payments;
                <bullet>  Institution places provisional credits on 
                student accounts in order to prevent late payment 
                charges or cancellation of enrollment for non-payment;
                <bullet>  Institution must conduct a manual 
                reconciliation upon receipt of VA payments which are 
                almost invariably different than the anticipated 
                provisional credits;
                <bullet>  Institution holds payments received for a 
                previous enrollment term until VA confirms the 
                student's eligibility for the current or subsequent 
                enrollment term in order to verify accuracy;
                <bullet>  Institution must process multiple 
                Certificates of Eligibility for students whose active 
                duty and/or enrollment status changed prior to receipt 
                of VA payment;
                <bullet>  Lump sum payments for multiple terms are 
                difficult to differentiate by term.

        <bullet>  VA refund policy is highly labor-intensive because:

                <bullet>  VA under- and over-payments with no attached 
                explanation result in long processing delays as 
                Institution attempts to contact VA for details.
                <bullet>  VA policy is inconsistent--some overpayments 
                must be refunded to VA, others to the student; some 
                refunds must be electronic, some by paper check.
                <bullet>  VA policy of refunding to the student is 
                contrary to all other forms of student financial 
                assistance that require Institution to refund to the 
                aid source;
                <bullet>  The policy of refunding to the student 
                results in inaccurate IRS Form 1098-T reporting. For 
                example, if VA remits $10,000 Chapter 33 tuition 
                benefits to Institution then the student drops classes 
                resulting in a $4,000 tuition reduction and Institution 
                refunds that $4,000 to the student instead of VA, the 
                Institution will report $10,000 in Box 5 of the 
                student's Form 1098-T, not the $6,000.

        <bullet>  VA return policy creates needless delays and 
        administrative burden because:

                <bullet>  Institution must return full payment if any 
                variation in assessment has occurred subsequent to 
                certification, even if that variation is a minor 
                reduction in fees.
                <bullet>  Institution must submit an amended 
                certification after returning payment which removes it 
                from VA's automated process by requiring VA Claims 
                Adjustor review.
                <bullet>  VA Claims Adjustor must then submit a new 
                payment request to the U.S. Treasury Department who 
                waits to process the payment in batch.

        <bullet>  VA has published no clear guidance regarding which 
        benefits will be delayed in the event of an unreimbursed 
        overpayment-tuition/fee payment to Institution, or living/book 
        payment to student?
        <bullet>  VA has published no clear deadlines for retroactive 
        applications (benefits for prior enrollment terms).
        <bullet>  VA has published no clear guidance for Chapter 33 
        benefit eligibility for students who receive other forms of 
        tuition assistance, e.g. Active Military tuition sponsorship, 
        federal or state tuition assistance, Institutional tuition 
        waivers, private tuition specific scholarships or sponsorships, 
        etc.
        <bullet>  VA has published no clear guidance for Chapter 33 
        benefit eligibility for students who are discharged from active 
        duty during the enrollment period.
        <bullet>  VA has not required or adequately accounted for DD214 
        (active duty discharge) data when determining Chapter 33 
        benefit eligibility.
        <bullet>  VA has published no clear guidance on Chapter 33 
        benefit eligibility for waivable student health insurance.
        <bullet>  Some VA payments appear on multiple cycle rosters 
        giving the false impression that duplicate payments have been 
        received.
        <bullet>  Some VA deposits contain enrollment dates that do not 
        match Institution's.
        <bullet>  Veterans and Institution have no mechanism for 
        determining the status of a veteran's application (22-1999) and 
        whether the veteran will qualify for Chapter 33 benefits, so 
        veterans who need the benefits in order to attend class cannot 
        register.
        <bullet>  VA restrictions on distance education unfairly deny 
        housing stipends to these students.
        <bullet>  VA does not notify Institution when student changes 
        benefit Chapter.
        <bullet>  Yellow ribbon payments have been particularly 
        difficult; although they are included on the original 
        certification, the yellow ribbon eligibility is segregated and 
        payments for yellow ribbon claims have not been forthcoming.
        <bullet>  VA customer service is inadequate:

                <bullet>  Institution cannot contact VA's Buffalo 
                regional office directly even though they originate the 
                payments; Institution has to use either the online 
                inquiry system or call the national 888 number.
                <bullet>  VA's national 888 number results in long 
                delays from hold times as long as 40 minutes or dropped 
                calls; now the 888 number is closed Thursdays and 
                Fridays to enable VA to ``catch up''.
                <bullet>  VA representatives often give conflicting 
                information and when pressed either refer Institution 
                to VA's regional office in Buffalo (which Institution 
                cannot contact), or instruct Institution not to 
                question VA's payments (even though Institution has 
                found many errors and is supposed to be VA's 
                ``partner'').
                <bullet>  VA's online system sometimes reports 
                inquiries ``closed'' without providing an adequate 
                explanation of the resolution.
                <bullet>  VA Education Liaison Representatives (ELRs) 
                are frequently unavailable due to ``special 
                assignment''.

Suggestions:

        <bullet>  Open a dialogue between VA and Institutions that 
        enables both parties to understand prior to implementation the 
        system and process implications of VA-proposed new changes and 
        regulations.
        <bullet>  Establish a partnership between VA and U.S. 
        Department of Education (ED) to share resources and expedite 
        delivery of VA benefits.
        <bullet>  Revisit the education law passed by Congress last 
        year that removes VA benefits from consideration when 
        determining student eligibility for Title IV funds. Federal 
        need based financial assistance must by definition be 
        determined on need, and need is mitigated by federal assistance 
        from another federal agency.
        <bullet>  Create an on-line portal similar to the WAVE portal 
        for Chapter 30 benefits that would enable veterans and 
        Institution to determine the veteran's Chapter 33 application 
        status and eligibility for benefits.

                <bullet>  Veterans need an effective source of accurate 
                information about their individual benefit eligibility 
                before they apply for and accept admission to an 
                Institution in order to know whether they can afford to 
                attend.
                <bullet>  Institutions who are asked to carry the 
                financial risk for veterans by holding them harmless 
                while awaiting payment from VA need an effective source 
                of accurate information about their application and 
                benefit status.

        <bullet>  Simply streamline, standardize, and improve 
        communication regarding VA overpayment policy:

                <bullet>  Allow Institution to refund/return only the 
                overpayment amount rather than the full payment 
                followed by an amended certification.
                <bullet>  Allow Institution to batch overpayment 
                refunds/returns rather than remitting them 
                individually.
                <bullet>  Standardize VA overpayment policy to mirror 
                ED and other financial aid policies that return 
                overpayments to the aid source not student.
                <bullet>  Improve communication regarding status of 
                student refund/return.

        <bullet>  Provide adequate and accurate explanations to 
        Institution for VA payments that differ from Institution 
        certified amounts; then remit batch/collective payments to 
        Institution instead of multiple individual payments.
        <bullet>  Allow individuals other than the single certifying 
        official at Institution to initiate/maintain contact with VA; 
        for example, individuals who research billing issues should be 
        able to speak directly with VA payment coordinators to resolve 
        discrepancies.
        <bullet>  VA responsiveness to researching mismatched payments 
        has improved, now originating issues need to be addressed.
        <bullet>  Replace the per-credit hour cap with a single dollar 
        amount cap for each state. This would eliminate the need to 
        calculate benefits individually for each student based on 
        enrolled credit hours.
        <bullet>  Revisit VA restrictions on distance education to 
        allow veterans Chapter 33 housing stipends while enrolled 
        solely through distance education courses.
        <bullet>  Clarify VA policy on overseas study and expand 
        Chapter 33 benefit eligibility to include courses taken abroad 
        that count toward the student's degree.
        <bullet>  Allow veterans to revert to a more advantageous 
        program if they discover Chapter 33 is not in their best 
        interest.

                <bullet>  The irrevocable nature of Chapter 33 benefit 
                election coupled with the lack of clear situation-
                specific information to effectively guide their 
                decision has created hardships for many veterans.
                <bullet>  Remove the Chapter 30 to Chapter 33 
                conversion penalty which limits combined use of the two 
                programs to 36 months unless Chapter 30 is exhausted.

        <bullet>  Simplify Chapter 33 eligibility rules and allow all 
        active service to count; eliminate the requirement to verify 
        the purpose and authorizing U.S. Code for each active duty 
        period.
        <bullet>  Expand Chapter 33 timelines to allow Institution to 
        complete Certificates of Eligibility far enough in advance to 
        enable VA to process claims by the start of the term and 
        continue uninterrupted between terms.
        <bullet>  The Higher Education Opportunity Act's Readmission 
        Requirements for Servicemembers states that returning 
        servicemembers may not be charged tuition and fees in excess of 
        the rate charged during the term in which they left school for 
        military service unless they have veteran or military education 
        benefits. Is it reasonable to base charges on benefit 
        eligibility?
        <bullet>  Improve VA delivery of policy notifications to 
        Institution Certifying Officials (COs). Recent VA policy 
        updates submitted to COs via mass e-mail with a link to VA's 
        Web Automated Reference Material System (WARMS) were missed 
        because many COs could not access the link to WARMS. All time 
        sensitive information should be included in the actual email 
        text.
        <bullet>  Forward to Institution a monthly report (or copy of 
        Certificate of Eligibility) listing each applicant and 
        percentage of Chapter 33 benefit eligibility for that 
        Institution.
        <bullet>  Forward to Institution a monthly (or quarterly) 
        report listing students who owe an overpayment to VA, and when 
        the overpayment has been paid.
        <bullet>  Remove the detailed examination of each course's 
        applicability to a degree program, attendance, retakes, and 
        need for remediation. Why does the VA track this level of 
        detail when U.S. Department of Education does not?
        <bullet>  Remove the tracking of each course by start and stop 
        date; allow Institutions with regular terms of enrollment to 
        use the same criteria as Title IV for full time enrollment.
        <bullet>  Remove the requirement for State Approving Agencies 
        to approve each program of education at an accredited 
        Institution. If the Institution meets accreditation standards, 
        shouldn't that be sufficient for education benefits?

Contributing Institutions:

        <bullet>  Margaret Baechtold and Susan Cote, Indiana University
        <bullet>  Sandie Rosko, University of Washington
        <bullet>  Laurie Schlenke, Michigan State University
        <bullet>  Jean Thomson, University of Colorado, Boulder
        <bullet>  Bob Lech, University of Pittsburgh
        <bullet>  Beth Barrett, Harvard University
        <bullet>  Roseann Sieminski, Pennsylvania State University
        <bullet>  James Middlemas, University of Michigan
        <bullet>  Marty Miller, University of Iowa
        <bullet>  Christina Westendorf, Illinois State University
        <bullet>  Cathie Easter, University of Wisconsin
        <bullet>  Bradley Stene, Northwestern University
        <bullet>  Marsha Lovell, UCLA
        <bullet>  Cathy Foland, Southern Illinois University 
        Edwardsville
        <bullet>  Paul Toler, University of Missouri Columbia
        <bullet>  John Higgins, Purdue University
        <bullet>  Judith Flink, University of Illinois

                                 <F-dash>
              Statement of William D. Stephens, President,
            National Association of State Approving Agencies
    The National Association of State Approving Agencies (NASAA) is 
providing general support for the proposed changes to the Post-9/11 GI 
Bill. These bills will make improvements to an already outstanding 
piece of legislation.
    NASAA has long held the view that the GI Bill(s) should be the 
premier educational assistance program in the Nation, bar none. No 
other Federal program should come close to providing the same level of 
educational opportunities and financial support as the GI Bill. This 
philosophy is based upon the deep belief that those who have and those 
who continue to defend the freedoms that we all so thoroughly enjoy 
deserve no less.
    With the above in mind, we are pleased to add our support for these 
bills and encourage Congress to enact them before the close of the 
111th Congress. We are especially pleased with the provisions which 
expand opportunities for veterans to use their earned Chapter 33 
benefits for pursuit of educational programs at institutions other than 
institutions of higher learning (non-college degree institutions, 
apprenticeships and other on-the-job training establishments, flight 
training programs and correspondence courses). We also are pleased with 
provisions that expand eligibility for receipt of a housing allowance 
to include Chapter 31 veterans, include service under Chapter 32 for 
establishing eligibility, expand reimbursement for multiple tests 
leading to licensure and certification, and increase the reporting fee 
paid.
    Finally, we would like to offer a general comment on one of the 
provisions of the bills and offer a recommendation for consideration. 
It is our understanding that the original language and intent of Senate 
Bill 22 (introduced by Senator Webb in the 110th Congress) was to 
mirror as closely as possible the WWII GI Bill. The changes being 
considered for public institutions of higher learning seem to reflect 
this philosophy whereas for private institutions there is a ceiling on 
the amount of assistance that can be provided. We realize there are 
financial constraints, but again encourage providing the highest amount 
possible.
    Thank you for your hard work to improve the Post-9/11 GI Bill. We 
applaud your efforts and are very pleased to provide our support. As 
stated, these bills have many great features which will provide the 
kind of opportunities and support needed by our Nation's servicemembers 
and veterans to help them pursue their career goals.
    If you have any questions please contact Skip Gebhart (304-558-
0263, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c8afadaaa0a9babc88a0adb8abe6bfbea6adbce6adacbd">[email&#160;protected]</a>), Jim Bombard (212-564-8414 or e-mail 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="147e767b797675667054">[email&#160;protected]</a>)veterans.state.ny.us) or me.

                                 <F-dash>
                Statement of Student Veterans of America
    Madam Chairwoman, Mr. Ranking Member, and Members of this 
Subcommittee,
    It is once again a privilege to be able to provide testimony on 
behalf of our Nation's student veterans regarding their GI Bill 
benefits. Thank you for providing us with this important opportunity.
    As you know, this past year was the first with student veterans 
using the Post-9/11 GI Bill. It was one of monumental challenges and 
victories. We saw hundreds of thousands of new veterans going to 
college with billions of dollars worth of Federal support, we saw some 
colleges and universities have their veteran population double or more 
in a single year, and we saw the VA working with our organization, 
schools, and individual student veterans to overcome difficulties that 
could have been devastating.
    This time last year, we waited anxiously to see if the benefits 
that were promised to our veterans would arrive in a timely fashion. As 
this committee is all too aware, it was some time before most veterans 
received their housing allowances, a brand new benefit never before 
paid on such a large scale. This benefit represented a fundamental 
change in the way veterans interacted with the VA. Until this point, GI 
Bill benefits for the vast majority of veterans barely covered books 
and some tuition. The Post-9/11 GI Bill promised the opportunity for 
veterans to focus on school full-time, without needing support from 
family or a job. Many took this opportunity literally, and enrolled in 
a full load of coursework and left their jobs.
    When the housing allowances were late, veterans were put in the 
awful position of having to choose between paying their rent or staying 
school. This kind of pressure should never be put on a veteran again, 
and we are glad to see that it has been overcome. The Emergency 
Advanced Payment program that the VA instituted went a long way to 
alleviate some of these concerns, though that was not without its own 
issues, as we are all aware of.
    The schools struggled as well, not knowing when their tuition 
payments would be arriving from the VA, and while many did the right 
thing and held the veterans harmless for the amount promised under the 
benefit, some dis-enrolled student veterans for lack of payment. We 
were proud to assist Members of Congress in bringing these incidents to 
the attention of university leadership so that most veterans could be 
brought back into the classroom, but the damage was still done.
    Beyond all of these issues that were identified last year, we 
learned some fundamental lessons that need to be taken into account for 
all future decisions made regarding student veterans:

        1.  The VA needs to do significantly more outreach to 
        individual student veterans and schools. Above all else, we 
        found that there were so many differing stories being passed 
        around that it was challenging for veterans to know what the 
        truth was. Schools were doing their own thing or putting out 
        information in the vacuum that was contrary to what the VA was 
        asking for. Despite the VA's significantly increased social 
        media presence, their primary means of communicating with 
        recipients is still paper mail. This is not only terribly 
        expensive; it is not an effective means of communicating. 
        Worse, school certifying officials do not get copies of these 
        letters, so they do not usually know if there is a problem with 
        a veteran's account that they themselves could fix. An email 
        listserv that vets could sign up for would go a long way to 
        rectify this problem and facilitate direct communication 
        between the vets and the VA.
        2.  There is no formal way for schools or VSOs to advocate on 
        behalf of veterans who need help. When there is an issue with a 
        veteran's account and for some reason they are not receiving 
        their payments correctly, there is no established way for 
        certifying officials or VSOs to contact a VA benefits processor 
        to have them look into it. This can be very challenging for 
        student veterans who may not understand what they are supposed 
        to do to rectify the issues that we causing the problems. Given 
        how important the housing allowances are for the daily life of 
        most student veterans, it is essential that we allow schools 
        and VSOs to advocate on their behalf and ensure the problems 
        are rectified quickly and correctly. There needs to be some 
        formal process to bring the VA's attention to trouble accounts 
        by the people who understand the policies and procedures, not 
        just via 888-GIBILL1.
        3.  School certifying officials need significantly more 
        training, guidance, and resources from the VA. School 
        certifying officials are the individuals who are responsible 
        for ensuring that our student veterans receive their benefits. 
        They are the employees of private universities, or state 
        employees for public institutions. They have no formal 
        relationship with the VA, except that they are expected to file 
        a veteran's status with the VA every semester so that veterans 
        can receive their tuition and other entitlements. These 
        individuals have seen their workload double and triple in the 
        last year, as a Chapter 33 filing process is significantly more 
        time consuming for the certifying officials. Unfortunately, 
        however, their schools have not seen the increased resources to 
        keep up with this demand, and many have actually reduced their 
        certifying staff in light of the budget crisis.

    The relationship between the student veteran, the school, the state 
approving agency, and the VA has not been formally reviewed in some 
time. There is no standardized chain of command for raising issues, for 
solving problems, and especially for soliciting feedback as to how the 
process is working. We hope that this committee and others will take 
time to examine these relationships and processes in the near future.
    Over the last year, student veterans have provided us with the 
following messages that we would like to share with you:

         1.  The benefit is too complicated, and even after all of the 
        paperwork is filled out, veterans don't know what they are 
        receiving.
         2.  The Post-9/11 GI Bill does not provide the housing 
        allowance to our tens of thousands of distance learners, 
        forcing them to spend much more time earning their degree than 
        others.
         3.  Tens of thousands of our National Guardsmen have been left 
        out of their earned benefits after being called up to serve in 
        their communities for emergency response and disasters.
         4.  There is no way for veterans to know what the status of 
        their benefit claim is, nor how much it will cover until after 
        they start school.
         5.  Processing delays are not being taken seriously by the VA, 
        and when veterans call to ask about the status of their claim, 
        they are often given unrealistic or incorrect time frames on 
        when they can expect to hear back.
         6.  When processing errors are made, it is very difficult to 
        get them changed without third-party intervention. No one on 
        the 888-GIBILL1 phone number seems to know how to correct them.
         7.  The VA is very aggressive in recouping debts due to 
        overpayment, even if they are not the veteran's fault. 
        Especially when it comes to tuition overpayment directly to the 
        schools, the veteran should not have their benefits garnished 
        for this overpayment without the VA first contacting the school 
        and trying to recoup the funding that way.
         8.  The VA must quickly and accurately update the BAH rates 
        and the tuition rates when they change and say they are going 
        to. It is unacceptable that they are just now paying the 2010 
        BAH rate, and that tuition/fees rates were published only 
        recently. These numbers are important for schools and veterans 
        to make informed decisions, and they need to be published on 
        time and accurately.
         9.  When the VA awards a benefit rating that turns out to be 
        higher than a veteran is due, they should not be able to go 
        back mid-semester and reduce it. The student veteran should be 
        able stay at that rate at least until the end of the school 
        year before they have their rate reduced so they can make an 
        informed decision about their finances.
        10.  The Post-9/11 GI Bill does not provide enough benefits for 
        veterans to complete 5-year engineering degrees or other high-
        intensity programs.

    We will let the schools and their organizations represent 
themselves on the issues that they have faced, but we have certainly 
seen the effects of under-resourced veterans offices attempting to 
provide services to a growing veteran population. This is something 
that must be immediately corrected, and efforts such as Chairman 
Filner's H.R. 3579 to increase the reporting fees for every veteran at 
an institution would go a long way to address this.
    Looking forward, there are many issues to correct in the Post-9/11 
GI Bill, some of which we have highlighted here. The complicated state-
by-state system must be eliminated so that all veterans are worth the 
same in all states, and know what their benefits are worth before they 
apply to school. The rest of the veteran population must be brought 
into the fold so that they receive the same benefits at all 
institutions and the eligibility pool is the same as previous era GI 
Bills.
    To this end, the best way to address these concerns going forward, 
and to reduce the burdensome claims process of the VA, we strongly 
support Congressman Minnick's H.R. 5933, and we thank you, Madam 
Chairwoman, as well as your colleagues, for signing on to this Bill. 
Expanding the benefit pool for all eligible veterans is of extreme 
importance to our members, and so is being able to use this in all 
types of programs. In addition, this bill closes important loopholes 
that provide significant cost savings for the future of the program. We 
are looking forward to the day when there are only two GI Bills for 
veterans to choose from: one for disabled veterans under Vocational 
Rehabilitation, and one for those who are not disabled with the Post-9/
11 GI Bill. Implementing this legislation is
    Student Veterans of America looks forward to working with this 
esteemed committee and its Members to continue to improve education 
benefits for all veterans. It is of the utmost importance that we take 
this opportunity to perfect this benefit before more veterans go 
underserved and schools continue to struggle.

                                 <F-dash>
                   MATERIAL SUBMITTED FOR THE RECORD

                                                    American Legion
                                                    Washington, DC.
                                                   October 19, 2010
Honorable Stephanie Herseth-Sandlin, Chair
Subcommittee on Economic Opportunity
Committee on Veterans' Affairs
U.S. House of Representatives
335 Cannon House Office Building
Washington, DC 20515

Dear Chair Herseth-Sandlin:

    Thank you for allowing The American Legion to participate in the 
Subcommittee hearing on The Post-9/11 GI Bill on September 16, 2010. I 
am pleased to respond to your specific question concerning that 
hearing:
    Can you explain a little further the details in your testimony 
regarding veterans and their families reporting losing their future 
payments as opposed to the $750.00 deduction?
    The American Legion understood the $750.00 deduction as a way to 
recoup the money veterans received during the emergency payment process 
while claims were being processed. During the recoupment, there was 
confusion with how much and when the payments would be taken out of 
their future payments. Instead of taking the $750.00 out from their 
future payments the Department of Veterans Affairs were deducting the 
entire amount. The American Legion is not stating this was widespread, 
but we were contacted by veterans and their families with financial 
hardships. This lack of communication inevitably affected their 
financial situation even further due to the lack of communication that 
was being provided to them from the VA. During this emergency payment 
time frame, the VA was only working the call center during limited days 
and hours. This lack of consistency and availability by the VA caused 
further confusion and delayed their opportunities to make the repayment 
amount fit into the veterans budget without causing financial distress.
    Thank you once again for all of the courtesies provided by you and 
your capable staff. The American Legion welcomes the opportunity to 
work with you and your colleagues on many issues facing veterans and 
their families throughout this Congress.
            Sincerely,
                                  Robert Madden, Assistant Director
                                       National Economic Commission

                                 <F-dash>
                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                 September 20, 2010
Ms. Faith DesLauriers
Legislative Director
National Association of Veterans' Program Administrators
Boise State University
1910 University Drive
Boise, ID 83725

Dear Ms. DesLauriers:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity hearing on 
Update on the Post-9/11 GI Bill which took place on September 16, 2010. 
Please answer the enclosed hearing questions by no later than Monday, 
November 1, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.
            Sincerely,
                                          Stephanie Herseth Sandlin
                                                         Chairwoman
    JL/ot

                               __________

            National Association of Veterans Program Administrators
                                                    Washington, DC.
                                                   October 13, 2010
The Honorable Stephanie Herseth Sandlin
United States House of Representatives
Washington, D.C. 20515

Dear Madam Chairwoman:

    Thank you for the opportunity to respond to your questions for the 
record in reference to the House Committee on Veterans' Affairs 
Subcommittee on Economic Opportunity hearing, which took place on 
September 16, 2010.

    Question 1: What has prevented VA from being able to credit refunds 
made by the schools to the student's accounts?

    Answer: We reluctantly respond to this question as it would be best 
addressed by Education Service. However, it is our experience that 
there is a lack of communication between the Agent Cashiers and the 
claims processors. We assume that this disconnect and delay in 
processing refunds may be a matter of inadequate staffing and or 
technology to handle the number of refunds being made by institutions 
nationwide.

    Question 2: What is the difference between class enrollments and 
term enrollments period and how is it better to count hours in a 
standard college term?

    Answer: Department of Veterans Affairs 38 CFR 21.4135(s)(5) 
stipulates that an individual who enrolls in several subjects and 
reduces his or her rate of pursuit by completing one or more of them 
while continuing training in others, will have their educational 
assistance allowance reduced effective the date the subject or subjects 
were completed. Many institutions schedule mini sessions (4-7 weeks) 
within a standard semester (15-18 weeks) and require students to enroll 
full time, but the enrollment period is broken into two or more modules 
during the semester. This is often necessary to complete sequential 
courses, such as in nursing programs. Many students who access their 
Montgomery GI Bill (MGIB) entitlement are placed at a financial 
disadvantage because of this DVA policy. Not only are the veteran 
students monthly entitlement reduced, but financial aid is computed 
using all credits in which the student is enrolled for that term.

    DISCUSSION: Students pursuing professional programs that require 
scheduling of non-standard terms/modules during a regular semester/
quarter are not able to select those terms that would allow full-time 
enrollment computation of their monthly entitlement; or, students who 
are required to enroll in such terms lose full time enrollment status 
and thereby full compensation of VA educational entitlement rates even 
though they complete the equivalent of full time enrollment over the 
course of the semester. This is in direct contrast to the computation 
of the Federal Financial Aid programs that combine all credits earned 
during a standard semester to determine the students' enrollment status 
and pay accordingly. Veteran students are disadvantaged in VA 
educational entitlement computation because of this inequitable VA 
process.
    To illustrate this inequity, assume that a standard term is January 
15-May 15 and the student is enrolled at the college or university for 
12 semester hours of credit in this term. Normally this enrollment 
would equate to full-time status for VA MGIB training purposes. 
However, when a student is enrolled in short duration or modular 
classes within that term the student's VA monthly compensation is 
diluted as follows: January 15-March 15 the student is enrolled in 9 
semester hours of credit. March 16-May 15 the student is enrolled in 3 
semester hours of credit. For FFA purposes the student is full time. 
For DVA rate computation the student is enrolled \3/4\ time from 
January 15-March 15, and then on March 16 is reduced or adjusted to \1/
4\ training time for the remainder of the term, even though the student 
will earn 12 semester hours of credit in the standard term. Normally, 
12 semester hours is sufficient for full-time status/benefit.

    Question 3: Can you explain what you mean when you state that 
veterans have voiced concern that ``the ability to pursue their 
educational endeavors are restricted to that which is deemed by 
Congress to be traditional'' ?

    Answer: Chapter 33 benefits are currently unlimited for enrollment 
in a public institution of higher learning (IHL), but capped for 
veterans who choose to enroll in the private sector. Education and 
training is limited to traditional programs/degrees and modality 
offered by IHL's but excludes OJT/apprenticeships and other viable and 
previously approved vocational training opportunities. Many Veterans 
have already earned degrees and/or are not interested in attending 
college, but have the skills necessary to master a trade. Limiting 
benefits and training opportunities (career options), consequently 
dilutes the readjustment element of this program. And finally, the 
exclusion of a living stipend for veterans pursuing a program of 
education on a half time basis while they work part-time, and for 
pursuit of a program of education offered through courses/programs 
defined as distance learning, puts veterans who choose to balance their 
work, family and school, at a disadvantage.

    Thank you for the opportunity to provide a response to your follow 
up questions. Please let me know if you have further questions.
            Respectfully,

                      Faith DesLauriers, NAVPA Legislative Director
                           University Director of Veterans' Affairs
                               Embry-Riddle Aeronautical University

                                 <F-dash>
                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                 September 20, 2010
Dr. Alan Merten
President
George Mason University
American Association of State Colleges and Universities
1307 New York Ave, NW 5th floor
Washington, DC 20002

Dear Dr. Merten:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity hearing on 
Update on the Post-9/11 GI Bill which took place on September 16, 2010. 
Please answer the enclosed hearing questions by no later than Monday, 
November 1, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.
            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
    JL/ot

                               __________

            American Association of State Colleges and Universities
                                                    Washington, DC.
                                                   November 1, 2010
The Honorable Stephanie Herseth Sandlin
Chairwoman
Subcommittee on Economic Opportunity
335 Cannon House Office Building
Washington, DC 20515

Dear Madame Chairwoman:

    Attached please find the American Association of State Colleges and 
Universities' response to the questions for the record in follow-up to 
the Subcommittee on Economic Opportunity's September 16, 2010 hearing 
on Update on the Post-9/11 GI Bill.
    Thank you for the opportunity to present this information. Should 
you have any further questions, please do not hesitate to contact us.
            Sincerely,

                                                   Edward Elmendorf
                                              Senior Vice President
                           Government Relations and Policy Analysis

                               __________

    Question 1: You mention that delays of up to a year are occurring 
with regard to appeals for claim reevaluations. How many students have 
had this problem?

    Response: It is difficult to quantify this number for all AASCU 
institutions; however, concerns regarding delayed claim re-evaluations 
were commonly expressed by members to AASCU during the Post-9/11 GI 
Bill's first year of implementation. AASCU acknowledges that VA 
processing continues to improve in general, but that individual 
problems continue to occur.

    Question 2: You state that VA's guidance to institutions have been 
basic in nature. What more does VA need to provide to the institutions?

    Response: All higher education business offices seek to efficiently 
determine why payments they receive are excessive or insufficient. VA 
will not respond to inquiries from Student Accounts Office staff, only 
to certifying officials. This makes it difficult to resolve a problem 
that certifying officials--who do not manage student accounts--may know 
little about. Certifying officials also need clarification on credit 
certifications that do not conform to standard semesters, contract 
course certifications, and other exceptional cases. VA should allow 
student accounts personnel to contact them directly regarding student 
accounts and should be able to address complex certification issues for 
certifying officials.

    Question 3: You state that the VA's Web site is difficult to 
navigate. What recommendations do you have?

    Response: The Department of Veterans Affairs (VA) education 
benefits Web site has recently been significantly updated. This appears 
to have been in conjunction with the VA's new public relations campaign 
to ensure veterans are aware of the processes required to receive their 
benefits. However, there are some areas that could be added or improved 
to better serve veterans.
    One area that could be improved is one that keeps the veteran 
informed of their benefit utilization status. A mechanism already in 
place to do this is the VA's Web Automated Verification of Enrollment 
(WAVE) system. This system allows the user to view the time periods for 
which their school has certified them, which benefit program they are 
using, the number of months of entitlement they have remaining, their 
delimiting date, and the amount of the last check or direct deposit.
    Unlike other GI Bill recipients, those receiving the Post-9/11 GI 
Bill do not have to verify their attendance through WAVE. As a result, 
this population struggles for basic information on their benefit usage. 
The VA's failure to incorporate the Post-9/11 GI Bill into WAVE results 
in wasted time spent by both the VA and institutions of higher learning 
in answering these basic questions.
    Given the number of veterans using the Post-9/11 GI Bill as well as 
various proposals to fold all GI Bills into one program, it would be 
best for the VA to allow Post-9/11 GI Bill beneficiaries the same 
access and information to WAVE as those enrolled in other veterans 
education benefit programs.

    Question 4: You state that reporting fees should be increased. What 
do you recommend as an equitable figure?

    Response: Currently VA pays an annual reporting fee of $7.00 per 
student, based on a 30-year-old standard instituted when schools were 
only responsible for certifying enrollment in two programs. Today 
schools are responsible for the accurate certification and proper 
administration of 11 veterans' education benefit programs.
    This funding inadequacy requires many veterans affairs offices on 
campus to partner with other offices--such as financial aid, 
counseling, admissions and student accounts--that play roles in the 
certification process. However, these partnering offices generally 
serve an entire campus or portion of a campus, rather than being 
dedicated solely to veteran students, and shoulder benefit 
certification as a collateral duty on top of their existing workload. 
At George Mason University, the Registrar and Student Accounts offices 
have had to create additional positions to meet Post-9/11 GI Bill 
processing needs. The additional expense of these positions is $110K, 
including fringe benefits.
    An equitable figure depends upon Congress' expectations of higher 
education institutions. If Congress expects colleges and universities 
to be responsible for the certification of enrollment, in addition to 
continued counseling and paperwork processing responsibilities, then a 
significant increase in the reporting fee will be necessary.

    Question 5: In your testimony you write that some veterans need 
remedial education while others were not ready for college. What 
percentage of veterans do you estimate need remedial education or are 
not ready for college?

    Response: Given the lack of general data on veterans, as well as 
more specific data on Post-9/11 benefit usage, it is difficult to fully 
quantify this number. However, as outlined below, we would anticipate 
veterans mirroring the general population and caution that a 
significant number of veterans may need remedial education in one or 
more subject areas before starting college. We note that there are 
multiple DoD programs designed to address the need for remedial 
education among active-duty servicemembers (e.g., the Army's Functional 
Academic Skills Training [FAST] or the Marine Corps' Military Academic 
Skills Program [MASP]) that also prepare individuals for an easier 
transition into postsecondary education.
    Nationally, less than half of those who receive a high school 
diploma are academically prepared for postsecondary education (Greene & 
Winters, 2005). In fact, according to the Department of Education, 
approximately 42 percent of community college freshmen and 20 percent 
of freshmen in four-year institutions are enrolled in remedial courses 
(NCES 2004b). Analyses of student preparation for college-level work 
show weakness in multiple subject areas; of college freshmen taking 
remedial courses, 35 percent were enrolled in math, 23 percent in 
writing, and 20 percent in reading (NCES, 2004b). Community colleges 
bear the greatest share of the remediation burden and trends indicate 
that their responsibilities in this arena are likely to grow. For 
instance, eleven states have passed laws preventing or discouraging 
public four-year institutions from offering remedial courses to their 
students, thus concentrating unprepared students in community colleges 
(Jenkins & Boswell, 2002).
    Normally that would mean about 67,000 of the 200,000 (Garamone, 
2010) men and women selected each year for active duty enlisted 
positions in the Army, Navy, Air Force, and Marines would require some 
form of remediation. It is important to note that the Department of 
Defense has changed military enlistment standards related to academics 
over the last six years to better meet enlistment goals (Inskeep & 
Boswell, 2008, Kaplan 2008). Further, the DoD programs designed to 
address the need for remedial education may not necessarily reach the 
entire target population. These factors will have an influence on the 
number of veterans needing remediation.\1\
---------------------------------------------------------------------------
    \1\ References Garamone, J. (2010 Oct 12). 2010 Proves Banner Year 
for Recruiting. Department of Defense Press Release Greene, J., & 
Winters, M. (2005). Public high school graduation and college-readiness 
rates: 1991-2002. New York: Manhattan Institute. Inskeep, S. & Bowman, 
T. (2008 Apr 17). Army Documents Show Lower Recruiting Standards, 
National Public Radio, Washington, DC Jenkins, D., & Boswell, K. 
(2002). State policies on community college remedial education: 
Findings from a national survey. Denver, CO: Education Commission of 
the States. Kaplan, F. (2008 Jan 24). Dumb and Dumber: The U.S. Army 
lowers recruitment standards again. Washington Post, Washington, DC 
National Center for Education Statistics [NCES] (2004). The condition 
of education 2004, indicator 18: Remediation and degree completion. 
Washington, DC: U.S. Department of Education. National Center for 
Education Statistics (2004). The condition of education 2004, indicator 
31: Remedial.

    Question 6: What kinds of accommodations have your schools made 
---------------------------------------------------------------------------
because of post-traumatic stress disorder or traumatic brain injury?

    Response: AASCU schools have made varying accommodations for 
students (not only veteran students) with Post-Traumatic Stress 
Disorder (PTSD) or Traumatic Brain Injury (TBI). As noted in the first 
study of support services for veterans on campus (From Soldier to 
Student: Easing the Transition of Servicemembers on Campus) in which 
AASCU participated, institutions may incorporate veterans with 
disabilities into pre-existing disability services programs for all 
students as well as coordinate referrals to off-campus treatment 
centers for students with injuries beyond the capacities of a campus 
treatment center.
    In George Mason University's experience, the diagnoses of TBI and 
PTSD have become blurred and their treatment approaches have been 
merged. The reasons include the many cross-symptoms and the inability 
to determine whether those symptoms are directly connected to a TBI or 
are the lingering results of having suffered one. Mason does not have 
the capability to perform intensive neuropsychological evaluations to 
make highly accurate measures of deficit, although learning deficits 
can be measured. Counseling and Psychological Services (CAPS) is 
currently treating 7-8 veterans for PTSD using Prolonged Exposure 
Therapy (PET). This approach is one of a small handful of approaches 
that have demonstrated effectiveness.
    The Office of Disability Services (ODS) has 5 students currently 
registered with PTSD. The diagnosis is often accompanied by other 
physical and psychological conditions; ODS responds to any questions 
that faculty may have on PTSD and TBI as well as other disability-
related issues. For testing, ODS offers a stimulus-free individual 
room. Medication to manage hypervigilance (a common effect of PTSD) can 
involve powerful anti-anxiety drugs that can cause a secondary 
disabling effect on awareness, memory and general ability to learn. In 
these cases we would offer veterans extra time in which to complete 
exams and possibly extra time to complete assignments. In addition, 
accommodations for an individual with PTSD can include the use of an 
emotional support animal.
    *Coursetaking. Washington, DC: U.S. Department of Education.
    As a general rule both offices refer veteran students to the Office 
of Military Services for support group or for transition information. 
In many instances George Mason University winds up providing services 
that are also available at the VA, sometimes because the VA is 
overwhelmed and sometimes because veterans and families prefer campus-
based resources. However, George Mason University does not have the 
array of programming and resources that the VA has to offer. It would 
be helpful for Congress to examine ways in which it can allocate 
resources to college-bound veterans with special needs.

    Question 7: How are VA statistics related to Post-9/11 GI Bill 
usage and claims processing incomplete and confusing?

    Response: The VA's Monday Morning Workload Report (MMWR), a 
commonly used source for data, provides statistics on Chapter 33 ``work 
items'' (aka ``claims'') in process. However, a single veteran 
student's file can generate multiple work items depending on the 
complexity of his or her case, so the ``work items'' number does not 
correspond to the number of students whose files are in process. This 
is incomplete and thus creates confusion.
    Given that VA only periodically releases other Post-9/11 GI Bill 
statistics on number of students served and dollar amounts paid--
generally when giving a presentation or testifying before Congress--
there is no easy way for institutions and higher education analysts to 
compare VA statistics to each other and get an accurate picture 
throughout the academic year. Releasing more complete statistics 
combined with better explanations of VA terminology would enable VA to 
present a clearer picture of the complexity of its Post-9/11 workload 
to the public, including veteran students waiting for payment.
    In addition, the recent changes to the VA GI Bill Web site appear 
to have disabled what was once a routine link from the MMWR to 
processing statistics for the Post-9/11 GI Bill (http://
www.gibill.va.gov/spring2010.htm).

    Question 8: How does VA being the ``last payer'' affect other types 
of financial aid a student gets?

    Response: It is AASCU's understanding that the notion of VA as 
``last payer'' evolved in order to eliminate the confusion that exists 
in the current system. However, this proposal would actually add more 
complexity and confusion to the program. If the goal is to simplify and 
reduce confusion in the Post-9/11 GI Bill program for the veteran, then 
the notion of ``last payer'' should not be included.
    Veterans need to know from the outset what amount they are eligible 
to receive from the Post-9/11 GI Bill. Simply put, if the VA becomes 
the ``last payer,'' a financial aid officer or other official will not 
be able to inform the veteran of their benefit amount until the veteran 
files a Federal Application for Student Financial Assistance (FAFSA), 
the FAFSA is processed, and the financial aid office performs all 
necessary verification of data to determine what other federal, state, 
and institutional benefits to which the veteran may be entitled. This 
will all have to take place before a college certifying official or 
financial aid officer can tell a veteran student the amount that will 
be provided from the GI Bill. The FAFSA process takes anywhere from 4-6 
weeks during peak processing season but can be longer depending on 
individual circumstances. This will create hardships for veteran 
students--since many do not currently file FAFSAs--and add 
significantly to the certification workload for colleges and 
universities.
    Furthermore, applying all of this aid first in effect caps all of 
the benefits a veteran could receive at the amount due for tuition and 
fees. Postsecondary education costs go beyond tuition and fees (e.g., 
transportation expenses to/from campus; books/supplies, of which the VA 
benefit generally covers only a portion; dependent care; and expenses 
related to a disability). Many of these other sources of educational 
benefits are able to offset these costs up to the total ``cost of 
attendance.'' While some VA benefits address certain nontuition costs, 
significant others are not covered. Limiting all eligible benefits to 
just tuition and fees would mean saddling the veteran with a larger 
financial burden.
    Pursuing a policy of VA as ``last payer'' is counterproductive to 
the goal of the amendments to the Post-9/11 GI Bill Program and 
disregards veterans' service and dedication to this country by reducing 
their earned benefit. This policy would bring about further confusion 
and complication and result in greater financial burden for the 
veteran. As our testimony highlighted, much of this confusion can be 
addressed through better communication between the VA, institutions, 
and veterans.
    Note: Since the Subcommittee hearing, the Senate has reported the 
language for S. 3447 that includes a ``last payer'' provision. AASCU 
has strong concerns regarding this provision.

                                 <F-dash>
                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                 September 20, 2010
Mr. Donald O. Overton, Jr.
Executive Director
Veterans of Modern Warfare
#33107
P.O. Box 96503
Washington, D.C. 20090

    Dear Mr. Overton:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity hearing on 
Update on the Post-9/11 GI Bill which took place on September 16, 2010. 
Please answer the enclosed hearing questions by no later than Monday, 
November 1, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.
            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
    JL/ot

                               __________

                            November 1, 2010
 Questions for the Record from the House Committee on Veterans' Affairs
                  Subcommittee on Economic Opportunity
               Hearing on Update on the Post-9/11 GI Bill
    Question 1: What do you mean that there is ``no guarantee that the 
Yellow Ribbon Program will be capable of absorbing these monetary 
offsets . . . ''

    Response: As the law currently stands, the base benefit is set by 
state; the maximum benefit equates to the most expensive in-state 
undergraduate tuition and fees at a public institution of higher 
education in the state's system. Although it may be adjusted for part-
time enrollment or based on length of qualifying service, this benefit 
can cover full tuition and fees for a veteran attending a public 
institution as an in-state student. Veterans who attend a public 
institution as an out-of-state student or who attend a private 
institution may apply the maximum base benefit toward the out-of-state 
public or private institution tuition and fees. Given that private 
tuition and fees and out-of-state tuition and fees are generally more 
expensive than in-state public institutions the law established the 
Yellow Ribbon Program, a matching mechanism in which dollars that 
institutions provide to cover the remaining expenses are matched by the 
federal government. Public and private institutions may participate in 
the Yellow Ribbon Program.
    The new bill would not dramatically change the funding of public 
education for veterans, but they would alter the contribution to 
private education. Students attending public institutions would simply 
have their tuition and fee charges fully covered, effectively the same 
as the current program but with less administrative confusion. The 
proposed legislation varies slightly in that it calls for a $20,000 
cap, as opposed to the national average of tuition and fees.
    A potential implication of these changes is that it will likely 
lower the amount that veterans would receive at private institutions 
and would also necessitate that institutions contribute more funds 
towards the Yellow Ribbon Program if they wish to participate at a 
level that aids all eligible veterans.
    However, the changes would establish a national standard and level 
the playing field for all veterans across all states. The 5 states 
adversely impacted; Texas, Michigan, Pennsylvania, New York, and New 
Hampshire may see a loss in Yellow Ribbon participation due to an 
insurmountable tuition offset formula, thus hindering veterans' ability 
to continue their current programs of study.

    Question 2: What is the most common complaint that you hear about 
regarding the Post-9/11 GI Bill?

    Response: The most common complaint raised by our members is the 
Department of Veterans Affairs (VA) poor communications. VA must 
improve communications with veterans about their education benefits 
eliminating the current ambiguity surrounding eligibility and benefit 
delivery. An apparent lack of sufficient training by VA of educational 
case managers has resulted in misinformation and greater confusion. 
Veterans need to receive consistent and accurate information, so he/she 
can properly navigate the education process.
            Respectfully Submitted,

                                              Donald D. Overton, Jr
                                             Executive Director/COO

                                 <F-dash>
                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                 September 20, 2010
Mr. James D. Wear
Assistant Director for Veterans Benefits Policy
National Veterans Service
Veterans of Foreign Wars of the United States
200 Maryland Avenue, NE
Washington, DC 20002

Dear Mr. Wear:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity hearing on 
Update on the Post-9/11 GI Bill which took place on September 16, 2010. 
Please answer the enclosed hearing questions by no later than Monday, 
November 1, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.
            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
    JL/ot

                               __________

             STATEMENT OF JIM WEAR, ASSISTANT DIRECTOR FOR
          VETERANS BENEFITS POLICY, NATIONAL VETERANS SERVICE,
        VETERANS OF FOREIGN WARS OF THE UNITED STATES, RESPONSE
         TO QUESTIONS SUBMITTED BY CHAIRWOMAN HERSETH SANDLIN,
            COMMITTEE ON VETERANS' AFFAIRS, SUBCOMMITTEE ON
              ECONOMIC OPPORTUNITY, UNITED STATES HOUSE OF
             REPRESENTATIVES WITH RESPECT TO UPDATE OF THE
             POST-9/11 GI BILL, SUBMITTED NOVEMBER 1, 2010
    Question 1: Do you believe that the individual state caps are 
failing to fully cover the cost of a public education at a 4-year in-
state undergraduate institution.

    Response: We have no data to substantiate such a claim. The purpose 
of the in-state cap and the subsequent complex mechanisms to calculate 
the cap was to ensure that a public education would be fully covered in 
a variety of situations. This calculation has been the source of much 
confusion, and has led to situations where veterans were not getting 
the amount they had anticipated, and that has certainly been the cause 
of confusion and concern. The VFW believes this mechanism should be 
replaced with a simple promise that VA will not fail to fully cover the 
cost of a public education at any 4-year in-state undergraduate 
institution nationwide.

    Question 2: If the current GI Bill functions as a transition 
program for veterans, should there be a component of the program 
dedicated to the psychological and social health of the participants 
who decide attend an institution of higher learning?

    Response: The VFW believes that robust psychological and social 
counseling and treatment should be readily available for all veterans 
regardless of their career or educational status. As such, we support 
greater access to Vet Centers across the country and any necessary 
funding to ensure readjustment challenges our veterans face will be met 
and overcome. The VFW also supports Chapter 33 career counseling for 
student veterans as needed to ensure the goal of entering into a 
successful career is achieved.

    Question 3: If a veteran is attending Texas schools this fall, such 
as Rice University where the cost of attendance is $47,871 or Southern 
Methodist University where the cost of attendance is $37,230 for Fall 
2010, what would be H.R. 5933's impact with regards to cost?

    Response: H.R. 5933 would modify the Yellow Ribbon program by 
eliminating language that allows the VA to match what a participating 
university provides up to the full cost of tuition. Under the language 
of H.R. 5933, the VA would reimburse actual costs up to $20,000 per 
year. In a circumstance where Rice University and Southern Methodist 
University had entered into the Yellow Ribbon program and were doing so 
with the aim of providing half the tuition and thereby helping veterans 
to attend said universities without cost, the $20,000 cap would not 
impact the veteran. In cases where these universities entered the 
program but were providing significantly smaller amounts, this $20,000 
reimbursement would be of more value to the veteran.

    Question 4: In your testimony you state that your organization 
supports benefits that will fully cover undergraduate or graduate 
programs across the country. In your opinion, was the GI Bill intended 
to fully cover the cost of graduate programs across the country?

    Response: The VFW believes that Post-9/11 GI Bill benefits should 
be made available to an eligible veteran regardless of the degree they 
choose to pursue, whether it is an undergraduate or graduate level 
degree. Further, The VFW strongly believes that these benefits must be 
expanded to include vocational training, apprenticeships, and on-the-
job training. The purpose of the GI Bill is not merely to fill 
classrooms of four-year programs at institutions of higher learning, 
but to provide veterans with educational opportunities that will lead 
to a career that fits into their goals and ambitions.

    Question 5: The Senate Bill S. 3447 proposes to eliminate the 
interval payment for veterans. Do you think that veterans will be 
losing benefits if the interval payments are eliminated?

    Response: The VFW has undertaken a more thorough examination of the 
effects of eliminating interval payments, and opposes any such measure. 
Interval payments not only provide critical financial stability and 
important piece of mind for veterans, but they also provide the 
latitude many veterans need to pursue the career of their choosing. 
Many veterans would have difficulty finding seasonal or temporary work 
between semesters to make up for the loss of interval payments, 
particularly in the current economy. Others may choose to collect 
interval payments to make ends meet while they perform an internship or 
another type of unpaid work during summer months in accordance with 
their academic and career pursuits. Such an endeavor would be 
impossible for many veterans without interval payments. Further, we 
believe veterans should be empowered to decide for themselves whether 
or not interval payments are in the best interests of their careers and 
families. While some may be concerned that receiving these payments 
lowers the overall benefit of the GI Bill, we believe the evidence is 
clear that interval payments provide an important and necessary 
benefit, and that a one-size-fits-all approach of eliminating this 
option would hinder the success of many student veterans.

    Question 6: You have stated that you support H.R. 5933, does PNC 
John Brieden of Texas, and PNC Thomas Cadmus of Michigan also support 
the bill in light of how it affects veterans in their home state?

    Response: The two gentlemen you reference are past national 
commanders of the American Legion. As such, we are not in a position to 
comment.

                                 <F-dash>
                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                 September 20, 2010
Mr. Robert Madden
Assistant Director
National Economic Commission
The American Legion
1608 K Street, NW
Washington, DC 20006

Dear Mr. Madden:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity hearing on 
Update on the Post-9/11 GI Bill which took place on September 16, 2010. 
Please answer the enclosed hearing questions by no later than Monday, 
November 1, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.
            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
    JL/ot

                               __________

                                                    American Legion
                                                    Washington, DC.
                                                   November 1, 2010
Honorable Stephanie Herseth Sandlin, Chair
Subcommittee on Economic Opportunity
Committee on Veterans' Affairs
U.S. House of Representatives
335 Cannon House Office Building
Washington, DC 20515

Dear Chair Herseth Sandlin:

    Thank you for allowing The American Legion to participate in the 
Subcommittee hearing on the Update on the Post-9/11 GI Bill. I 
respectfully submit the following in response to your additional 
questions:

    Question 1: If a veteran is attending Texas schools this fall, such 
as Rice University where the cost of attendance is $47,871 or Southern 
Methodist University where the cost of attendance is $37,230 for Fall 
2010, what would be H.R. 5933's impact with regards to cost.

    Response: H.R. 5933 will increase the tuition benefit for 97 
percent of the student veteran population. That being said, the tuition 
issue needs to be addressed and H.R. 5933 ensures predictability 
because even in states with high tuition rates likes Texas a student 
veteran cannot expect that those will stay high year to year. For 
example in Florida and in Minnesota the rates dropped by 40 percent 
without warning leaving those student veterans in a tough predicament. 
Specifically referring to school such as Rice and SMU, the VA has 
created partnerships with private school to see gap the disparities 
between the tuition and what the Post-9/11 GI Bill offers. Rice and SMU 
would have to participate in the yellow ribbon program just like other 
institutions currently do. The George Washington University is 
currently contributing $18,000 a year per student to see that those 
veterans are not incurring mountains of debt.

    Question 2: In your testimony you state that your organization 
supports benefits that will fully cover undergraduate or graduate 
programs across the country. In your opinion, was the GI Bill intended 
to fully cover the cost of graduate programs across the country?

    Response: The American Legion supports increasing the Post-9/11 GI 
Bill to cover all programs: undergraduate, graduate and vocational 
schools just like the Servicemen's Readjustment Act of 1944.

    Question 3: The Senate Bill S. 3447 proposes to eliminate the 
interval payment fro veterans. Do you think that veterans will be 
losing benefits of the interval payments are eliminated?

    Response: The American Legion has been a supporter of education 
benefits for veterans and their families. We currently support the 
House version: H.R. 5933 which does not include taking away the 
interval payment.

    Question 4: You have stated that you support H.R. 5933, does PNC 
John Brieden of Texas, and PNC Thomas Cadmus of Michigan also support 
the bill in light of how it affects veterans in their home State?

    Response: Since the passage of the Post-9/11 GI Bill, The American 
Legion has called on Congress to address the technical fixes to the 
current bill. The American Legion has organizational resolutions which 
direct our policy and position. Our current resolutions state that we 
support the technical fixes, to include: addition of flight training, 
vocational school, OJT/Apprenticeship, Title 32 AGR and the addition of 
housing allowance for those who attend school strictly online. These 
positions are reflected in the current legislation which allows us to 
support it. This is the position of The American Legion.

    Question 5: Does the Post-9/11 GI Bill currently fail to pay for a 
veterans education at a four-year public institution?

    Response: Yes, in some instances the Post-9/11 GI Bill does fail to 
cover the full cost of a four-year public institution. For example:

        <bullet>  Title 32 AGR's does not qualify for the New GI Bill 
        at all and therefore their public school education is not 
        covered.
        <bullet>  Some public schools offer online education which then 
        disqualifies those veterans from receiving the living 
        allowance.
        <bullet>  Active duty servicemembers attending public schools 
        do not receive a book stipend when they attend school.

    Question 6: You state that student veterans do not have sufficient 
information about the Post-9/11. What kind of information do student 
veterans need?

    Response: These student veterans are individuals who range from 21 
years old to 35 years old, respectively. They are heavily involved in 
social media and technology. Getting them information correctly and 
promptly is what these student veterans need, not a week old letter 
that the VA send out, when they have already been confused for 2 weeks. 
I would like to suggest a few ideas of what information student 
veterans need:

        <bullet>  When they should realistically expect to be paid for 
        their benefits. This is a big deal considering the confusion 
        that occurred last fall during the implementation of the New GI 
        Bill.
        <bullet>  Any means of tracking whether those payments are 
        actually correct.
        <bullet>  Meaningful information about what the irrevocable 
        election to the new GI Bill means for them.
        <bullet>  Students and schools have no idea what to do with 
        overpayment and especially how to handle the situation. Plus 
        the VA is not notifying the student that they received the 
        overpayment from the school, inputting that specific data which 
        causes for a lack of housing allowance due to the overpayment.
        <bullet>  The VA Debt Management center can be very hard to 
        reach over the phone and has made numerous errors on processing 
        the repayment plans. There is no way to hold them accountable.

    Student veterans feel disenfranchised about the whole process 
thereby feeling like they aren't being properly taken care of. There is 
no customer service. Many companies pride themselves on customer 
service and the veterans that I have spoken to feel that there is a 
lack of patience from the VA and that there is no one ``over at the 
VA'' who actually cares about what happens to the veteran.
    Thank you for your continued commitment to America's veterans and 
their families.
            Sincerely,

                                  Robert Madden, Assistant Director
                                       National Economic Commission

                                 <F-dash>
                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                 September 20, 2010

Mr. Mark Krause
Department of Veterans Affairs Program Manager
Space and Naval Warfare Systems Center Atlantic
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Mr. Krause:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity hearing on 
Update on the Post-9/11 GI Bill which took place on September 16, 2010. 
Please answer the enclosed hearing questions by no later than Monday, 
November 1, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.
            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
    JL/ot

                               __________

                    Hearing Date: September 16, 2010
                             Committee: HVA
                 Member: Congresswoman Herseth Sandlin
                        Witness: Captain Krause
                     Hardware and Software systems
    Question 1: When this project is completed, what will VA own in 
regards to the software and hardware systems.

    Answer: The VA, as a Federal entity, will own all SPAWARSYSCEN 
Atlantic purchased hardware; all government employee developed software 
and all commercial and non-commercial software license rights.
                           Long-Term Solution
    Question 2: Is the entire long-term solution currently located in a 
VA facility?

    Answer: No, the entire LTS is not currently located in VA facility. 
The CH 33 LTS is hosted at a commercial data center in Culpepper, 
Virginia called Terremark. At the conclusion of the CH 33 Long Term 
Solution project, the VA can continue to pay for this commercial 
hosting service or transition the application to one of the VA's data 
centers. VA can provide more details.
                      Benefits Enterprise Platform
    Question 3: Why was the Benefits Enterprise Platform unavailable 
and will this functionality be added in the future?

    Answer: The plan has always been to leverage the capabilities of 
the VA's Benefits Enterprise Platform (BEP) to accomplish user account 
authentication and management for the CH 33 LTS. When it was determined 
the VA's BEP team could not complete the necessary software development 
to deploy for CH 33 LTS Release 1.0 in March 2010, SPAWAR implemented 
an alternative solution as a mitigation. In Release 2.0, the automation 
of the data conversion and retroactive housing payments became the 
priority to protect the Fall enrollment. As a result of the required 
performance testing and migration of the user account tasks, the BEP 
deployment was subsequently delayed and rescheduled for Release 4.0, 
scheduled for the end of December 2010.

                                 <F-dash>
                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                 September 20, 2010
Mr. Keith Wilson
Director, Education Service
Veterans Benefits Administration
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Mr. Wilson:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity hearing on 
Update on the Post-9/11 GI Bill which took place on September 16, 2010. 
Please answer the enclosed hearing questions by no later than Monday, 
November 1, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.
            Sincerely,
                                          Stephanie Herseth Sandlin
                                                         Chairwoman
    JL/ot

                               __________

                        Questions for the Record
          The Honorable Stephanie Herseth Sandlin, Chairwoman
                  Subcommittee on Economic Opportunity
                  House Committee on Veterans' Affairs
                    Update of the Post-9/11 GI Bill
                           September 16, 2010
    Question 1: Several witnesses mentioned the lack of consistent 
information veterans receive from VA officials, the information 
veterans receive when they call the 1-800 number, and school officials. 
What is the VA doing or plan to do to address these inconsistencies.

    Response: We are committed to providing the best possible service 
to our Veterans. VA provides written policy guidance to all four 
Regional Processing Offices (RPOs) and conducts uniform training on a 
regular basis to ensure all RPOs and employees at the National Call 
Center are receiving the same information. In addition, RPO conference 
calls are conducted to address training, policy, or claims processing 
issues as they arise. The team leaders and Senior Education Case 
Managers (ECMs) at the National Call Center conduct monthly quality 
assurance reviews. The reviews consist of monitoring a combination of 
telephone calls and electronic inquiries. A standard quality checklist 
is used, and any potential problem areas are discussed with the 
individual ECMs.
    Eligibility requirements for the various education programs are 
complex, and many Veterans have eligibility to more than one program. 
Veterans' individual circumstances, such as their delimiting date, 
amount of remaining entitlement, type of training pursued, and cost of 
training all factor significantly into decisions related to their VA 
benefits. Ongoing expansion and enhancement of our GI Bill Web site 
ensures a consistent source of accurate and comprehensive information 
for Servicemembers and Veterans.
    We will continue to aggressively train our employees and provide 
up-to-date information and training to school officials through our 
education liaison representatives (ELRs) to ensure that our Veterans 
are receiving accurate information as they make their decisions. VA's 
ELRs are the primary points of contact for school officials. ELRs have 
a wide range of responsibilities in support of education benefits 
programs and work closely with school officials to inform them of 
changes in VA policies and procedures. We also send representatives to 
professional and educational conferences to discuss the Post-9/11 GI 
Bill. Additionally, VA is reaching out to Veterans, Servicemembers, and 
families using the enhanced GI Bill Web site, local and national radio 
ads and public events, and other media to promote general information 
about VA education benefits.

    Question 2: An organization has stated that ``VA's GI Bill benefits 
estimator is an inexcusable tool for a Department that has spent 
millions on GI Bill information technology''. How many veterans have 
used this tool and what has been the feedback from veterans regarding 
its usefulness?

    Response: Since August 1, 2009, the benefits calculator has been 
accessed more than one million times by visitors to the GI Bill Web 
site. The feedback received by VA has been generally positive, but has 
also prompted improvements in the calculator, such as clarification of 
entry-level versus skill-level training, inclusion of rates for 
overseas training, and the addition of a disclaimer that calculated 
rates do not include the books and supplies stipend or supplemental 
educational assistance amounts.

    Question 3: Have you visited IAVA's GI Bill calculator and can 
veterans rely on the advice from that calculator?

    Response: VA reviewed IAVA's GI Bill calculator. The purpose of the 
calculator is to provide an estimate of the benefits an individual 
would be entitled to under the Post-9/11 GI Bill versus the Montgomery 
GI Bill--Active Duty (MGIB-AD) and the Reserve Educational Assistance 
Program (REAP). During our review, we noted that the calculator 
provides an incorrect benefit estimate for individuals training under 
REAP.
    While the IAVA calculator could be a useful tool for individuals 
desiring to estimate their benefits, many variables, other than 
financial, affect the overall decision to use the Post-9/11 GI Bill. 
When a Veteran is deciding whether to use the Post-9/11 GI Bill, 
factors such as delimiting date, months of entitlement, and types of 
training, are all elements that should be considered.

    Question 4: Have there been any students with appeals for claim re-
evaluation taking up to a year to process?

    Response: VA is not aware of any students with appeals for claims 
re-evaluation that take one year to process. Unfortunately, we are 
unable to provide information specific to Post-9/11 GI Bill appeals 
because our appeals tracking system, VACOLS, does not specifically 
track this category of appeals. VBA, BVA and the Office of Information 
and Technology (OI&T) will work together to modify the system to track 
Post-9/11 GI Bill appeals data prospectively.

    Question 5: What is Secretary Shinseki's view on the delayed 
implementation?

    Response: Secretary Shinseki recognizes the tremendous strides VA 
has made in delivering Post-9/11 GI Bill benefits. VA's primary focus 
has been on providing education benefits to Veterans, Servicemembers, 
and their families in a timely manner. Our accomplishments in 
implementation of the Post-9/11 GI Bill Long-Term Solution (LTS) are 
significantly greater than any information technology project 
undertaken at VA. The new system was installed and records conversion 
was accomplished with no significant errors. Thus, VA was able to 
achieve our primary goal, which was to have the initial phases of the 
LTS installed in time to process fall semester claims without 
introducing processing errors or delays that might affect claims 
processing. Enrollment processing for the 2010 fall term is going very 
well, with over 260,000 students already paid as of October 4, 2010. By 
December 31, 2010, VA expects to use the LTS to automate core internal 
Post-9/11 GI Bill claims processing functions. This automation is 
expected to help VA ensure timely processing and payment of Post-9/11 
GI Bill claims.

    Question 6: Some stakeholders have stated that VA has known most of 
the tuition caps but has failed to publish them. Is this correct?

    Response: VA did not publish the maximum tuition and fee amounts 
until we received all of the rates from the State Approving Agencies 
(SAAs) and were able to verify any significant increase or decrease in 
rates from the previous academic year.
    VA issued a letter to the SAAs on May 4, 2010, asking them to 
provide their states' maximum tuition and fee rates for the 2010-2011 
academic year. A follow-up contact was sent on August 3, 2010. Most 
SAAs sent their maximum rates in a timely manner; however, some rates 
were revised in August as schools changed their tuition and fee charges 
before the fall semester began. All maximum rates were finalized by 
August 26, 2010. VA conducted an analysis of the rates and verified any 
significant increase or decrease in tuition or fees from the previous 
academic year with the SAAs. Once completed, the maximum rates were 
published on the VA Web site on August 30, 2010.
    For Fall 2011, VA plans to publish, on August 1, tuition and fee 
information for states that have finalized rates at that time. VA will 
also continue to encourage states to finalize and submit tuition and 
fee information to the SAAs as timely as possible.

    Question 7: Have there been instances where funds returned to the 
VA by institutions were not properly credited by the VA to individual 
students' accounts?

    Response: VA became aware of concerns from school officials that 
some returned funds were not properly credited to individual students' 
accounts. In response to those concerns, VA issued clarifying 
instructions to the RPOs to ensure that any returned funds were 
properly credited to individual students' accounts. For example, the 
RPOs were informed to return checks to the school if the reason for the 
return or the exact dollar amount being refunded for each student could 
not be identified. Additionally, if the school reported that more funds 
were received than necessary for an individual's tuition and fees, the 
RPOs were instructed to process an amended award to show the reduced 
tuition and fee charge, establish the appropriate debt in the student's 
record, and then apply the remaining funds to the debt.

    Question 8: If a veteran has an overpayment what advice would you 
give the veteran?

    Response: When an overpayment is established, each student receives 
a notification letter from VA that provides information about the 
student's rights and responsibilities. The options for repayment of the 
debt are also provided. We suggest each Veteran review the letter to 
determine his/her best option. When Veterans contact VA, we can provide 
information about their enrollment status and direct them to the Debt 
Management Center (DMC) for specific collection questions. DMC 
specializes in the collection status, repayment plans, and measures 
taken if the debt is not repaid.

    Question 9: A witness has stated that VA has not issued clear, 
coherent and consistent Chapter 33 operational guidance to 
institutions. Is VA going to review their guidance to institutions to 
see where clarity may be needed?

    Response: VA continues to dialogue with schools through its ELRs 
and conducts outreach efforts to ensure consistent and easily-
understood information is provided about the Post-9/11 GI Bill. In 
addition, we conduct webinar training sessions and continue to 
participate in schools' national, regional, and local conferences. VA 
officials attended more than 100 training and informational conferences 
since the enactment of the Post-9/11 GI Bill to provide training, 
disseminate information, and answer questions from participants. VA 
routinely reviews the guidance as problems are called to our attention 
requiring additional clarification, and adjustments are made.
    SAAs also assist in outreach and dialogue efforts between VA and 
schools. As required by statute, VA contracts with each state to 
approve programs of education and support outreach. The SAAs provide 
information to schools, students, and employers.

    Question 10: Are the delays you are experiencing due to added 
functionality or is the long-term solution more challenging than 
originally anticipated?

    Response: The delays with the LTS are due to increases in 
functionality needed to improve claims processing capabilities, 
challenges with conversion of data from the interim system to the LTS, 
and a more complete understanding of the complexities of the interface 
with the Benefits Delivery Network. However, the successful delivery of 
Phases 1 and 2 of the LTS was an intense cooperative venture between VA 
Office of Information and Technology and the Veterans Benefits 
Administration. We are building the system as a team, and VA is 
delivering the system as a team. That relationship is the single 
largest contributing factor to the successful installation of the GI 
Bill system on schedule in March of this year, and the complete 
conversion of all GI Bill processing to this system in August. VA 
expects that the LTS will automate core internal claims processing 
procedures for Post-9/11 GI Bill claims by December 31, 2010.

    Question 11: When can veterans expect to receive retroactive 
payments for the housing allowance which increased in January?

    Response: VA began issuing checks with the 2010 basic allowance for 
housing (BAH) rates on September 1, 2010. Those enrolled in the Post-9/
11 GI Bill did not have to do anything to receive the increased BAH 
amount or retroactive payment. The payment amount automatically 
increased for those beneficiaries whose rate increased between 2009 and 
2010. At the same time, VA sent one-time payments for the retroactive 
BAH amount owed for training pursued between January 1, 2010 and July 
31, 2010.

    Question 12: How will the delays in the delivery of the systems 
specifically affect veterans?

    Response: Delays in the delivery of the LTS may impact the planned 
self-service capabilities where Veterans can interact with the system 
to receive information about their claim. VA will pursue development of 
self-service capabilities for the Post-9/11 GI Bill within FY2011. VA 
originally intended to explore self-service capabilities by December 
2010, assuming no additional requirements for necessary claims 
processing functionality. However, a delay in self-service 
functionality would not impact the timely delivery of benefits to 
Veterans.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
